<html>
<title> - SHAPING THE MESSAGE, DISTORTING THE SCIENCE: MEDIA STRATEGIES TO INFLUENCE SCIENCE POLICY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                    SHAPING THE MESSAGE, DISTORTING
                    THE SCIENCE: MEDIA STRATEGIES TO
                        INFLUENCE SCIENCE POLICY

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON INVESTIGATIONS AND
                               OVERSIGHT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 28, 2007

                               __________

                           Serial No. 110-17

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______


                     U.S. GOVERNMENT PRINTING OFFICE

34-337 PS                  WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001





                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              KEN CALVERT, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
NICK LAMPSON, Texas                  FRANK D. LUCAS, Oklahoma
GABRIELLE GIFFORDS, Arizona          JUDY BIGGERT, Illinois
JERRY MCNERNEY, California           W. TODD AKIN, Missouri
PAUL KANJORSKI, Pennsylvania         JO BONNER, Alabama
DARLENE HOOLEY, Oregon               TOM FEENEY, Florida
STEVEN R. ROTHMAN, New Jersey        RANDY NEUGEBAUER, Texas
MICHAEL M. HONDA, California         BOB INGLIS, South Carolina
JIM MATHESON, Utah                   DAVID G. REICHERT, Washington
MIKE ROSS, Arkansas                  MICHAEL T. MCCAUL, Texas
BEN CHANDLER, Kentucky               MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              PHIL GINGREY, Georgia
CHARLIE MELANCON, Louisiana          BRIAN P. BILBRAY, California
BARON P. HILL, Indiana               ADRIAN SMITH, Nebraska
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

              Subcommittee on Investigation and Oversight

               HON. BRAD MILLER, North Carolina, Chairman
JERRY F. COSTELLO, Illinois          F. JAMES SENSENBRENNER JR., 
EDDIE BERNICE JOHNSON, Texas             Wisconsin
DARLENE HOOLEY, Oregon               DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        TOM FEENEY, Florida
BRIAN BAIRD, Washington              MICHAEL T. MCCAUL, Texas
BART GORDON, Tennessee               RALPH M. HALL, Texas
                DAN PEARSON Subcommittee Staff Director
                  EDITH HOLLEMAN Subcommittee Counsel
            JAMES PAUL Democratic Professional Staff Member
          DOUG PASTERNAK Democratic Professional Staff Member
           KEN JACOBSON Democratic Professional Staff Member
            TOM HAMMOND Republican Professional Staff Member
                    STACEY STEEP Research Assistant




















                            C O N T E N T S

                             March 28, 2007

                                                                   Page
Witness List.....................................................     2

                           Opening Statements

Statement by Representative Brad Miller, Chairman, Subcommittee 
  on Investigations and Oversight, Committee on Science and 
  Technology, U.S. House of Representatives......................     3
    Written Statement............................................     3

Statement by Representative Dana Rohrabacher, Member, 
  Subcommittee on Investigations and Oversight, Committee on 
  Science and Technology, U.S. House of Representatives..........     4

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........     5

Prepared Statement by Representative F. James Sensenbrenner Jr., 
  Ranking Minority Member, Subcommittee on Investigations and 
  Oversight, Committee on Science and Technology, U.S. House of 
  Representatives................................................     6

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Investigations and Oversight, Committee on 
  Science and Technology, U.S. House of Representatives..........     8

                               Witnesses:

Mr. Sheldon Rampton, Research Director, Center for Media and 
  Democracy, Madison, Wisconsin; Co-author, Trust Us We're 
  Experts: How Industry Manipulates Science and Gambles With Your 
  Future
    Oral Statement...............................................     8
    Written Statement............................................    11
    Biography....................................................    21

Dr. James J. McCarthy, Alexander Agassiz Professor of Biological 
  Oceanography, Harvard University; Board Member, Union of 
  Concerned Scientists
    Oral Statement...............................................    21
    Written Statement............................................    23

Mr. Tarek F. Maassarani, Staff Attorney, Government 
  Accountability Project
    Oral Statement...............................................    40
    Written Statement............................................    41

Mr. Jeff Kueter, President, George C. Marshall Institute
    Oral Statement...............................................    47
    Written Statement............................................    49
    Biography....................................................    57

Discussion
  Climate Change: Industry Reaction..............................    57
  Climate Change: Scientific Reaction............................    57
  Climate Change: Government Reaction............................    58
  Funding for Climate Change Skeptics............................    59
  Scientists as Policy Advisors..................................    61
  Recommendations................................................    63
  Administration Position on Climate Change......................    65
  Climate Change Skeptics........................................    67
  Freedom of Information Act Requests............................    70
  Science Publishing Concerns....................................    70
  Political Pressure on Scientists...............................    73

             Appendix 1: Answers to Post-Hearing Questions

Mr. Sheldon Rampton, Research Director, Center for Media and 
  Democracy, Madison, Wisconsin; Co-author, Trust Us We're 
  Experts: How Industry Manipulates Science and Gambles With Your 
  Future.........................................................    82

Dr. James J. McCarthy, Alexander Agassiz Professor of Biological 
  Oceanography, Harvard University; Board Member, Union of 
  Concerned Scientists...........................................    85

Mr. Tarek F. Maassarani, Staff Attorney, Government 
  Accountability Project.........................................    88

Mr. Jeff Kueter, President, George C. Marshall Institute.........    89

             Appendix 2: Additional Material for the Record

Redacting the Science of Climate Change: An Investigative and 
  Synthesis Report, by Tarek Maassarani, Government 
  Accountability Project, March 2007.............................    92

Smoke, Mirrors & Hot Air: How ExxonMobil Uses Big Tobacco's 
  Tactics to Manufacture Uncertainty on Climate Science, Union of 
  Concerned Scientists, January 2007.............................   231

Atmosphere of Pressure: Political Interference in Federal Climate 
  Science, Union of Concerned Scientists, Government 
  Accountability Project, February 2007..........................   299






















 
   SHAPING THE MESSAGE, DISTORTING THE SCIENCE: MEDIA STRATEGIES TO 
                        INFLUENCE SCIENCE POLICY

                              ----------                              


                       WEDNESDAY, MARCH 28, 2007

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brad 
Miller [Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Miller. The Committee will come to order on 
today's hearing, Shaping the Message, Distorting the Science: 
Media Strategies to Influence Science Policy.
    Ronald Reagan said that facts were stubborn things. Mr. 
Rohrabacher may have written those words. The topic of today's 
hearing is a consorted effort by opponents of measures to 
reduce greenhouse gas emissions, to bully scientific facts into 
submission, and, under intense pressure, the facts about global 
warming caved in and proved much more elastic, much less 
stubborn than Ronald Reagan had us believe. At least that is 
how it has appeared to the public. According to the New York 
Times, opponents of the Kyoto Protocol in 1998 began recruiting 
scientists who believed or at least would say that evidence of 
global warming was insubstantial and evidence that greenhouse 
gas emissions were a cause of global warming was especially 
dubious.
    Reviewed studies by climate scientists were almost 
unanimous in finding that global warming was real and that 
greenhouse gas emissions were a major part of it. But in the 
popular press the question was treated as controversial among 
scientists. Television news programs usually featured one 
scientist who explained the overwhelming consensus view of 
climate scientists and one made-for-television expert who took 
the opposite view. To the average citizen it looked like a real 
debate between scientific peers. In fact, the skeptics were in 
the indirect employ of the oil and gas industry and that 
obviously conflict of interest was rarely disclosed. Few paid 
skeptics did any original research, many were not even trained 
in the fields in which they claimed expertise, and most simply 
specialized in attacking as ``junk science'' the careful, 
legitimate research that was published in journals and tested 
by rigorous peer review.
    According to the testimony we will hear today, since 2001, 
the Bush Administration has been part of the effort to 
manipulate the public debate about climate change. The Bush 
Administration, at the urging also of the oil and gas industry, 
muzzled Government scientists whose research supported the 
consensus view of climate scientists, adding to the public 
impression that there was substantial doubt among scientists. 
Press officers whose experience was in politics, not science, 
editor-suppressed press releases about government research, 
acted as monitors for government scientists during press 
interviews, and required that politically-reliable scientists 
speak to the press for each agency.
    The approved agency spokesman sometimes treated as 
outlandish as urban legend, the considered view of most 
scientists at the agency. There is much at stake here. We need 
to rely on sound scientific research to inform our decision. 
Scientific research should have no party affiliation.
    At this time Mr. Sensenbrenner, the Ranking Member, is 
unable to be here today, but the Chair recognizes Mr. 
Rohrabacher, the distinguished Member from California, for his 
opening statement.
    [The prepared statement of Chairman Miller follows:]
               Prepared Statement of Chairman Brad Miller
    Ronald Reagan said that facts were stubborn things. The topic of 
today's hearing is a concerted effort by opponents of measures to 
reduce greenhouse gas emissions to bully scientific facts into 
submission. And under intense pressure, the facts about global warming 
caved in, and proved much more elastic than Ronald Reagan had us 
believe.
    At least, that is how it has appeared to the public.
    According to the New York Times, opponents of the Kyoto Protocol in 
1998 began recruiting scientists who believed--or at least would say--
that evidence of global warming was insubstantial, and evidence that 
greenhouse gas emissions were a cause of global warming was especially 
dubious. Peer-reviewed studies by climate scientists were almost 
unanimous in finding that global warming was real and that greenhouse 
gas emissions were a major cause of it.
    But in the popular press, the question was treated as controversial 
among scientists.
    Television news programs usually featured one scientist who 
explained the overwhelming consensus view of legitimate climate 
scientists, and one made-for-television ``expert'' who took the 
opposite view. To the average citizen, it looked like a real debate 
between scientific peers.
    In fact, the skeptics were in the indirect employ of the oil and 
gas industry, and that obvious conflict of interest was rarely 
disclosed. Few paid skeptics did any original research, many were not 
even trained in the fields in which they claimed expertise, and most 
simply specialized in attacking as ``junk science'' the careful, 
legitimate research that was published in learned journals and tested 
by rigorous peer review.
    According to the testimony we will hear today, since 2001 the Bush 
Administration has been part of the effort to manipulate public debate 
about climate change.
    The Bush Administration, at the urging of the oil and gas industry, 
muzzled government scientists whose research supported the consensus 
view of climate scientists, adding to the public impression that there 
was substantial doubt among scientists. Press officers whose experience 
was in politics, not science, edited or suppressed press releases about 
government research, acted as ``minders'' for government scientists 
during press interviews, and required that politically-reliable 
scientists speak to the press for each agency. The approved agency 
spokesmen sometimes treated as outlandish, as urban legend, the 
considered view of most scientists at the agency.
    There is much at stake here. We need to rely on sound, 
dispassionate scientific research to inform our decisions. Scientific 
research should have no party affiliation.

    Mr. Rohrabacher. Thank you very much, Mr. Chairman. Let me 
note if there was ever a case of the pot calling the kettle 
black, this hearing is that example. For Pete's sakes, we have 
had tens of billions of dollars over the last 20 years spent on 
climate change research, and in the last 10 years or so, it may 
have been 15 years, there is ample evidence, and I will be 
submitting these quotes for the record, of prominent scientists 
who have been complaining that they have not been able to get 
grants if they voice skepticism about the global warming 
``consensus.''
    Mr. Chairman, the sound dispassionate science does not mean 
that you can dismiss people who disagree with a specific idea 
that is trying to be expressed by claiming that you represent a 
consensus. What I see happening more and more in this debate 
over global warming is that those people who are advocating 
this position end up not answering the charges of very 
respectable scientists, and again, one need only look at my 
website to find the names of hundreds of these prominent 
scientists from major universities who are not part of this so-
called consensus but now instead of answering the specific 
scientific challenges to these theories, what we find is a 
dismissal in the public debate of even acknowledging that there 
is a point being made and the point then being dismissed.
    Now, I will have to tell you, that is about as arrogant and 
about as anti-scientific an attitude, and it is prevailing in 
this debate. I mean, I don't want to hear about consensus 
anymore, proving that someone is right. The fact is that there 
has been consensuses in science in the past that have been dead 
wrong, and one or two individuals without any government grants 
because all the grants were going to the consensus, have made 
it, managed to change public opinion and scientific opinion on 
various issues. History is replete with examples of this. 
Instead, today we have people who are claiming to the mantle of 
sound, dispassionate science who are dismissing the arguments 
of the other side.
    One of the ways they can do this is instead of answering 
the arguments, just challenge who is paying for your research. 
Well, first of all, not all research is being paid to those 
people who disagree with illegal, excuse me, say illegal 
immigration, with global warming. The fact is not all people 
who are paid for that research are necessarily wrong. I mean, 
the fact is that there are special interests on both sides of 
this issue. We have organizations, today we will hear 
complaints that the oil companies are providing a certain 
degree of support for research, trying to find answers to some 
of the arguments that are being presented. Let me note, that 
doesn't make their findings any less wrong. Their findings 
should be examined just as those arguments that are being 
presented on the pro-global warming side, which are being 
funded by, you know, perhaps at a degree 100 times more 
spending on that side by special interest groups, let me add, 
than on the side of those people who are trying to disprove 
that theory.
    So today I am anxious to get down to the nitty gritty with 
the witnesses. I want to see why the fact that we can claim a 
consensus, which I have been hearing about for 10 years, even 
as we hear more and more scientists saying, I was cut out of 
getting any kind of research contracts unless I agreed with 
global warming. I will put examples of this, five examples of 
this into the Congressional record and into the record of this 
hearing. These are people who, for example, who are the heads 
of major universities' science departments and members of--
anyway, we will go through that. There is a member right here 
of the Director of Research for the Dutch, Royal Dutch 
Meteorological Institute who is now a Professor of aeronautical 
engineering at Penn State University, talks about as others 
from the University of Colorado, how people are, in the 
scientific community, are being basically influenced by the 
lure of getting Government grants to do research that will come 
up with a conclusion in favor of global warming, and that is 
skewing the research going on in this country.
    So in other words, this hearing is, if it is looking for 
scientists who are being pressured to do the wrong thing, 
perhaps we are looking in the wrong direction, because the 
pressure may be coming from exactly the opposite side, the side 
that is claiming to represent a consensus in order to suppress 
debate on this issue.
    Thank you very much.
    Chairman Miller. Thank you, Mr. Rohrabacher. We also have 
with us the Chairman of the Science and Technology Committee, 
Mr. Gordon of Tennessee. Mr. Gordon, I will recognize you for 
an opening statement.
    Chairman Gordon. Thank you, Chairman Miller, and my friend, 
Ranking Member Rohrabacher. I am not sure who is the kettle and 
who is the pot here today, but I do know that gravity and 
climate change--global warming--are two things that are pretty 
well established.
    Just the other day the IPCC, which was composed of 113 
nations, unanimously, including the United States and President 
Bush, unanimously endorsed that within 100 percent certainty 
there is global warming. And so it really is tough to make good 
policy from bad information, and it seems that in this town 
there is a new industry developing, and that industry is to try 
to create doubt where there is little doubt, not for scientific 
integrity, but to provide a hook for special interests, then to 
try to create that doubt. And I think it is a legitimate area 
for discussion. I think this is the first of a good series of 
hearings, and I think this is an area where we need to shine 
some sunlight. And I compliment the Chairman for doing this, 
and I am sure that those folks who don't agree, they have got a 
witness here today and will have ample opportunity to discuss 
that.
    So, again, thank you for calling this hearing.
    Chairman Miller. Thank you, Mr. Gordon. I think the only 
other Member we have here is Mr. Baird, and Mr. Baird, I doubt 
you have an opening statement, but if you do, you certainly--
no. I am mistaken.
    Mr. Baird. I will make a very, very brief one. I thank the 
Chair for hosting this. I would just say that I have concerns 
about the possible abuse or misuse of science on all sides. I 
have seen it in both directions. I have seen members of 
industry hire hired guns to present a certain askew, and I have 
seen members of environmental groups do the reverse.
    As a scientist myself I place a high priority on scientific 
integrity, regardless of the source. And so I applaud the 
Chairman for hosting today's hearing, and I hope we will look 
at abuses of science on all sides, because to whatever extent 
the data are being spun or distorted, it does a disservice to 
this public. And so I applaud the Chair for hosting this, and I 
look forward to the testimony.
    Chairman Miller. Thank you, Mr. Baird.
    [The prepared statement of Representative Sensenbrenner 
follows:]
    Prepared Statement of Representative F. James Sensenbrenner Jr.
    The title of today's hearing has an odious ring--``Shaping the 
Message, Distorting the Science.'' These accusations, leveled against 
ExxonMobil and against the Administration, have a grave tone. If it 
were not for the ubiquitous press headlines declaring the world's 
imminent demise from global warming, the title of today's hearing could 
have lead us to falsely conclude that the climate change debate was 
being stifled. I am now the Ranking Member on a Committee devoted 
almost entirely to climate change, and a recent poll by Time Magazine 
found that 88 percent of Americans believe that the Earth is getting 
warmer. All of this makes me wonder why we are here and what 
relationship this hearing has with reality.
    The alleged distortion of science is purportedly happening in two 
different ways. First, major industries, particularly ExxonMobil, are 
allegedly deceiving the masses by intentionally funding and trumpeting 
false science. Second, the Administration is allegedly curbing federal 
scientists from presenting scientific findings that are at odds with 
its policies. Before we start screaming ``McCarthyism,'' we should 
examine how little merit these accusations actually have.
    The first alleged distortion of science was purportedly perpetrated 
by ExxonMobil. The report ``Smoke, Mirrors, and Hot Air'' by the Union 
of Concerned Scientists (UCS) accuses ExxonMobil of using ``big 
tobacco's tactics to manufacture uncertainty on climate science.'' The 
crux of UCS' argument relies on $16 million that ExxonMobil spent over 
a period of seven years to promote science that UCS disagrees with. UCS 
concedes that what amounts to a little over $2 million per year is a 
modest sum of money for a company that records profits of $100 million 
per day, but nonetheless, argues that ExxonMobil has been ``remarkably 
effective at manufacturing uncertainty about the scientific consensus 
on global warming.''
    ExxonMobil's efforts seem especially remarkable in light of the 
fact that ExxonMobil spends significantly more money to fund projects 
that even UCS concedes are credible. To name a few, ExxonMobil has 
supported projects with Carnegie Mellon, the Hadley Centre for Climate 
Prediction, Columbia University, the Massachusetts Institute of 
Technology, the University of Texas, and Yale. In just one instance, 
ExxonMobil pledged $100 million over ten years for Stanford 
University's Global Climate and Energy Project, which seeks to develop 
``new energy technologies that will permit the development of global 
energy systems with significantly lower global warming emissions.'' Is 
the work at Stanford University similarly suspect? How can we fairly 
accuse ExxonMobil of spreading a campaign of misinformation when it is 
funding a full spectrum of scientific research?
    The second method of scientific distortion purportedly comes from 
the Administration. Despite its accusatory title, the Government 
Accountability Project's report, ``Redacting the Science of Climate 
Change,'' concedes that it found ``no incidents of direct interference 
in climate change research.'' Regarding climate change scientists, the 
report concludes:

         [T]he investigation by the Government Accountability Project 
        has uncovered no concrete evidence that political actors are 
        directly and willfully interfering with this fundamental aspect 
        of scientific work.

    Thus, despite its lengthy report and its year long investigation, 
GAP did not find any evidence that the Administration had interfered 
with climate change research.
    Just as the integrity of federal research is not attacked, there 
are no serious allegations that the Administration is concealing the 
results of this research from the public. When asked about scientific 
integrity at his agency, Robert Atlas, Director of the Atlantic 
Oceanographic and Meteorological Laboratory (AOML) at the National 
Oceanic and Atmospheric Administration, responded:

         I have not observed any political interference with our 
        ability at AOML to communicate scientific information. All of 
        our scientists are free to publish their results in the 
        refereed scientific literature and to present high quality 
        research at national or international conferences. Only the 
        quality of the research is scrutinized and scientists are 
        encouraged to present their conclusions that are supported by 
        their research.

    This sentiment is echoed by the scientific community. Eighty-eight 
percent of federal climate scientists surveyed believe that Federal 
Government climate research is of generally excellent quality and 70 
percent believe that federal climate research is independent and 
impartial.
    So, to recap, there is no evidence that the policy-makers seek to 
control or influence scientific research, federal scientists are freely 
encouraged to publish the results of their research, and the relevant 
scientists overwhelmingly believe that their research is independent 
and impartial. And yet, the title of today's hearing is ``Shaping the 
message, Distorting the Science?'' Wouldn't ``Partisanship for the Sake 
of Partisanship'' have been more accurate? If the science is 
independent and the results are freely published, the only thing 
policy-makers are controlling is policy. Surely, the Federal Government 
has a right to oversee federal scientists and speak with a consistent 
message.
    Furthermore, both NASA and NOAA have taken steps to address 
potential problems. NASA introduced a media policy that was widely 
accepted by the scientific community, and NOAA plans to adopt a similar 
policy in the coming weeks. Additionally, the Inspectors General at the 
Department of Commerce and NASA, as well as the Government 
Accountability Office, all have ongoing investigations related to this 
topic. The Full Committee plans to hold a hearing on this topic after 
these reports are released. We will have an opportunity to examine any 
potential problems, in detail, when these reports are released.
    I believe very strongly in Congress' responsibility to hold the 
executive branch accountable. And I believe that the Federal Government 
should pursue policies that are both environmentally and economically 
sound. I look forward to an opportunity to leave these partisan 
investigations behind and focus on these shared goals.

    [The prepared statement of Representative Costello 
follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good afternoon. Thank you Mr. Chairman for calling this hearing to 
listen to testimony from various witnesses on the extent to which 
political interference did or did not alter federal climate change 
research and the dissemination of scientific information.
    This is the first hearing by the Subcommittee addressing the issue 
of science and the media. For the past few years, there have been 
repeated reports about efforts within the science agencies to control 
which federal scientists get access to conferences or the press. 
Further, there have been additional reports of how big oil have used 
some of their profits to create the impression of doubt in the science 
surrounding climate change. Today's hearing will provide Members the 
opportunity to receive ``big picture'' testimony on what has happened 
and what we know.
    The manipulation of science for public relations or political 
advantage is intolerable and inevitably has a corrupting effect on 
science itself. I believe greater public transparency regarding the 
sponsorship of science and of organizations that claim to speak on 
scientific matters is critically important. Further, the public and 
policy-makers have a right and to know who is funding research and how 
it may be affecting the outcome of the science.
    I welcome our panel of witnesses and look forward to their 
testimony.

    Chairman Miller. I will now introduce our witnesses. First 
is Mr. Sheldon Rampton, the Research Director at the Center for 
Media and Democracy and co-author of Trust Us, We're Experts: 
How Industry Manipulates Science and Gambles With Your Future.
    Second is Dr. James McCarthy, the Alexander Agassiz 
Professor of Biological Oceanography at Harvard University, and 
President-Elect of the American Association for the Advancement 
of Science and a member of the Board of the Union of Concerned 
Scientists.
    Mr. Tarek Maassarani, Staff Attorney with the Government 
Accountability Project and author of the report, Redacting the 
Science of Climate Change, and finally, Mr. Jeff Kueter, 
President of the George C. Marshall Institute.
    You have all submitted, I think, written testimony, which 
will be made part of the record. Thank you for that. Your oral 
testimony will be limited to five minutes. And after the entire 
panel has testified the Members of the Committee will have five 
minutes each to ask questions.
    It is the practice of this subcommittee to take testimony 
under oath. Do any of you have any objection to taking an oath, 
swearing an oath? If not, you also have the right to be 
represented by counsel. Do any of you have counsel here? All 
right. If you would all now please stand and raise your right 
hand. Thank you.
    [Witnesses sworn]
    Chairman Miller. Thank you. We will begin with Mr. Rampton.

STATEMENT OF MR. SHELDON RAMPTON, RESEARCH DIRECTOR, CENTER FOR 
 MEDIA AND DEMOCRACY, MADISON, WISCONSIN; CO-AUTHOR, TRUST US 
  WE'RE EXPERTS: HOW INDUSTRY MANIPULATES SCIENCE AND GAMBLES 
                        WITH YOUR FUTURE

    Mr. Rampton. Well, thank you very much for holding this 
hearing and for inviting me to testify. I am going to speak 
about the general practice of science manipulation for public 
relations purposes. I understand some of the other speakers 
will focus more specifically on the issue of global warming.
    The power that science wields in modern society is a 
reflection of the fact that it has shown the ability to create 
knowledge that is as reliable as any product of human endeavor. 
The very prestige of science, however, also makes it an 
attractive tool for manipulating public opinion. You can find 
science being used for that purpose, for example, in the 
advertisements and television commercials which announce that 
laboratory tests prove toothpaste X whitens teeth whiter or 
that nine out of 10 doctors agree that brand X is better than 
brand Y.
    Advertising, however, is only the most visible aspect of a 
variety of modern persuasive techniques that include public 
relations and lobbying, all branches of what should more 
properly be termed a modern propaganda industry. Some of these 
techniques are actually more subtle and hidden than 
advertising. The use of endorsements by scientific experts to 
sell a product or policy is often done without public 
disclosure that the experts have been recruited or even paid to 
do so. This technique has become so common, in fact, that the 
public relations industry actually has a standard term for it. 
They call it the third-party technique.
    The idea behind his phrase is that the PR firm's client, 
typically some company, industry, or other special interest, is 
the first party, interested in delivering some persuasive 
message to a second party, the audience. However, experience 
shows that if the message is seen as coming directly from the 
client, the audience will greet the message with skepticism 
because it is so obviously self-serving. To give the message 
more credibility, therefore, lobbyists, public relations firms 
finds that it helps if they can use a third party who seems 
independent to deliver that message for them. One public 
relations executive has explained the third-party technique as 
``put your words in someone else's mouth.'' It turns out that 
the prestige and power of science makes scientists, academics, 
doctors, and other professional experts very useful third-party 
spokespersons, if they can be recruited for this purpose.
    Sometimes this technique is used to exaggerate the benefits 
of a product. Other times it is used to create doubt about a 
product's hazards. In public policy debates it can be used to 
cast doubt about the seriousness of problems requiring 
government action. Conversely, sometimes it is used to 
exaggerate dangers in order to build pressure for legislation 
or other government action that the client desires.
    Scientific journals are now routinely used to serve 
companies' marketing and public policy objectives, sometimes 
with serious negative consequences for the public. The tobacco 
industry, of course, is well known for its public relations 
manipulations of science. Many instances of this have now 
become public knowledge, thanks to whistleblowers and lawsuits 
that resulted in the public release of millions of pages of 
previously secret industry documents. The first clear 
scientific evidence showing the link between smoking and lung 
cancer emerged in the early 1950s, but public recognition of 
the extent of his hazard was delayed for decades due to 
aggressive public relations by the tobacco industry. And even 
today the industry is involved in rearguard efforts to downplay 
the dangers of hazards such as secondhand smoke.
    A few years ago, for example, documents came to light 
regarding an industry-funded campaign in the 1990s to plant 
sympathetic letters and articles in influential medical 
journals. Tobacco companies had secretly paid 13 scientists a 
total of $156,000 simple to sign their names to these letters 
and articles. One biostatistician received $10,000 for writing 
a single, 8-page letter that was published in the Journal of 
the American Medical Association. Another received $20,000 for 
writing four letters and an opinion piece to the Lancet, the 
Journal of the National Cancer Institute and the Wall Street 
Journal. These scientists did not even have to write the 
letters themselves. The tobacco industry's law firms did the 
actual drafting and editing. So in essence they were being paid 
for their autographs.
    The tobacco industry is hardly alone, however, in 
attempting to manipulate the scientific publishing process. As 
the Wall Street Journal reported in December, 2005, ``Many of 
the articles that appears in scientific journals under the 
byline of prominent academics are actually written by 
ghostwriters in the pay of drug companies.'' Used by doctors to 
guide their care of patients, these ``seemingly objective 
articles are often part of a marketing campaign.'' To promote 
the diet-drug combo fen-phen, for example, Wyeth-Ayerst 
Laboratories commissioned ghostwriters to write 10 articles for 
publication in peer-reviewed medical journals. After fen-phen 
was linked to heart valve damage and lung disease, the company 
was forced to pull the drugs from the market. Subsequent 
lawsuits filed by injured fen-phen users unearthed internal 
company documents showing that the drug company had also edited 
the draft articles to play down and occasionally delete 
descriptions of side effects. The final articles were published 
under the names of prominent researchers, one of whom claimed 
later in courtroom testimony that he had no idea that a 
pharmaceutical company had commissioned the article on which 
his own name appeared. ``It is really deceptive,'' he told the 
court. ``It sort of makes you uneasy.''
    So how does a doctor's name actually appear as the primary 
author of a study without him knowing who sponsored it? The 
process in this case involved an intermediary hired by the drug 
company names Excerpta Medica. Excerpta received $20,000 for 
each article which was written by its ghostwriters. It then 
lined up well-known university researchers and paid them 
honoraria of $1,000 to $1,500 to edit their drafts and lend 
their names to the final work. One of these brand-name 
researchers even sent a letter back praising Excerpta's 
ghostwriting skills. He joked, ``Perhaps I can get you to write 
all my papers for me! My only general comment is that this 
piece may make fen-phen sound better than it really is.''
    A similar pattern recurs on issue after issue; air quality, 
water quality, product safety, and nutrition. One internal 
memorandum from a public relations firm to a client boasted 
about the range of issues which they managed for ``the 
following industries impacted by science and environmental 
policy decisions.''
    Chairman Miller. Mr. Rampton, if you could summarize in 
just a sentence or two, please.
    Mr. Rampton. Just a sentence or two? All right. The 
manipulation of science for public relations or political 
advantage inevitably has a corrupting effect on science itself. 
It undermines the integrity and objectivity of scientific 
research. What is needed, therefore, is greater public 
transparency regarding the sponsorship of science and of 
organizations that claim to speak on scientific matters.
    [Statement of Mr. Rampton follows:]
                 Prepared Statement of Sheldon Rampton
    The power that science wields in modern society is a reflection of 
its ability to create knowledge that is as reliable as any product of 
human endeavor. The very prestige of science, however, also makes it an 
attractive tool for manipulating public opinion. You can find science 
being used for that purpose, for example, in the advertisements and 
television commercials which announce that ``laboratory tests prove 
toothpaste X whitens teeth whiter,'' or ``nine out of ten doctors 
agree'' that brand X is better than brand Y. Advertising, however, is 
only the most visible aspect of a variety of modern persuasive 
techniques that include public relations and lobbying--all branches of 
what should more properly be termed a modern propaganda industry. Some 
of these techniques are actually more subtle and hidden than 
advertising. The use of endorsements by scientific experts to sell a 
product or policy is often done without public disclosure that the 
experts have been recruited or paid to do so. This technique has become 
so common that the public relations industry has a standard term for 
it. They call it the ``third party technique.''
    The idea behind this phrase is that the PR firm's client--typically 
some company, industry or other special interest--is the ``first 
party'' interested in delivering some persuasive message to a ``second 
party,'' its audience. However, experience shows that if the message is 
seen as coming directly from the client, the audience will treat the 
message with skepticism because it is so obviously self-serving. To 
give the message more credibility, therefore, lobbyists and PR firms 
find that it helps if they can use a third party who seems independent 
to deliver it for them. One public relations executive has explained 
the third party technique as, ``Put your words in someone else's 
mouth.'' It turns out that the prestige and power of science makes 
scientists, academics, doctors and other professional experts very 
useful third-party spokespersons if they can be recruited for this 
purpose.
    Sometimes this technique is used to exaggerate the benefits of a 
product. Other times it is used to create doubt about a product's 
hazards. In public policy debates, it can be used to cast doubt about 
the seriousness of problems requiring government action. Conversely, 
sometimes it is used to exaggerate dangers in order to build pressure 
for legislation or other government action that the client desires.
    Scientific journals are now routinely used to serve companies' 
marketing and public policy objectives, sometimes with serious 
consequences. The tobacco industry is well known for its PR 
manipulations of science. Many instances of this have now become public 
knowledge thanks to whistleblowers and lawsuits that resulted in the 
public release of millions of pages of once-secret industry documents. 
Clear scientific evidence showing the link between smoking and lung 
cancer first emerged in the early 1950s. Public recognition of the 
extent of this hazard was delayed for decades due to aggressive public 
relations by the tobacco industry, and even today the industry is 
involved in rear-guard efforts to downplay the dangers of hazards such 
as secondhand smoke. A few years ago, for example, documents came to 
light regarding an industry-sponsored campaign in the early 1990s to 
plant sympathetic letters and articles in influential medical journals. 
Tobacco companies had secretly paid 13 scientists a total of $156,000 
simply to write them. One biostatistician received $10,000 for writing 
a single, eight-paragraph letter that was published in the Journal of 
the American Medical Association. Another received $20,137 for writing 
four letters and an opinion piece to the Lancet, the Journal of the 
National Cancer Institute and the Wall Street Journal. These scientists 
did not even have to write the letters themselves. The tobacco 
industry's law firms did the actual drafting and editing.
    The tobacco industry is hardly alone, however, in attempting to 
manipulate the scientific publishing process. As the Wall Street 
Journal reported in December 2005, ``Many of the articles that appear 
in scientific journals under the byline of prominent academics are 
actually written by ghostwriters in the pay of drug companies.'' Used 
by doctors to guide their care of patients, these ``seemingly objective 
articles. . .are often part of a marketing campaign.'' To promote the 
diet-drug combo fen-phen, for example, Wyeth-Ayerst Laboratories 
commissioned ghostwriters to write ten articles for publication in 
peer-reviewed medical journals. After fen-phen was linked to heart 
valve damage and lung disease, the company was forced to pull the drugs 
from the market. Subsequent lawsuits filed by injured fen-phen users 
unearthed internal company documents showing that Wyeth-Ayerst had also 
edited the draft articles to play down and occasionally delete 
descriptions of side effects. The final articles were published under 
the names of prominent researchers, one of whom claimed later in 
courtroom testimony that he had no idea that the pharmaceutical company 
had commissioned the article on which his own name appeared. ``It's 
really deceptive,'' he told the court. ``It sort of makes you uneasy.''
    How does a doctor's name appear an article without him knowing who 
sponsored it? The process involved an intermediary hired by Wyeth-
Ayerst named Excerpta Medica. Excerpta received $20,000 for each 
article written by its ghostwriters. It then lined up well-known 
university researchers and paid them honoraria of $1,000 to $1,500 to 
edit the drafts and lend their names to the final work. One of the 
name-brand researchers even sent a letter back praising Excerpta's 
ghostwriting skills. He joked, ``Perhaps I can get you to write all my 
papers for me! My only general comment is that this piece may make 
[fen-phen] sound better than it really is.''
    A similar pattern recurs on issue after issue--air quality, water 
quality, product safety, and nutrition. Scientists are seen by industry 
not as researchers who objectively study phenomena but as potential 
spokespersons to help promote positions favorable to their sponsors. 
This strategy has become so common that sometimes industry PR people 
use the term ``independent scientist'' without apparently thinking 
about what the word ``independent'' actually means. A few years ago, 
the New York Times obtained some leaked documents from the American 
Petroleum Institute, in which the Institute detailed its plans to spend 
$600,000 to develop a team of pro-industry climate scientists who would 
dispute the link between greenhouse gas emissions and global warming. 
They planned to, in their words, ``identify, recruit and train a team 
of five independent scientists to participate in media outreach.'' 
Somehow the authors of this plan never bothered to ask themselves how a 
scientist who has been specifically recruited and trained by the 
petroleum industry could be honestly described as ``independent.''
    A converse strategy aims at suppressing independent scientific 
views, discoveries and evidence that are inconvenient to the industry 
or its lobbying interests. For example, the House Committee on 
Oversight and Government Reform recently released documents showing 
``hundreds of instances'' where a former and current oil industry 
lobbyist had edited government reports to downplay the impact of human 
activities on global warming. The edits were by Philip A. Cooney, the 
former chief of staff of the White House Council on Environmental 
Quality. Cooney himself has no scientific credentials. He worked for 
the American Petroleum Institute prior to being appointed to his 
position within the Bush administration. He now works for ExxonMobil.
    The manipulation of science for public relations or political 
advantage inevitably has a corrupting effect on science itself. It 
undermines the integrity and objectivity of scientific research. It 
creates confusion in the minds of policy-makers and the general public. 
What is needed, therefore, is greater public transparency regarding the 
sponsorship of science and of organizations that claim to speak on 
scientific matters. The public and policy-makers have a right and to 
know who is funding research, what strings are attached to that 
funding, and how it may be affecting the information we use to make 
decisions--especially decisions on policy matters that affect us all.
           PUBLIC HEALTH REPORTS/VOLUME 117/JULY-AUGUST, 2002

              Research Funding, Conflicts of Interest, and

              the ``Meta-methodology'' of Public Relations

                  By Sheldon Rampton and John Stauber
    The power that science wields in modern society is a reflection of 
its ability to create knowledge that is as reliable as any product of 
human endeavor. Its very prestige, however, also makes it an attractive 
tool for public relations and marketing purposes. We are all familiar 
with the commercials announcing that ``laboratory tests prove'' or 
``nine out of ten doctors agree'' that brand X is better than brand Y. 
Advertising, however, is only the most visible aspect of modern 
industry propaganda . Many similar endorsement strategies have been 
developed by the public relations industry, which prides itself on 
working invisibly behind the scenes to place self-serving messages for 
its clients in the mouths of seemingly independent third party experts. 
Within the PR industry, in fact, this strategy has come to be known as 
the ``third party technique.'' Merrill Rose, Executive Vice-President 
of the Porter/Novelli PR firm, explains the technique succinctly: ``Put 
your words in someone else's mouth.'' \1\ Sometimes the technique is 
used to exaggerate the benefits of a product. Other times it is used to 
create doubt about a product's hazards, or about criticisms that have 
been made of a company's business practices.
---------------------------------------------------------------------------
    \1\ Merrill Rose, ``Activism in the 90s: Changing Roles for Public 
Relations,'' Public Relations Quarterly, Vol. 36, no. 3 (1991), pp. 28-
32.
---------------------------------------------------------------------------
    PR firms use a variety of quasi-scientific methodologies 
themselves, such as opinion polling, demographics and psychology. At 
its core, however, public relations operates on assumptions that are 
antithetical to science. The ideological underpinning of the scientific 
endeavor is a belief that ``the truth is out there'' and that it can be 
grasped through rational human inquiry. ``Spin,'' however, is the art 
of arranging appearances, not substance. ``In this era of exploding 
media technologies, there is no truth except the truth you create for 
yourself,'' says Richard Edelman at Edelman Worldwide, one of the 
world's largest PR firms.\2\ As advertising executive Jack Trout 
observes, ``Marketing is a battle of perception, not products. Truth 
has no bearing on the issue.''
---------------------------------------------------------------------------
    \2\ Randall Rothenberg, ``The Age of Spin,'' Esquire, December 
1996, p. 71.
---------------------------------------------------------------------------
    Modern science considers itself scientific because it adheres to 
certain methodologies. It uses quantitative methods and measurable 
phenomena; its data is empirically derived and verifiable by others 
through experiments that can be reproduced; and, finally, its 
practitioners are impartial. Whereas ideological thinkers promulgate 
dogmas and defend them in the face of evidence to the contrary, 
scientists work with hypotheses which they modify when the evidence so 
dictates. When public relations recruits scientists to serve as ``third 
party experts,'' however, the techniques of PR function as a ``meta-
methodology'' that can have a corrupting influence on research.

Publication Bias

    The tobacco industry is well known for its PR manipulations of 
science, many of which have become public knowledge thanks to 
whistleblowers and lawsuits that have resulted in the public release of 
millions of pages of once-secret industry documents. In 1998, for 
example, documents came to light regarding an industry-sponsored 
campaign in the early 1990s to plant sympathetic letters and articles 
in influential medical journals. Tobacco companies had secretly paid 13 
scientists a total of $156,000 simply to write a few letters to 
influential medical journals. One biostatistician, Nathan Mantel of 
American University in Washington, received $10,000 for writing a 
single, eight-paragraph letter that was published in the Journal of the 
American Medical Association. Cancer researcher Gio Batta Gori received 
$20,137 for writing four letters and an opinion piece to the Lancet, 
the Journal of the National Cancer Institute and the Wall Street 
Journal. The scientists didn't even have to write the letters 
themselves. Two tobacco-industry law firms were available to do the 
actual drafting and editing. In some cases, scientists were paid not 
just to write letters but entire scientific articles. In one case, the 
tobacco industry paid $25,000 to a single scientist to write an article 
for the publication Risk Analysis. The same fee went to former EPA 
official John Todhunter and tobacco consultant W. Gary Flamm for an 
article titled ``EPA Process, Risk Assessment-Risk Management Issues'' 
which they published in the Journal of Regulatory Toxicology and 
Pharmacology, where Flamm served as a member of the journal's editorial 
board. Not only did they fail to disclose that their article had been 
commissioned by the tobacco industry, journal editor C. Jelleff Carr 
later admitted he ``never asked that question, `Were you paid to write 
that?' I think it would be almost improper for me to do it.'' \3\
---------------------------------------------------------------------------
    \3\ David Hanners, ``Scientists Were Paid to Write Letters: Tobacco 
Industry Sought to Discredit EPA Report,'' St. Louis Pioneer Dispatch, 
August 4, 1998.
---------------------------------------------------------------------------
    The tobacco industry is hardly alone, however, in attempting to 
influence the scientific publishing process. A similar example of 
industry influence came to light in 1999 regarding the diet-drug combo 
fen-phen, developed by Wyeth-Ayerst Laboratories. Wyeth-Ayerst had 
commissioned ghostwriters to write ten articles promoting fen-phen as a 
treatment for obesity. Two of the ten articles were actually published 
in peer-reviewed medical journals before studies linked fen-phen to 
heart valve damage and an often-fatal lung disease, forcing the company 
to pull the drugs from the market in September 1997. In lawsuits filed 
by injured fen-phen users, internal company documents were subpoenaed 
showing that Wyeth-Ayerst had also edited the draft articles to play 
down and occasionally delete descriptions of side effects associated 
with the drugs. The final articles were published under the names of 
prominent researchers, one of whom claimed later that he had no idea 
that Wyeth had commissioned the article on which his name appeared. 
``It's really deceptive,'' said Dr. Albert J. Stunkard of the 
University of Pennsylvania, whose article was published in the American 
Journal of Medicine in February 1996. ``It sort of makes you uneasy.'' 
\4\
---------------------------------------------------------------------------
    \4\ Charles Ornstein, ``Fen-phen Maker Accused of Funding Journal 
Articles,'' Dallas Morning News, May 23, 1999, p. 1A.
---------------------------------------------------------------------------
    How does a doctor's name appear an article without him knowing who 
sponsored it? The process involved an intermediary hired by Wyeth-
Ayerst--Excerpta Medica, Inc., which received $20,000 for each article. 
Excerpta's ghost writers produced first-draft versions of the articles 
and then lined up well-known university researchers like Stunkard and 
paid them honoraria of $1,000 to $1,500 to edit the drafts and lend 
their names to the final work. Stunkard says Excerpta did not tell him 
that the honorarium originally came from Wyeth. One of the name-brand 
researchers even sent a letter back praising Excerpta's ghostwriting 
skills. ``Let me congratulate you and your writer on an excellent and 
thorough review of the literature, clearly written,'' wrote Dr. Richard 
L. Atkinson, professor of medicine and nutritional science at the 
University of Wisconsin Medical School. ``Perhaps I can get you to 
write all my papers for me! My only general comment is that this piece 
may make dexfenfluramine sound better than it really is.'' \5\
---------------------------------------------------------------------------
    \5\ Ibid.
---------------------------------------------------------------------------
    ``The whole process strikes me as egregious,'' said Jerome P. 
Kassirer, then-editor of the New England Journal of Medicine--``the 
fact that Wyeth commissioned someone to write pieces that are favorable 
to them, the fact that they paid people to put their names on these 
things, the fact that people were willing to put their names on it, the 
fact that the journals published them without asking questions.'' Yet 
it would be a mistake to imagine that these failures of the scientific 
publishing system reflect greed or laziness on the part of the 
individuals involved. Naivete might be a better word to describe the 
mindset of the researchers who participate in this sort of arrangement. 
In any case, the Wyeth-Ayerst practice is not an isolated incident. 
``This is a common practice in the industry. It's not particular to 
us,'' said Wyeth spokesman Doug Petkus.
    ``Pharmaceutical companies hire PR firms to promote drugs,'' agrees 
science writer Norman Bauman. ``Those promotions include hiring 
freelance writers to write articles for peer-reviewed journals, under 
the byline of doctors whom they also hire. This has been discussed 
extensively in the medical journals and also in the Wall Street 
Journal, and I personally know people who write these journal articles. 
The pay is OK--about $3,000 for a six- to ten-page journal article.''
    Even the New England Journal of Medicine--often described as the 
world's most prestigious medical journal--has been involved in 
controversies regarding hidden economic interests that shape its 
content and conclusions. In 1986, for example, NEJM published one study 
and rejected another that reached opposite conclusions about the 
antibiotic amoxicillin, even though both studies were based on the same 
data. Scientists involved with the first, favorable study had received 
$1.6 million in grants from the drug manufacturer, while the author of 
the critical study had refused corporate funding. NEJM proclaimed the 
pro-amoxicillin study the ``authorized'' version, and the author of the 
critical study underwent years of discipline and demotions from the 
academic bureaucracy at his university, which also took the side of the 
industry-funded scientist. Five years later, the dissenting scientist's 
critical study finally found publication in the Journal of the American 
Medical Association, and other large-scale testing of children showed 
that those who took amoxicillin actually experienced lower recovery 
rates than children who took no medicine at all.\6\ In 1989, NEJM came 
under fire again when it published an article downplaying the dangers 
of exposure to asbestos while failing to disclose that the author had 
ties to the asbestos industry.\7\ In 1996, a similar controversy 
emerged when the journal ran an editorial touting the benefits of diet 
drugs, again failing to note that the editorial's authors were paid 
consultants for companies that sell the drugs.\8\
---------------------------------------------------------------------------
    \6\ Robert Bell, Impure Science: Fraud, Compromise and Political 
Influence in Scientific Research (New York, NY: John Wiley & Sons, 
Inc., 1992), pp. 190-219.
    \7\ Brooke T. Mossman and J. Bernard L. Gee, ``Asbestos-related 
Diseases,'' New England Journal of Medicine, Vol. 320, no. 26 (June 29, 
1989), pp. 1721-1730. For a detailed critique of this incident, see 
Paul Brodeur and Bill Ravanesi, ``Old Tricks,'' The Networker 
(newsletter of the Science and Environmental Health Network), June 
1998.
    \8\ For NEJM's response to the controversy over this incident, see 
Marcia Angell and Jerome P. Kassirer, ``Editorials and Conflicts of 
Interest,'' New England Journal of Medicine, No. 335 (1996), pp. 1055-
1056. For the researchers' side, see JoAnn E. Mason, ``Adventures in 
Scientific Discourse,'' Epidemiology, Vol. 8, no. 3 (May 1997).
---------------------------------------------------------------------------
    In November 1997, questions of conflict of interest arose again 
when the NEJM published a scathing review of Sandra Steingraber's book, 
Living Downstream: An Ecologist Looks at Cancer. Authored by Jerry H. 
Berke, the review described Steingraber as ``obsessed. . .with 
environmental pollution as the cause of cancer'' and accused her of 
``oversights and simplifications. . .biased work. . .notoriously poor 
scholarship. . .. The focus on environmental pollution and agricultural 
chemicals to explain human cancer has simply not been fruitful nor 
given rise to useful preventive strategies. . .. Living Downstream 
frightens, at times misinforms, and then scorns genuine efforts at 
cancer prevention through lifestyle change. The objective of Living 
Downstream appears ultimately to be controversy.'' \9\
---------------------------------------------------------------------------
    \9\ Jerry H. Berke, ``Living Downstream'' (book review), New 
England Journal of Medicine, No. 337 (1997), p. 1562.
---------------------------------------------------------------------------
    Berke was identified alongside the review as ``Jerry H. Berke, MD, 
MPH.'' The NEJM failed to disclose, however, that Berke was director of 
toxicology for W.R. Grace, one of the world's largest chemical 
manufacturers and a notorious polluter. A leading manufacturer of 
asbestos-containing building products, W.R. Grace has been a defendant 
in several thousand asbestos-related cancer lawsuits and has paid 
millions of dollars in related court judgments. It is probably best-
known as the company that polluted the drinking water of the town of 
Woburn, Massachusetts, and later paid an $8 million out-of-court 
settlement to the families of seven Woburn children and one adult who 
contracted leukemia after drinking contaminated water. During the 
Woburn investigation, Grace was caught in two felony lies to the U.S. 
Environmental Protection Agency.
    In response to criticism of these lapses, NEJM editor Jerome P. 
Kassirer insisted that his journal's conflict-of-interest policy was 
``the tightest in the business.'' \10\ The sad fact is that this boast 
is probably correct. In 1996, Sheldon Krimsky of Tufts University did a 
study of journal disclosures that dug into the industry connections of 
the authors of 789 scientific papers published by 1,105 researchers in 
14 leading life science and biomedical journals. In 34 percent of the 
papers, at least one of the chief authors had an identifiable financial 
interest connected to the research, and Krimsky observed that the 
estimate of 34 percent was probably lower than the true level of 
financial conflict of interest, since he was unable to check if the 
researchers owned stock or had received consulting fees from the 
companies involved in commercial applications of their research. None 
of these financial interests were disclosed in the journals, where 
readers could see them.\11\ In 1999, a larger study by Krimsky examined 
62,000 articles published in 210 different scientific journals and 
found only one half of one percent of the articles included information 
about the authors' research-related financial ties. Although all of the 
journals had a formal requirement for disclosure of conflicts of 
interest, 142 of the journals had not published a single disclosure 
during 1997, the year under study.\12\
---------------------------------------------------------------------------
    \10\ ``Medical Journal Apologizes for Ethics Blunder,'' Washington 
Post, December 28, 1997.
    \11\ Sheldon Krimsky et al., ``Scientific Journals and Their 
Authors' Financial Interests: A Pilot Study,'' Psychother Psychosom, 
Vol. 67, nos. 4-5 (July-October 1998), pp. 194-201.
    \12\ Reported in Ralph T. King, ``Medical Journals Rarely Disclose 
Researchers' Ties, Drawing Ire,'' Wall Street Journal, February 2, 
1999. See also Sheldon Krimsky, ``Will Disclosure of Financial 
Interests Brighten the Image of Entrepreneurial Science?'' (Abstract A-
29), in 1999 AAAS Annual Meeting and Science Innovation Exposition: 
Challenges for a New Century, C.J. Boyd, ed., American Association for 
the Advancement of Science.
---------------------------------------------------------------------------
    Corporate-sponsored scientific symposiums provide another means for 
manipulating the content of medical journals. In 1992, the New England 
Journal of Medicine published a survey of 625 such symposiums which 
found that 42 percent of them were sponsored by a single pharmaceutical 
sponsor. There was a correlation, moreover, between single-company 
sponsorship and practices which commercialize or corrupt the scientific 
review process, including symposiums with misleading titles designed to 
promote a specific brand-name product. ``Industry-sponsored symposia 
are promotional in nature and. . .journals often abandon the peer-
review process when they publish symposiums,'' the survey 
concluded.\13\
---------------------------------------------------------------------------
    \13\ Lisa A. Bero, Alison Galbraith and Drummond Rennie, ``The 
Publication of Sponsored Symposiums in Medical Journals,'' New England 
Journal of Medicine, Vol. 327, no. 16 (October 15, 1992), pp. 1135-
1140.
---------------------------------------------------------------------------

Does Money Matter?

    As these examples illustrate, many of the factors that bias 
scientific results are considerably more subtle than outright bribery 
or fraud. Scientists can be naive about politics, PR and other external 
factors shaping their work, and may become indignant at the suggestion 
that their results are shaped by their funding. But science does not 
occur in a vacuum. In studying animal populations, biologists use the 
term ``selection pressure'' to describe the influence that 
environmental conditions exert upon the survival of certain genetic 
traits over others. Within the population of scientists, a similar type 
of selection pressure occurs as industry and government support, 
combined with the vicissitudes of political fashion, determine which 
careers flourish and which languish.
    The most dramatic trend influencing the direction of science during 
the past century has been its increasing dependence on funding from 
government and industry. Unlike the ``gentleman scientists'' of the 
nineteenth century who enjoyed financial independence that allowed them 
to explore their personal scientific interests with considerable 
freedom, today's scientists are engaged in expensive research that 
requires the support of sponsors with deep pockets. A number of factors 
have contributed to this change, from the rise of big government to the 
militarization of scientific research to the emergence of transnational 
corporations as important patrons of research.
    The last quarter of the twentieth century in particular has seen 
increasing commercialization of science, as the rise of the so-called 
``knowledge-based'' industries--computers, telecommunications and 
biotechnology--prompted a wide variety of corporate research 
initiatives. In 1970, Federal Government funding for research and 
development totaled $14.9 billion, compared to $10.4 billion from 
industry. By 1997, government expenditures were $62.7 billion compared 
to $133.3 billion from industry. After adjusting for inflation, 
government spending had barely risen, while business spending more than 
tripled.\14\ Much of this increase, moreover, took place through 
corporate partnerships with universities and other academic 
institutions, blurring the traditional line between private and public 
research. Between 1981 and 1995, the proportion of U.S. industry-
produced articles that were coauthored with at least one academic 
researcher roughly doubled, from 21.6 percent to 40.8 percent. The 
increase was even more dramatic in the field of biomedical research, 
where the number of coauthored articles quadrupled.\15\ According to 
the Association of American Medical Colleges, corporate sponsorship of 
university medical research has grown from about 5 percent in the early 
1980s to as much as 25 percent in some places today.\16\
---------------------------------------------------------------------------
    \14\ ``U.S. Expenditures for Research and Development by Source of 
Funds and Performer,'' Wall Street Journal Almanac 1999 (New York, NY: 
Ballantine Books, 1998), p. 363.
    \15\ ``Industry Trends in Research Support and Links to Public 
Research,'' National Science Board, 1998, <http://www.nsf.gov/pubs/
1998/nsb9899/nsb9899.htm>, (July 25, 2000).
    \16\ Melissa B. Robinson, ``Medical School Faculty Say Budget Cuts 
Are Hurting Teaching,'' Associated Press, May 19, 1999.
---------------------------------------------------------------------------
    Corporate funding has transformed scientific and engineering 
knowledge into commodities in the new ``information economy,'' giving 
rise to an elaborate web of interlocking directorates between corporate 
and academic boardrooms and an endless variety of university-industry 
partnerships and ``technology transfers,'' from business-funded 
research parks to fee-for-service work such as drug trials carried out 
on university campuses.
    ``More and more we see the career trajectories of scholars, 
especially of scientists, rise and fall not in relation to their 
intellectually-judged peer standing, but rather in relation to their 
skill at selling themselves to those, especially in the biomedical 
field, who have large sums of money to spend on a well-marketed promise 
of commercial viability,'' observed Martin Michaelson, an attorney who 
has represented Harvard University and a variety of other leading 
institutions of higher education. ``It is a kind of gold rush,'' 
Michaelson said at a 1999 symposium sponsored by the American 
Association for the Advancement of Science. ``More and more we see 
incentives to hoard, not disseminate, new knowledge; to suppress, not 
publish, research results; to titillate prospective buyers, rather than 
to make full disclosure to academic colleagues. And we see today, more 
than ever before, new science first--generally, very carefully, and 
thinly--described in the fine print of initial public offerings and SEC 
filings, rather than in the traditional, fuller loci of academic 
communication.'' \17\
---------------------------------------------------------------------------
    \17\ Remarks by Martin Michaelson, delivered at AAAS symposium on 
Secrecy in Science, MIT, Cambridge, MA, March 29, 1999 <http://
www.aaas.org/spp/secrecy/Presents/michael.htm>, (July 25, 2000).
---------------------------------------------------------------------------
    Industry-academic entanglements can take many forms, some of which 
are not directly related to funding for specific research. 
Increasingly, scientists are being asked to sit on the board of 
directors of for-profit companies, a service which requires relatively 
little time but can pay very well--often in excess of $50,000 per year. 
Other private-sector perks may include gifts to researchers of lab 
equipment or cash, or generous payment for speeches, travel and 
consulting. The benefits that come with these sorts of arrangements are 
self-evident. The downside, however, is that corporate funding creates 
a culture of secrecy that can be chilling to free academic inquiry. 
Businesses frequently require scientists to keep ``proprietary 
information'' under wraps so that competitors can't horn in on their 
trade secrets.
    In 1994 and 1995, researchers led by David Blumenthal at the 
Massachusetts General Hospital surveyed more than 3,000 academic 
researchers involved in the life sciences and found that 64 percent of 
their respondents reported having some sort of financial relationship 
with industry. They also found that scientists with industry 
relationships were more likely to delay or withhold publication of 
their data. Their study, published by the Journal of the American 
Medical Association, found that during the three years prior to the 
survey, 20 percent of researchers reported delaying publication of 
their research results for more than six months. The reasons cited for 
delaying publication included the desire to patent applications from 
their discovery and a desire by some researchers to ``slow the 
dissemination of undesired results.'' The practice of withholding 
publication or refusing to share data with other scientists was 
particularly common among biotechnology researchers.\18\
---------------------------------------------------------------------------
    \18\ David Blumenthal and others, ``Withholding Research Results in 
Academic Life Science,'' Journal of the American Medical Association, 
Vol. 277, no. 15 (April 16, 1997).
---------------------------------------------------------------------------
    ``It used to be that if you published you could ask about results, 
reagents--now you have these confidentiality agreements,'' said Nobel 
Prize-winning biochemist Paul Berg, a professor of biochemistry at 
Stanford University. ``Sometimes if you accept a grant from a company, 
you have to include a proviso that you won't distribute anything except 
with its okay. It has a negative impact on science.''
    The problem of secrecy in science is particularly troubling when it 
involves conflicts of interest between a company's marketing objectives 
and the public's right to know. When research results are not to a 
sponsor's liking, the company may use heavy-handed tactics to suppress 
them--even if doing so comes at the expense of public health and the 
common good.
    One such case came to light in 1997 regarding the work of Betty 
Dong, a researcher at the University of California. In the late 1980s, 
the Boots Pharmaceutical company took an interest in Dong's work after 
she published a limited study which suggested that Synthroid, a thyroid 
medication manufactured by Boots, was superior to drugs produced by the 
company's competitors. Boots offered $250,000 to finance a large-scale 
study that would confirm these preliminary findings. To the company's 
dismay, however, the larger study, which Dong completed in 1990, 
contradicted her earlier findings and showed that Synthroid was no more 
effective than the cheaper drugs made by Boots's competitors. What 
followed was a seven-year battle to discredit Dong and prevent 
publication of her work. The contract which Dong and her university had 
signed with the company gave it exclusive access to the prepublished 
results of the study as well as final approval over whether it would 
ever be published. The study sat on the shelf for five years while 
Boots waged a campaign to discredit Dong and the study, bombarding the 
chancellor and other university officials with allegations of unethical 
conduct and quibbles over the study's method, even though the company 
itself had previously approved the method. In 1994, Dong submitted a 
paper based on her work to the Journal of the American Medical 
Association. It was accepted for publication and already set in type 
when the company invoked its veto right, forcing her to withdraw 
it.\19\
---------------------------------------------------------------------------
    \19\ Drummond Rennie, ``Thyroid Storm'' (editorial), Journal of the 
American Medical Association, Vol. 277, no. 15 (April 16, 1997), p. 
1242.
---------------------------------------------------------------------------
    In 1995, Boots was purchased by Knoll Pharmaceutical, which 
continued to suppress Dong's conclusions. While she remained unable to 
publish her own results, Knoll published a reinterpretation of her data 
under the authorship of Gilbert Mayor, a doctor employed by the 
company. Mayor published his reanalysis of Dong's data without 
acknowledging her or her research associates, a practice that JAMA 
would later characterize as publishing ``results hijacked from those 
who did the work.'' \20\ After further legal battles and an expose of 
Knoll's heavy-handed tactics in the Wall Street Journal, Dong was 
finally allowed to publish her own version of the study in the Journal 
of the American Medical Association in 1997--nearly seven years after 
its completion. During those seven years, Boots/Knoll had used 
Synthroid's claims of superiority to dominate the $600-million-per-year 
synthetic thyroid market. The publication of her work in JAMA prompted 
a class-action lawsuit on the part of Synthroid users who had been 
effectively duped into paying an estimated $365 million per year more 
than they needed for their medication. Knoll settled the lawsuit out of 
court for $98 million--a fraction of the extra profits it had made 
during the years it spent suppressing Dong's study.\21\
---------------------------------------------------------------------------
    \20\ Ibid.
    \21\ Shenk, pp. 11-12.
---------------------------------------------------------------------------
    Another attempt to suppress research occurred in 1995, when liver 
specialist Nancy Olivieri at the University of Toronto wanted to warn 
patients about the toxic side effects of a drug she was testing. The 
Canadian drug giant Apotex, which was sponsoring the study in hopes of 
marketing the drug, told her to keep quiet, citing a nondisclosure 
agreement that she had signed. When Olivieri alerted her patients 
anyway and published her concerns in the New England Journal of 
Medicine, Apotex threatened her with legal action and she was fired 
from her hospital, a recipient of hundreds of thousands of dollars each 
year in research funding from Apotex.
    In 1997, David Kern, an occupational health expert at Brown 
University, discovered eight cases of a new, deadly lung disease among 
workers at a Microfibres, Inc, a manufacturer of finely-cut nylon flock 
based in Pawtucket, Rhode Island. Microfibres tried to suppress Kern's 
finding, citing a confidentiality agreement that he had signed at the 
time of an educational visit to the company more than a year before the 
start of his research. When Kern spoke out anyway, administrators at 
the hospital and university where he worked (a recipient of charitable 
contributions from Microfibres) insisted that he withdraw a previously 
submitted scientific communique about the disease outbreak and that he 
cease providing medical care to his patients who worked at the company. 
Kern's program--the state's only occupational health center--was 
subsequently closed, and his job was eliminated.\22\ Even more 
disturbing was the response of many of his research colleagues. ``There 
were courageous folks who stood up for me, but most looked the other 
way,'' he said. ``I'm mightily discouraged by the failure of the 
community to do more.'' \23\
---------------------------------------------------------------------------
    \22\ Robert Lee Hotz, ``Secrecy Is Often the Price of Medical 
Research Funding,'' Los Angeles Times, May 18, 1999, p. A-1.
    \23\ Richard A. Knox, ``Disclosure Fight May Push Doctor Out of 
Occupational Health Field,'' Boston Globe, May 22, 1999, p. B5.
---------------------------------------------------------------------------
    Beyond the problem of outright fraud and suppression, moreover, 
there is a larger and more pervasive problem: the systemwide bias that 
industry funding creates among researchers in commercially profitable 
fields. ``Virtually every academic in biotechnology is involved in 
exploiting it commercially,'' observed Orville Chapman of the 
University of California at Los Angeles. ``We've lost our credentials 
as unbiased on such subjects as cloning or the modification of living 
things, and we seem singularly reluctant to think it through.'' \24\
---------------------------------------------------------------------------
    \24\ ``Special Report: What Happens when Universities Become 
Businesses?'' (Research Corporation Annual Report, 1997), p. 9.
---------------------------------------------------------------------------
    A host of techniques exist for manipulating research protocols to 
produce studies whose conclusions fit their sponsor's predetermined 
interests. These techniques include adjusting the time of a study (so 
that toxic effects do not have time to emerge), subtle manipulations of 
target and control groups or dosage levels, and subjective 
interpretations of complex data. Often such methods stop short of 
outright fraud, but lead to predictable results. ``Usually associations 
that sponsor research have a fairly good idea what the outcome will be, 
or they won't fund it,'' says Joseph Hotchkiss of Cornell University. 
When researchers have examined the link between funding sources and 
research outcomes, they have found a striking pattern of 
correspondence:

        <bullet>  In 1994, researchers in Boston studied the 
        relationship between funding and reported drug performance in 
        published trials of anti-inflammatory drugs used in the 
        treatment of arthritis. They reviewed 56 drug trials and found 
        that in every single case, the manufacturer-associated drug was 
        reported as being equal or superior in efficacy and toxicity to 
        the comparison drug. ``These claims of superiority, especially 
        in regard to side effects, are often not supported by the trial 
        data,'' they added. ``These data raise concerns about selective 
        publication or biased interpretation of results in 
        manufacturer-associated trials.'' \25\
---------------------------------------------------------------------------
    \25\ P.A. Rochon, J.H. Gurwitz, R.W. Simms, P.R. Fortin, D.T. 
Felson, K.L. Minaker, et al, ``A Study of Manufacturer-Supported Trials 
of Nonsteroidal Anti-inflammatory Drugs in the Treatment of 
Arthritis,'' Archives of Internal Medicine, Vol. 154, no. 2 (January 
24, 1994), pp. 157-163.

        <bullet>  In 1996, researchers Mildred K. Cho and Lisa A. Bero 
        compared studies of new drug therapies and found that 98 
        percent of the studies funded by a drug's maker reached 
        favorable conclusions about its safety and efficacy, compared 
        to 76 percent of studies funded by independent sources.\26\
---------------------------------------------------------------------------
    \26\ Mildred K. Cho and Lisa A. Bero, ``The Quality of Drug Studies 
Published in Symposium Proceedings,'' Annals of Internal Medicine, Vol. 
124, no. 5 (3/1/96), pp. 485-489.

        <bullet>  In 1998, the New England Journal of Medicine 
        published a study which examined the relationship between drug-
        industry funding and research conclusions about calcium-channel 
        blockers, a class of drugs used to treat high blood pressure. 
        There are safety concerns about the use of calcium-channel 
        blockers because of research showing that they present a higher 
        risk of heart attacks than other older and cheaper forms of 
        blood pressure medication such as diuretics and beta-blockers. 
        The NEJM study examined 70 articles on channel blockers and 
        classified them into three categories: favorable, neutral and 
        critical. It found that 96 percent of the authors of favorable 
        articles had financial ties to manufacturers of calcium-channel 
        blockers, compared with 60 percent of the neutral authors and 
        37 percent of the critical authors. Only two of the 70 articles 
        disclosed the authors' corporate ties.\27\
---------------------------------------------------------------------------
    \27\ Henry Thomas Stelfox and others, ``Conflict of Interest in the 
Debate over Calcium-Channel Antagonists,'' New England Journal of 
Medicine, Vol. 338, No. 2 (January 8, 1998), pgs. 101-106.

        <bullet>  In October 1999, researchers at Northwestern 
        University in Chicago studied the relationship between funding 
        sources and conclusions reached by studies of new cancer drugs 
        and found that studies sponsored by drug companies were nearly 
        eight times less likely to report unfavorable conclusions than 
        studies paid for by nonprofit organizations.\28\
---------------------------------------------------------------------------
    \28\ M. Friedberg, B. Saffran, T.J. Stinson, W. Nelson and C.L. 
Bennett, ``Evaluation of Conflict of Interest in Economic Analyses of 
New Drugs Used in Oncology,'' Journal of the American Medical 
Association, Vol. 282, no. 15 (October 20, 1999), pp. 1453-1457.

    Drug research is not the only field in which this pattern can be 
detected. In 1996, journalists Dan Fagin and Marianne Lavelle reviewed 
recent studies published in major scientific journals regarding the 
safety of four chemicals: the herbicides alachlor and atrazine, 
formaldehyde, and perchloroethylene, the carcinogenic solvent used for 
dry cleaning clothes. When nonindustry scientists did the studies, 60 
percent returned results unfavorable to the chemicals involved, whereas 
industry-funding scientists came back with favorable results 74 percent 
of the time. Fagin and Lavelle observed a particularly strong biasing 
influence with respect to agribusiness financing for research related 
to farm weed control. ``Weed scientists--a close-knit fraternity of 
researchers in industry, academia, and government--like to call 
themselves `nozzleheads' or `spray and pray guys,' '' they stated. ``As 
the nicknames suggest, their focus is usually much narrower than weeds. 
As many of its leading practitioners admit, weed science almost always 
means herbicide science, and herbicide science almost always means 
herbicide-justification science. Using their clout as the most 
important source of research dollars, chemical companies have 
skillfully wielded weed scientists to ward off the EPA, organic 
farmers, and others who want to wean American farmers away from their 
dependence on atrazine, alachlor, and other chemical weedkillers.'' 
\29\
---------------------------------------------------------------------------
    \29\ Dan Fagin and Marianne Lavelle, Toxic Deception (Secaucus, NJ: 
Birch Lane Press, 1996), pp. 51-52.
---------------------------------------------------------------------------

Solutions

    Recognizing the problem of funding-driven bias, leading medical 
journals recently announced the adoption of a uniform policy that 
reserves the right to refuse to publish drug company-sponsored studies 
unless the researchers involved are guaranteed scientific independence. 
Hopefully, this announcement from the New England Journal of Medicine, 
the Lancet, the Annals of Internal Medicine and the Journal of the 
American Medical Association will serve as a signal for other journals 
to adopt similar policies.
    In addition, however, researchers and medical journals should adopt 
stricter standards of disclosure regarding funding itself. Some 
researchers bridle at this expectation. When asked who funds their 
research, they may argue that this question is irrelevant or that 
merely asking the question casts aspersions on their integrity. 
Individual integrity, however, is not the real issue. There is nothing 
inherently wrong with research sponsored by companies with a vested 
interest in its outcome. Nevertheless, neither researchers nor the 
sponsors of their research can be expected to be completely objective 
or to recognize their own bias if it exists. Funding does not 
necessarily create bias, but it selects bias and is a leading indicator 
of bias. For this reason alone, a researcher's funding and other 
possible financial conflicts of interest are important information 
which should be published as routinely as study methodologies and 
statistical confidence levels. Funding itself may not taint a 
researcher's integrity, but lack of candor about funding should be 
regarded as an ethical breach, and both researchers and scientific 
journals should work to foster a culture of expectations in which full 
and frank disclosure of such ties becomes the norm rather than the 
exception.
    Finally, it is important to maintain an ``information commons''--a 
space for research funded by nonprofit organizations, universities and 
governmental bodies. Research by these institutions may carry its own 
political agendas, but it is an important alternative and counterweight 
to proprietary, profit-driven research.
                     Biography for Sheldon Rampton
    Since 1994 Sheldon Rampton has been the Research Director for the 
Center for Media and Democracy, a non-profit organization based in 
Madison, Wisconsin. Individuals and other non-profit organizations fund 
the Center; it does not accept government, corporate or labor union 
grants. Rampton has authored numerous articles, commentaries and books 
on the subject of this testimony including Trust Us We're Experts: How 
Industry Manipulates Science and Gambles With Your Future and Toxic 
Sludge Is Good For You: Lies, Damn Lies and the Public Relations 
Industry. He was born and raised in Nevada, graduated from Princeton 
University, and works in Madison, Wisconsin.

    Chairman Miller. Thank you. I find that my southern 
upbringing and the difficulty of interrupting people for fear 
would seem like bad manners coming into conflict with my role 
as Chairman, and that upbringing was not even overcome by three 
years in law school. But if you could try to keep generally 
within the five minutes. We are not going to be real, real 
harsh about that time limit. It would be helpful to all of us.
    Dr. McCarthy.

STATEMENT OF DR. JAMES J. MCCARTHY, ALEXANDER AGASSIZ PROFESSOR 
 OF BIOLOGICAL OCEANOGRAPHY, HARVARD UNIVERSITY; BOARD MEMBER, 
                 UNION OF CONCERNED SCIENTISTS

    Dr. McCarthy. Mr. Chairman and Members of the Committee, 
thank you for holding this hearing and giving me the 
opportunity to testify today about efforts to distort the 
science of climate change.
    As you pointed out, I am the Alexander Agassiz Professor of 
Biological Oceanography at Harvard. I am the President-Elect of 
the American Association for the Advancement of Science, and I 
am a board member of the Union of Concerned Scientists. I also 
co-chaired Working Group II of the Inter-Governmental Panel and 
Climate Change, IPCC, for the Third Assessment, which reported 
out in 2001.
    I will begin today by describing the robust and consistent 
scientific understanding of climate change and the threat it 
poses. I will then summarize two recent reports of the Union of 
Concerned Scientists to show how the Bush Administration, 
political appointees, and a network of Exxon-funded, ExxonMobil 
funded organizations have sought to distort, manipulate, and 
suppress climate science so as to confuse the American public 
about the urgency of the global warming problem, and thus, 
forestall a strong policy response. I will close by providing 
recommendations to protect the integrity of science and the 
free flow of scientific information and to insure strong 
policies that will provide a healthy climate for our children.
    Over the past 25 years a broad consensus on the science of 
climate change has emerged. In June, 2005, the Academies of 
Science in each of the G8 nations plus India, China, and 
Brazil, issued a joint statement which said that, ``The 
scientific understanding of climate change is now sufficiently 
clear to justify nations taking prompt action.'' In the United 
States the American Geophysical Union, the American 
Meteorological Society, and the American Association for the 
Advancement of Science have all made similar statements about 
the urgency of the climate threat. And last month as Chairman 
Gordon pointed out, the IPCC released a report which concludes 
that the planet is unequivocally warming and that the warming 
we are seeing is due primarily to human activities such as the 
burning of fossil fuels and the clearing of forests. And as 
Chairman Gordon pointed out, the United States and over 100 
other nations endorsed this conclusion.
    How is it then that the non-scientific organizations and a 
few individuals are able to cast such doubt on the common 
statement of the world's leading scientific academies and the 
IPCC? A recent report by the Union of Concerned Scientists 
provides an explanation. Smoke, Mirrors, and Hot Air documents 
how ExxonMobil has adopted the tobacco industry's 
disinformation tactics as well as some of the same 
organizations and personnel to cloud the scientific 
understanding of climate change and to delay action.
    ExxonMobil has funneled nearly $16 million between 1998, 
and 2005, to a network of 43 advocacy organizations that seek 
to confuse the public on global warming science. Virtually all 
of these groups consist of an overlapping collection of 
individuals serving as staff, board members, and scientific 
advisors to public and republic the works of a small group of 
climate change contrurians.
    Finally, the report reveals ExxonMobil's influence over 
Government policy, including successfully urging the Bush 
Administration to back away from the U.S. commitment to the 
Kyoto Protocol and successfully lobbying the White House to 
withdraw its support for the re-nomination of Robert Watson, an 
internationally respected U.S. scientist to a second term as 
Chairman of the IPCC. Political interference at the highest 
levels is harming federal science and is threatening the health 
and safety of Americans. Our recent report on interference in 
the work of federal climate scientists, atmosphere of pressure, 
found that some of our nation's highest-quality climate science 
is being suppressed. One hundred and fifty federal climate 
scientists, three out of five respondents personally 
experienced at least one incident of political interference 
over the past five years. That number should be zero. Tarek 
Maassarani will speak more about some of these findings in his 
statement.
    Chairman Miller and Chairman Gordon, I am sure I speak for 
all scientists when I thank you for the initiative that you 
have taken with your letter to 11 federal agencies regarding 
their science media practices.
    Recommendations. Congress should take action to prevent the 
worst effects of global warming, ignore the disinformation 
campaign funded by ExxonMobil, and take steps to protect 
federal climate scientists from political interference. There 
are several concrete steps that need to restore scientific 
integrity.
    I congratulate the House of Representatives for the passage 
of legislation extending whistleblower protections to 
scientists, and we hope that the Senate will follow your lead. 
The constitutional right of federal scientists to speak freely 
must be guaranteed. Scientists should not be subject to undue 
restrictions on media contacts, and finally, all Americans must 
be guaranteed access to the scientific basis for the agency 
decisions that affect their health and safety and are paid for 
with their tax dollars.
    In conclusion, Congress needs to recognize ExxonMobil's 
disinformation campaign for what it is. I urge Members of 
Congress to draw the scientific information needed to formulate 
wise climate policy from bona fide scientific organizations and 
member scientists who publish in the scientific literature and 
to assiduously avoid being influenced by the protestations of 
small but vocal advocacy groups funded by ExxonMobil for the 
express purpose of casting doubt on a robust body of climate 
science.
    Thank you.
    [The prepared statement of Dr. McCarthy follows:]
                Prepared Statement of James J. McCarthy
    Mr. Chairman and Members of the Committee, thank you for holding 
this hearing, and for giving me the opportunity to testify today about 
efforts to distort the science of climate change. My name is James 
McCarthy, and I am Alexander Agassiz Professor of Biological 
Oceanography at Harvard University. From 1986 to 1993, I served as 
Chair of the International Committee that establishes research 
priorities and oversees implementation of the International Geosphere--
Biosphere Program. From 1997 to 2001, I co-chaired Working Group II of 
the Intergovernmental Panel on Climate Change (IPCC), which had 
responsibilities for assessing impacts of and vulnerabilities to global 
climate change for the Third IPCC Assessment. I am President-Elect of 
the American Association for the Advancement of Science, and member of 
the Board of Union of Concerned Scientists.
    It is now clear that for a number of years, both Bush 
Administration political appointees and a network of organizations 
funded by the world's largest private energy company, ExxonMobil, have 
sought to distort, manipulate and suppress climate science, so as to 
confuse the American public about the reality and urgency of the global 
warming problem, and thus forestall a strong policy response.
    Unfortunately, these efforts have misled many individuals, 
including elected officials, to believe that the human influences on 
climate change are either negligible or of little consequence. The 
science, however, leaves no doubt that human induced climate change is 
of enormous potential consequence, and clearly one of the most urgent 
issues of our times. It is also increasingly clear that we only have a 
narrow window of time--a decade or less--within which to initiate 
serious action if we are to avoid the highly negative impacts of global 
warming that are otherwise projected for this century.
    In my testimony, I will begin by describing the process by which 
scientists have reached a robust and consistent position on our 
understanding of climate change and the threats it poses. I will then 
summarize two recent reports by the Union of Concerned Scientists. The 
first, ``Smoke, Mirrors, and Hot Air,'' details how ExxonMobil 
manufactured uncertainty on climate change, and the second, 
``Atmosphere of Pressure,'' describes how federal climate science has 
been systematically manipulated and suppressed. I will close by 
providing recommendations for Congress, the administration and 
ExxonMobil to protect the integrity of science and the free flow of 
scientific information and to ensure strong public policies that will 
provide a healthy climate for our children and grandchildren.

The Role of Science in Addressing Global Warming

    First, let me outline where the scientific understanding of climate 
change and the threat it poses now stands. Science is an evolving body 
of knowledge, which is always open to challenge and new ideas. But 
there is a process by which this occurs, one that gives these 
challenges and new ideas credibility and legitimacy. This is through 
publication in peer reviewed scientific journals.
    Novel findings do not always readily attain widespread acceptance 
in the scientific community. For example, the most important 
contribution to Earth sciences in the last four decades may be the 
discovery of seafloor-spreading and plate tectonics. And yet, some 
distinguished Earth scientists went to their graves unconvinced of the 
evidence.
    Sometimes new findings, seemingly credible in the initial 
publication, are eventually proven wrong. The process of science is to 
continue to question and challenge both new and well-established 
findings. No scientist would ever discourage this skepticism.
    The understanding of how changes in the atmospheric concentrations 
of greenhouse gases can affect Earth's temperature dates to the late 
1800's. But due to the complex dynamics of climate, it took time for 
scientists to understand the linkages between chemical cycles involving 
land, ocean and atmospheric processes, and to ascertain clear trends in 
climate and in greenhouse gas concentrations. Was the Earth warming or 
cooling? Could the amount of heat-trapping gases produced by humans 
really be large enough to affect change? These and many other sensible 
questions were a common motivator of scientific studies in the last 
century. It was not until the latter half of the 20th century that key 
pieces of the relationship between increases in concentrations of heat-
trapping gases and climate came into clear view.
    For the past 25 years, many national academies of science have 
reviewed the body of climate science and have spoken consistently 
regarding the observed changes in Earth's climate and the evidence that 
human activities are the primary source of heat-trapping emissions 
responsible for global warming.
    In June, 2005, the academies of science in each of the G-8 nations 
plus India, China, and Brazil issued a joint statement summarizing the 
science relating to anthropogenic climate change, which declared:

         ``. . .there is now strong evidence that significant global 
        warming is occurring. . . It is likely that most of the warming 
        in recent decades can be attributed to human activities. . . 
        This warming has already led to changes in Earth's climate. . . 
        The scientific understanding of climate change is now 
        sufficiently clear to justify nations taking prompt action. It 
        is vital that all nations identify cost-effective steps that 
        they can take now, to contribute to substantial and long-term 
        reduction in net global greenhouse gas emissions.''

    Within the Unites States most climate scientists are members of one 
or more of the following professional organizations which publish 
scientific journals and hold regular meetings for scientists to present 
their latest findings: the American Geophysical Union (41,000 members), 
the American Meteorology Society (AMS) (11,000 members), and the 
American Association for the Advancement of Science (120,000 individual 
and institutional members). These preeminent scientific societies have 
all made similar statements about recent climate change. Here, for 
example is the statement of the AMS:

         ``Despite uncertainties, there is adequate evidence from 
        observations and interpretations of climate simulations to 
        conclude that the atmosphere, ocean, and land surface are 
        warming; that humans have significantly contributed to this 
        change; and that further climate change will continue to have 
        important impacts on human societies, on economies, on 
        ecosystems and on wildlife through the 21st century and 
        beyond.''

    And, just last month, the authoritative Intergovernmental Panel on 
Climate Change (IPCC) released a report which concludes that the planet 
is unequivocally warming--their word, unequivocal--and that the warming 
we're seeing is due primarily to the coal, oil and natural gas we burn 
to power our homes, businesses and transportation.
    Despite this strong scientific understanding, media coverage and 
political debate on global warming science often give undue credence to 
the views of little known organizations and statements by individuals 
purporting to be experts on climate science.
    A medical analogy comes to mind. Official position statements of 
the National Academies Institute of Medicine, the American Medical 
Association, the American Heart Association, and the American Cancer 
Society state that medical evidence strongly links cigarette smoking to 
lung and heart disease. Would any of us who are not experts in this 
field of medical science feel qualified challenging the views of these 
august bodies?
    How is it then, that non-scientific organizations and a few 
individuals are able to cast doubt on the common statement of the 
world's leading scientific academies, the IPCC, and on more than a 
century of scientific discovery regarding climate science? A recent 
report by the Union of Concerned Scientists (UCS) provides an 
explanation.

ExxonMobil's Disinformation Campaign\1\
---------------------------------------------------------------------------

    \1\ References available in the full report, available at 
www.ucsusa.org/news/press<INF>-</INF>release/ExxonMobil-GlobalWarming-
tobacco.html
---------------------------------------------------------------------------
    In January 2007, UCS released ``Smoke, Mirrors and Hot Air: How 
ExxonMobil Uses Big Tobacco Tactics to Manufacture Uncertainty on 
Climate Science.'' The report documents how ExxonMobil, the world's 
largest energy company, has for years underwritten a sophisticated 
disinformation campaign whose aim has been to deceive the public and 
policy-makers about the reality of global warming. The campaign bears 
striking similarities to the tobacco industry's decades-long effort to 
mislead the public about the scientific evidence linking smoking to 
lung cancer and heart disease. In fact, some of the same organizations 
and individuals involved in the tobacco industry effort are also part 
of the ExxonMobil's disinformation campaign.
    Like the tobacco industry in previous decades, ExxonMobil has:

        <bullet>  Raised doubts about even the most indisputable 
        scientific evidence;

        <bullet>  Funded an array of front organizations to create the 
        appearance of a broad platform for a tight-knit group of vocal 
        climate change contrarians who misrepresent peer-reviewed 
        scientific findings;

        <bullet>  Attempted to portray its opposition to action as a 
        positive quest for ``sound science'' rather than business self-
        interest; and,

        <bullet>  Used its access to the Bush Administration to block 
        federal policies and shape government communications on global 
        warming.

ExxonMobil Contributions to Climate Contrarian Groups
    Specifically, the UCS report shows that between 1998 and 2005, 
ExxonMobil funneled close to $16 million to a network of 43 ideological 
and advocacy groups that seek to manufacture uncertainty about the 
strong scientific consensus on global warming. These groups promote 
spokespeople who misrepresent peer-reviewed scientific findings or 
cherry-pick facts in an attempt to mislead the media and public into 
thinking there is vigorous debate in the mainstream scientific 
community about climate change. Among the ExxonMobil-funded groups are 
established conservative and anti-regulation think tanks and 
organizations such as the American Enterprise Institute. There are also 
a myriad of smaller, lesser known groups, including the Heartland 
Institute ($560,000), the Annapolis Center for Science Based Public 
Policy ($763,500), and Frontiers of Freedom ($1,000,200).
    There are two disturbing themes about the groups funded by 
ExxonMobil. First, virtually all of the 43 organizations publish and 
publicize the work of a nearly identical small group of spokespeople 
who work to misrepresent climate science and confuse the public's 
understanding of global warming. Most of these organizations also 
include these same individuals as board members or scientific advisers. 
Second, ExxonMobil has often been the major underwriter of these 
groups' climate change-related activities.
    There are many examples of what I've described in the UCS report. 
Solid state physicist Frederick Seitz, for instance, is the emeritus 
chair of the ExxonMobil funded Marshall Institute and is also 
affiliated with at least four other groups receiving funding from 
ExxonMobil. Patrick Michaels and Fred Singer, both prolific climate 
change skeptics, each have ties to no fewer than 11 organizations 
funded by ExxonMobil.
    In terms of the organizations themselves, one of the most striking 
features to emerge from the data is the fact that ExxonMobil is often 
the major underwriter of these groups' climate change-related efforts. 
A good example is a Washington, DC.-based group called the Committee 
for a Constructive Tomorrow. This organization has, since 1998, 
received nearly a half a million dollars from ExxonMobil. The company's 
2004 grant to this organization made up approximately a quarter of the 
group's total expenses for that year.
    Another notable example is the Competitive Enterprise Institute 
which has, to date, received more than $2 million in ExxonMobil 
funding.
    All these figures and many more like them are documented in the 
report and its appendices. Part of UCS's goal was to provide a 
comprehensive reference of people, organizations, and funding data on 
this topic, and with close to 300 footnotes, the report provides plenty 
of source material for people to look into the story more deeply for 
themselves.

ExxonMobil Links to Big Tobacco
    In addition to providing this information, though, the report also 
details links in strategy and personnel between ExxonMobil's efforts 
and those of the tobacco industry. It includes the text, for instance, 
of a seminal 1998 memo that ExxonMobil helped draft as part of a small 
group called the Global Climate Science Team that set much of the 
company's strategy in motion. As the report shows, this internal memo 
didn't just mimic the tobacco industry's strategy, it even drew upon 
key personnel who had implemented it.
    For instance, Randy Randol, ExxonMobil's senior environmental 
lobbyist at the time, was a member of this Global Climate Science Team. 
Notably, so was Steve Milloy, who headed a tobacco front organization. 
As we now know from internal documents made public by court order, the 
tobacco firm Philip Morris actually hired a PR firm to create this 
group--called the Advancement of Sound Science Coalition--in 1993 to 
mislead the public about the dangers of second-hand smoke. In an effort 
to disguise its identity as a tobacco industry front group, TASSC also 
fostered support for a host of other anti-regulatory efforts on issues 
ranging from asbestos to radon.
    Milloy is one of several veterans of the tobacco industry's 
disinformation campaign who this report shows are involved in 
ExxonMobil's similar, ongoing efforts on global warming. As recently as 
2004, ExxonMobil has continued to fund Milloy's efforts. He currently 
runs two organizations out of his Maryland home-the resuscitated 
Advancement of Sound Science Center and something called the Free 
Enterprise Education Institute. ExxonMobil's close connection with some 
of the very same personnel who helped engineer the tobacco industry's 
blatant and shameful disinformation campaign speaks for itself.

ExxonMobil's Political Influence
    The UCS report shows that ExxonMobil's influence over government 
policy may surpass that of the tobacco industry it emulates. The report 
documents that during the 2000-2006 election cycles, ExxonMobil's PAC 
and individuals affiliated with the company gave more than $4 million 
to federal candidates and parties. Shortly after President Bush took 
office, ExxonMobil began to wield its influence. In 2001, ExxonMobil 
participated in Vice President Cheney's ``Energy Task Force,'' which 
recommended a continued reliance on fossil fuels.
    ExxonMobil also successfully urged the Bush Administration to back 
away from the U.S. Commitment to the Kyoto Protocol. Notes from a 2001 
talk by State Department official Paula Dobriansky confirm the role 
ExxonMobil played in persuading the Administration to abandon the 
international agreement. Another 2001 memo from ExxonMobil urged the 
Administration to hire Harlan Watson, a vocal opponent of climate 
action, as the lead negotiator for the U.S. on international climate 
policy. Since then H. Watson has steadfastly opposed any U.S. 
engagement in the Kyoto process.
    Other documents reveal that in February 2001, following the release 
of an authoritative report by the Intergovernmental Panel on Climate 
Change (IPCC), ExxonMobil successfully lobbied the White House to 
withdraw its support for renomination of Robert Watson to a second term 
as Chairman of the IPCC. R. Watson, an internationally respected 
scientist, has served as the Director of the Science Division at NASA 
and was at the time a chief scientist at the World Bank.
    In one of the most striking examples of ExxonMobil's influence, the 
administration hired Philip Cooney to serve as the Chief of Staff in 
the White House Council of Environmental Quality (CEQ) from 2001-2005. 
Before joining the Administration, Cooney had spent a decade as a 
lawyer for the American Petroleum institute, the oil industry lobby 
that worked with ExxonMobil to develop its disinformation campaign. In 
that capacity, Cooney sought to prevent the U.S. from entering into any 
kind of international agreement or enacting any domestic legislation 
that might lead to mandatory limits on global warming emissions.
    Cooney, a lawyer with an undergraduate degree in economics, had no 
scientific credentials that might qualify him to rewrite the findings 
of top government scientists. Nonetheless, during his tenure at CEQ, he 
spent a significant amount of time censoring and distorting government 
reports so as to exaggerate scientific uncertainty about global 
warming. One particularly damning incident involved Cooney's efforts to 
sabotage the Administration's own May 2002 ``U.S. Climate Action 
Report,'' which concluded that climate change posed a significant risk 
and was caused by human-made emissions. The report drew on the findings 
of the ``U.S. National Assessment of the Potential Consequences of 
Climate Variability and Change,'' an earlier government report that 
predated the Bush Administration.
    E-mail correspondence obtained through a Freedom of Information Act 
request shows that Cooney contacted Myron Ebell at the ExxonMobil-
funded Competitive Enterprise Institute for help in undermining the 
Administration's own report. Ebell advised the Administration to 
distance itself from the report. Shortly after, President Bush did 
exactly that, denigrating the report as having been ``put out by the 
bureaucracy.'' CEI then filed the second of two lawsuits calling for 
the Bush Administration to withdraw the National Assessment, on which 
the report in question was based.
    Cooney's inappropriate activities came to light when Rick Piltz, a 
whistle-blowing researcher at the U.S. Government's interagency Climate 
Change Science Program, resigned in protest over Cooney's censorship 
practices and other Bush Administration abuses of climate science. Two 
days after the New York Times first reported on Piltz's revelations, 
Cooney resigned. It was not surprising when, one week after he left the 
White house, Cooney accepted a high-ranking public relations position 
at ExxonMobil.

The Bottom Line on ExxonMobil
    In an effort reminiscent of the tobacco industry, ExxonMobil has 
helped create an echo chamber that serves to amplify the views of a 
carefully selected group of spokespeople whose work has been largely 
discredited by the scientific community. Hopefully, as the connections 
documented in this report become known, lawmakers, media, and the 
public will become more attuned to the relationships that many of the 
most vocal critics of climate change science and their organizations 
have to a corporation that has repeatedly refused to acknowledge the 
science and respond to the concerns so succinctly summarized in the 
joint statement of the 11 Academies and the recent IPCC report.

Protecting Federal Climate Scientists from Political Interference

    Federal climate science research is at the forefront of assessing 
fundamental causes of global warming and the future dangers it could 
pose to our nation and the world. Such research is of tremendous value 
to many Americans planning for these risks, including coastal 
communities designing infrastructure for protecting against storm 
surges; civil authorities planning for heat waves; power companies 
preparing for higher peak energy demands; forest managers planning 
wildfire management programs; farmers adjusting to changing 
precipitation patterns; and policy-makers evaluating energy 
legislation. Therefore, it is crucial that the best available science 
on climate change be disseminated to the public, through government 
websites, reports, and press releases. In recent years, however, this 
science has been increasingly tailored to reflect political goals 
rather than scientific fact.
    Out of concern that inappropriate political interference and media 
favoritism are compromising federal climate science, the Union of 
Concerned Scientists (UCS) and the Government Accountability Project 
(GAP) undertook independent investigations of federal climate science. 
UCS mailed a questionnaire to more than 1,600 climate scientists at 
seven federal agencies to gauge the extent to which politics was 
playing a role in scientists' research. Surveys were also sent to 
scientists at the independent (non-federal) National Center for 
Atmospheric Research (NCAR) to serve as a comparison with the 
experience of federal scientists. About 19 percent of all scientists 
responded (279 from federal agencies and 29 from NCAR). At the same 
time, GAP conducted 40 in-depth interviews with federal climate 
scientists and other officials and analyzed thousands of pages of 
government documents, obtained through the Freedom of Information Act 
(FOIA) and inside sources, regarding agency media policies and 
congressional communications.
    These two complementary investigations arrived at similar 
conclusions regarding the state of federal climate research and the 
need for strong policies to protect the integrity of science and the 
free flow of scientific information. Together, they formed the basis 
for ``Atmosphere of Pressure,'' a joint report by the Union of 
Concerned Scientists and the Government Accountability Project.

Findings of the Report: ``Atmosphere of Pressure''
    Political Interference with Climate Science: The Federal Government 
needs accurate scientific information to craft effective policies. 
Political interference with the work of federal scientists threatens 
the quality and integrity of these policies. As such, no scientist 
should ever encounter any of the various types of political 
interference described in our survey questions. Yet unacceptably large 
numbers of federal climate scientists personally experienced instances 
of interference over the past five years:

        <bullet>  57 scientists (21 percent of all respondents to the 
        question) personally experienced pressure to eliminate the 
        words ``climate change,'' ``global warming,'' or other similar 
        terms from a variety of communications.

        <bullet>  41 scientists (15 percent) personally experienced 
        changes or edits during review that changed the meaning of 
        scientific findings.

        <bullet>  47 scientists (18 percent) personally experienced 
        statements by officials at their agencies that misrepresented 
        scientists' findings.

        <bullet>  60 scientists (22 percent) personally experienced the 
        disappearance or unusual delay of websites, reports, or other 
        science-based materials relating to climate.

        <bullet>  97 scientists (36 percent) personally experienced new 
        or unusual administrative requirements that impair climate-
        related work.

        <bullet>  17 scientists (six percent) personally experienced 
        situations in which scientists have actively objected to, 
        resigned from, or removed themselves from a project because of 
        pressure to change scientific findings.

        <bullet>  In all, 150 scientists (58 percent) said they had 
        personally experienced at least one incident of some form of 
        interference within the past five years, for a total of at 
        least 435 incidents of political interference.

    The more frequently a climate scientist's work touches on sensitive 
or controversial issues, the more interference he or she reported. More 
than three-quarters (78 percent) of those survey respondents who self-
reported that their research ``always'' or ``frequently'' touches on 
issues that could be considered sensitive or controversial also 
reported they had personally experienced at least one incident of 
inappropriate interference. More than one-quarter (27 percent) of this 
same group had experienced six or more such incidents in the past five 
years.
    In contrast to this evidence of widespread interference in climate 
science at federal agencies, scientists at the independent National 
Center for Atmospheric Research (NCAR), who are not federal employees, 
reported far fewer instances of interference. Only 22 percent of all 
NCAR respondents had personally experienced such incidents over the 
past five years. Of course, this is still unacceptable; no scientist 
should be subjected to such political interference.
    Barriers to Communication: Federal scientists have a constitutional 
right to speak about their scientific research, and the American public 
has a right to be informed of the findings of taxpayer-supported 
research. Restrictions on scientists who report findings contrary to an 
administration's preferred policies undermine these basic rights. These 
practices also contribute to a general misunderstanding of the findings 
of climate science and degrade our government's ability to make 
effective policies on topics ranging from public health to agriculture 
to disaster preparation.
    The investigation uncovered numerous examples of public affairs 
officers at federal agencies taking a highly active role in regulating 
communications between agency scientists and the media--in effect 
serving as gatekeepers for scientific information.
    Among the examples taken from interviews and FOIA documents:

        <bullet>  One agency scientist, whose research illustrates a 
        possible connection between hurricanes and global warming, was 
        repeatedly barred from speaking to the media. Press inquiries 
        on the subject were routed to another scientist whose views 
        more closely matched official administration policy.

        <bullet>  Government scientists routinely encounter difficulty 
        in obtaining approval for official press releases that 
        highlight research into the causes and consequences of global 
        warming.

        <bullet>  Media policies at federal agencies went beyond 
        notifying public affairs officers of upcoming interviews or 
        recapping the content of past interviews. In some cases 
        requests to speak with the media were only granted under the 
        condition that a public affairs officer be physically present 
        at the interview. This practice of having their statements 
        monitored may have made some scientists feel less comfortable 
        speaking freely.

        <bullet>  Both scientists and journalists report that 
        restrictive media policies and practices have had the effect of 
        slowing down the process by which interview requests are 
        approved. As a result, the number of contacts between 
        government scientists and the news media has been greatly 
        reduced.

    Highly publicized incidents of interference have led at least one 
agency to implement reforms; in February 2006, NASA adopted a 
scientific openness policy that affirms the right of open scientific 
communication. Perhaps as a result, 61 percent of NASA survey 
respondents said recent policies affirming scientific openness at their 
agency have improved the environment for climate research. While 
imperfect, the new NASA media policy stands as a model for the type of 
action other federal agencies should take in reforming their media 
policies.
    The investigation also highlighted problems with the process by 
which scientific findings are communicated to policy-makers in 
Congress. One example, taken from internal documents provided to GAP by 
agency staff, shows edits to official questions for the record by 
political appointees, which change the meaning of the scientific 
findings being presented.
    Inadequate Funding: When adjusted for inflation, funding for 
federal climate science research has declined since the mid-1990s. A 
majority of survey respondents disagreed that the government has done a 
good job funding climate science, and a large number of scientists 
warned that inadequate levels of funding are harming the capacity of 
researchers to make progress in understanding the causes and effects of 
climate change. Budget cuts that have forced the cancellation of 
crucial Earth observation satellite programs were of particular concern 
to respondents.
    Poor Morale: Morale among federal climate scientists is generally 
poor. The UCS survey results suggest a correlation between the 
deterioration in morale and the politicized environment surrounding 
federal climate science in the present administration. One primary 
danger of low morale and decreased funding is that federal agencies may 
have more difficulty attracting and keeping the best scientists.
    A large number of respondents reported decreasing job satisfaction 
and a worsening environment for climate science in federal agencies:

        <bullet>  Two-thirds of respondents said that today's 
        environment for Federal Government climate research is worse 
        compared with five years ago (67 percent) and 10 years ago (64 
        percent). Among scientists at NASA, these numbers were higher 
        (79 percent and 77 percent, respectively).

        <bullet>  45 percent said that their personal job satisfaction 
        has decreased over the past few years. At NASA, three in five 
        (61 percent) reported decreased job satisfaction.

        <bullet>  36 percent of respondents from NASA, and 22 percent 
        of all respondents, reported that morale in their office was 
        ``poor'' or ``extremely poor.'' Among NCAR respondents, only 
        seven percent reported such low levels of morale.

Recommendations

    Congress should take action to prevent the worst effects of global 
warming, ignore the disinformation campaign funded by ExxonMobil, and 
take steps to protect federal climate scientists from political 
interference. Let me address each of these areas.
Congressional Action on Global Warming
    The true signal that ExxonMobil's disinformation campaign has been 
defeated and federal climate scientists have regained a real voice will 
come when Congress passes policies that meaningfully address the threat 
of global warming. Most importantly, Congress should pass science based 
legislation that gradually reduces global warming emissions to 80 
percent below 1990 levels by 2050. In addition, Congress should enact 
policies that spur the development of solution technologies and make 
compliance with the economy-wide reductions more affordable. These 
should include:

        <bullet>  Increased fuel economy standards for passenger 
        vehicles;

        <bullet>  A Renewable Electricity Standard requiring utilities 
        to obtain 20 percent of electricity from renewable energy 
        sources by 2020;

        <bullet>  A shift in government energy support and incentives 
        away from conventional coal, oil, and gas toward clean, 
        renewable energy sources; and,

        <bullet>  Integration of low carbon fuels into the supply chain 
        by ensuring that more gas stations sell biofuels such as E85 
        and flexible fuel vehicles comprise a greater percentage of the 
        vehicle fleet.

Ending ExxonMobil's Disinformation Campaign
    The UCS ``Smoke, Mirrors, and Hot Air'' report, which was covered 
in more than 300 media outlets, came on the heels of other criticism of 
ExxonMobil's disinformation campaign. In September 2006, the Royal 
Society, Britain's premier scientific academy, sent a letter to 
ExxonMobil urging the company to stop funding the dozens of groups 
spreading disinformation on global warming and also strongly criticized 
the company's ``inaccurate and misleading'' public statements on global 
warming. On October 27, 2006, Senators Olympia Snowe (R-ME) and John D. 
Rockefeller (D-WV) sent a letter to ExxonMobil urging the company to 
stop funding climate contrarian groups. All three of these documents 
have led to public outrage about the company's cynical campaign to 
delay climate action.
    In response to public pressure, ExxonMobil recently launched a 
public relations campaign aimed at softening its image as a climate 
skeptic. Although the company recently acknowledges the global warming 
threat, and has announced that it has cut off funding for some of the 
groups involved in the disinformation campaign, including the 
Competitive Enterprise Institute, it has not yet pledged a complete 
halt to its bankrolling of the scores of skeptic groups that 
disseminate misleading information on global warming. In a letter 
responding to Senators Snowe and Rockfeller, ExxonMobil claimed to have 
no control over the activities of the groups it supports. If that's 
true, ExxonMobil can certainly choose to stop funding any group that 
disseminates misinformation and establish clear standards for groups 
that receive funding in the future.
    Even if ExxonMobil ceases to fund its disinformation campaign, much 
of what it funded in the past will continue to have influence, and to 
the degree it does, our nation will take longer to enact the needed 
policies described above. Such delay would be costly in harm done to 
natural and human socioeconomic systems that are sensitive to the 
negative impacts of business-as-usual projections for future climate. 
Therefore, I urge Members of Congress to draw the scientific 
information needed to formulate wise policy responses to impending 
climate change from bona fide scientific organizations and member 
scientists who publish in the scientific literature, and to assiduously 
avoid being influenced by the protestations of small but vocal groups 
and individuals funded by ExxonMobil and other corporations and special 
interests for the express purpose of casting doubt on a robust body of 
climate science.
Protecting Federal Climate Scientists
    The UCS-GAP ``Atmosphere of Pressure'' report brought to light 
numerous ways in which U.S. federal climate science has been filtered, 
suppressed, and manipulated in the last five years. Until this 
political interference ends, the United States will not be able to 
fully protect Americans and the world from the dangers of a warming 
planet. Creating systems to ensure long-term independent and accessible 
science will require the energies of the entire Federal Government. T 
recommend the following reforms and actions:

        <bullet>  Congress must act to specifically protect the rights 
        of federal scientists to conduct their work and communicate 
        their findings without interference and protect scientists who 
        speak out when they see interference or suppression of science.

        <bullet>  The Federal Government must respect the 
        constitutional right of scientists to speak about any subject, 
        including policy-related matters and those outside their area 
        of expertise, so long as the scientists make it clear that they 
        do so in their private capacity, and such communications do not 
        unreasonably take from agency time and resources. Scientists 
        should also be made aware of these rights and ensure they are 
        exercised at their agencies.

        <bullet>  Ultimate decisions about the communication of federal 
        scientific information should lie with scientists themselves. 
        While non-scientists may be helpful with various aspects of 
        writing and communication, scientists must have a ``right of 
        last review'' on agency communications related to their 
        scientific research to ensure scientific accuracy has been 
        maintained.

        <bullet>  Pre-approval of media interviews with federal 
        scientists by public affairs officials should be eliminated. 
        Scientists should not be subject to restrictions on media 
        contacts beyond a policy of informing public affairs officials 
        in advance of an interview and summarizing the interaction for 
        them afterwards. Coordinating media requests with the public 
        affairs office is reasonable, but the practice of public 
        affairs officers being present at an interview, either 
        physically or by phone, can have a chilling effect on the free 
        flow of scientific information and should not serve as a 
        prerequisite for the approval of an interview. The UCS report 
        provides a Model Media Policy that can be used as an example 
        for federal agencies who wish to reform their policies and 
        practices regarding scientific freedom and openness.

        <bullet>  Federal agencies should clearly support the free 
        exchange of scientific information in all venues. They should 
        investigate and correct inappropriate policies, practices, and 
        incidents that threaten scientific integrity, determine how and 
        why problems have occurred, and make the necessary reforms to 
        prevent further incidents.

        <bullet>  Funding decisions regarding climate change programs 
        should be guided by scientific criteria, and must take into 
        account the importance of long-term, continual climate 
        observation programs and models. All branches of the government 
        must have access to independent scientific advice.

Conclusion

    The actions of ExxonMobil-funded groups and federal political 
appointees to distort, manipulate, and suppress climate science have 
helped postpone meaningful U.S. action to protect future generations 
from the worst consequences of global warming. The Federal Government 
must commit to ensuring basic scientific freedoms and supporting 
scientists in their endeavors to bring scientific results to the policy 
arena, scientific fora, and the American people.



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Attachment B

       Selected Excerpts from UCS Climate Survey Essay Responses

    The 40-question survey mailed by UCS to over 1,600 federal climate 
scientists featured one essay question that allowed scientists to 
provide a written narrative, and extra space for scientists to leave 
additional comments. The following are excerpts from the essays 
provided, divided into five topic areas: political interference in 
climate science, scientific findings misrepresented, barriers to 
communication, funding, and climate scientist are disheartened.

``The integrity of the U.S. Federal Government climate science could 
best be improved by. . .''

I. Political Interference with Climate Science
    Large numbers of federal climate scientists reported various types 
of interference, both subtle and explicit:

         National Aeronautics and Space Administration (NASA)

         ``Remembering that the civil service scientists and engineers 
        can and should be an unbiased reservoir of insights into 
        different questions with impacts across international economic 
        and cultural dividing lines. Politicizing and degrading the 
        integrity for which we are internationally known and respected 
        is a disservice to our country and a danger to the world. If we 
        can't be trusted, to give insights on global change and funded 
        to do so, who in the world will do it?''

         ``Keep politics out of science.''

         ``Administration needs to act on the best information, not try 
        to force the information to fit their desired action.''

         National Oceanic and Atmospheric Administration (NOAA)

         ``Removing the current atmosphere where scientists who report 
        findings truthfully may face consequences if they contradict 
        administration policies.''

         ``I have never seen or expected this degree of political 
        interference in scientific research. It's appalling and 
        unbelievable that it happens in the U.S.''

         ``Eliminating political pressure from influencing science 
        findings.''

         ``De-politicizing the science, especially at the highest 
        administrative levels of agencies. Protect the integrity of 
        scientists by letting them speak, and by respecting that.''

         ``Remove political pressures that try to make agencies support 
        the administration's agenda. Allow scientific agencies to 
        remain nonpolitical. Allow scientific results to be used as 
        scientific facts instead of political or policy statements.''

         ``Policy of zero interference in the scientific process.''

         Environmental Protection Agency (EPA)

         ``The perception that. . .we (climate scientists) might find 
        and write [something that] might be considered controversial is 
        a strong one that comes down from management. It's not clear 
        that there's a real reason for it or what the consequences 
        would be. This perception should be actively discouraged from 
        the highest levels!''

         ``Keeping politics out of the scientific process. I believe 
        the line has been crossed between science informing public 
        policy and policy manipulating the science (and trying to 
        influence its outcome). I have personally experienced this 
        manipulation in the area of communicating the science many 
        times.''

         Department of Energy

         ``Allowing scientists to work completely independently of 
        current administrative views on the subject.''

         ``No oversight of scientific quality by politicians. It should 
        be left to peer review and presentations of results in 
        scientific meetings.''

         U.S. Geological Survey (USGS)

         ``A scientific report will now undergo three `policy' reviews 
        and two `peer' reviews prior to further peer-review journal 
        reviews. This will not only slow the reporting of results, but 
        the chances are that significant watering-down of results will 
        occur during the three `policy' reviews by non-specialists.''

         National Center for Atmospheric Research (NCAR)

         ``Keeping political employee appointments completely 
        independent of the scientific research, scientific publication, 
        and scientific communications processes.''

II. Scientific Findings Misrepresented

    Federal climate scientists reported that their research findings 
have been changed by non-scientists in ways that compromise accuracy:

         National Oceanic and Atmospheric Administration (NOAA)

         ``Not censoring scientific results.''

         ``U.S. Federal Government climate science does not lack 
        integrity. Science assessments, summaries, policy papers 
        sometimes do lack integrity. The best way to improve them would 
        be to ensure they are written by qualified scientists, not by 
        political hacks.''

         Department of Agriculture (USDA)

         ``It's not the climate science per se, but how it is spun and 
        censored by officials.''

         ``Hands off by policy/communications and non-scientific staff 
        on scientific reports. These reports should be subject to 
        scientific and independent peer review.''

         Department of Energy

         ``Not having political appointees who have no formal training 
        in climate science looking over our shoulders. There should be 
        some minimum bar before they are appointed. Policy should be 
        based on sound science; results of science should not be 
        diluted on suited/adjusted to justify policy. This particular 
        Administration has gone beyond reasonable boundaries, on this 
        issue.''

         National Center for Atmospheric Research

         ``The unedited presentation of findings to government panels 
        and to the public. It appears that funding organizations are 
        shifting priorities away from climate studies to other programs 
        deemed more important by the current administration.''

III. Barriers to Communication

    Agency scientists are not free to communicate their research 
findings to the media or the public:

         National Aeronautics and Space Administration (NASA)

         ``As of March 2006, there was a marked change in NASA, and I 
        have spoken out freely on climate change, including a NASA-
        approved press release. I believe scientists at other agencies 
        (e.g., NOAA) still have restrictions.''

         ``Allow direct and open communication between scientists and 
        the public without prior permission, clearance, chaperones, 
        handlers, etc.''

         ``Recently a Bush appointee to the position of Public 
        Information Officer attempted to muzzle Jim Hansen, Director of 
        GISS. . .the NASA Administrator made it clear that such 
        political meddling would not be tolerated. This was excellent 
        leadership at the top and set the tone for any lower echelons 
        that may not otherwise have been this strong. Michael Griffin 
        is a great improvement over his recent precedents.''

         ``Reduced public affairs interference, review, delay, 
        oversight.''

         ``Not having White House liaisons in science related PR 
        offices.''

         National Oceanic and Atmospheric Administration (NOAA)

         ``Scientists should be free to communicate with the media, 
        rather than having media contacts filtered by ``Public 
        Affairs'' officers. This should be official policy, not a 
        ``wink and nod'' policy.''

         ``Removing all apparatchiks monitoring the controlling how 
        scientists communicate to the public.''

         ``Allowing us to interact openly with the public.''

         ``Less restrictions on publications and data output, more 
        universal support, less restrictive travel/visitor policies 
        (our honored guests are treated like criminals to even get in 
        the building).''

         Department of Energy

         ``Not having political appointees tinker with science that is 
        best left to the experts. Particularly at NOAA where the 
        Administration has gagged free exchange of results.''

         ``More open discussion of issues, honest assessment of data 
        and results. The public does not know who to believe. Separate 
        the ``grey'' results/literature from solid peer reviewed 
        results and provide ``what is known and not known,'' not 
        opinions.''

         Environmental Protection Agency (EPA)

         ``Allowing scientists to communicate directly to the public 
        and other scientists about critical significance of climate 
        change. In fact, informing the public regarding the truth of 
        this issue must be encouraged and rewarded.''

         National Center for Atmospheric Research

         ``From what I've heard, NCAR is rare among research institutes 
        in that we are free to communicate our findings. This policy 
        needs to apply to all research institutes and all scientists 
        should be encouraged to communicate their results to the 
        public.''

         ``At one point, I specifically asked my division director if 
        there were any censorship policies at NCAR. He emphatically 
        stated that there were none and that if we were ever pressured 
        that we should contact him immediately and he would raise hell 
        to eliminate the pressure.''

IV. Inadequate Funding

    Scientists reported that inadequate funding affects their ability 
to do the research that is necessary and pertinent.

         National Aeronautics and Space Administration (NASA)

         ``I believe that climate research at NASA is being undermined 
        by the current administration. This is accomplished not through 
        direct threats of intimidation, but through lack of funding. 
        Several years ago the funding focus [at NASA] was switched from 
        Earth Science to solar system exploration (Moon and Mars). I 
        believe this was done not for solar system exploration, but 
        rather to curtail climate research. The emphasis needs to be 
        switched back to Earth Science.''

         ``Problems with climate research in the Federal Government 
        mainly have to do with funding. Future funding at my agency is 
        uncertain. Future climate observational programs (crucial ones) 
        are threatened because of lack of funds. New accounting rules 
        at my agency require climate scientists to spend unreasonable 
        amounts of time writing proposals, which has reduced 
        productivity.''

         ``Funding for climate research is a factor of 5-10 below 
        critical mass to develop a designed climate observing system.''

         National Oceanic and Atmospheric Administration (NOAA)

         ``Include a dedicated long-term observing program with stable 
        funding support for about 30 more years. The current satellite 
        program does not meet climate research needs.''

         Environmental Protection Agency (EPA)

         ``I have not worked directly on climate change since funding 
        was eliminated in my area. Other areas of much less importance 
        have been emphasized as a result. Which is a tragedy.''

         Department of Agriculture (USDA)

         ``The U.S. Climate Change Science Program has not received 
        sufficient funding for needed observations, monitoring, 
        research, [and] data systems.''

         U.S. Geological Survey (USGS)

         ``U.S. satellite programs are in severe jeopardy. The loss of 
        continuity in observational satellite data will impair progress 
        in climate science.''

V. Climate Scientists are Disheartened

    While a large majority of respondents (88 percent) agreed with the 
statement, ``U.S. Federal Government climate research is of generally 
excellent quality,'' respondents reported decreasing job satisfaction 
and a worsening environment for climate science in federal agencies:

         National Oceanic and Atmospheric Administration (NOAA)

         ``The intrusion of politics into the field is making some (me 
        and others) consider change of field or career.''

         Environmental Protection Agency (EPA)

         ``I am [close to] retirement and feel that I will no longer be 
        able to use my abilities to produce scientific information of 
        relevance to the American public. The last years of my career 
        are being squandered for political reasons. I do not think I 
        will be able to do any more new climate science before I 
        retire. My goal is to get out the results from past research.''

         Department of Energy

         ``To watch this from another agency is so demoralizing. They 
        have virtually derailed the mission of providing environmental 
        services to the public and burnt billions. . .. Shocking 
        tracking record!''

    Chairman Miller. Thank you, Dr. McCarthy. That was 
admirably close to five minutes.
    Mr. Maassarani.

     STATEMENT OF MR. TAREK F. MAASSARANI, STAFF ATTORNEY, 
               GOVERNMENT ACCOUNTABILITY PROJECT

    Mr. Maassarani. Mr. Chairman, Ranking Member, Members of 
the Subcommittee, I thank you for this opportunity to share the 
Government Accountability Project investigation into the 
suppression of scientific communication. The complete findings 
can be found in the full investigative and synthesis report 
entitled, Redacting the Science of Climate Change.
    This report documents how certain government policies and 
practices have increasingly restricted the flow of politically-
inconvenient scientific information the emerges from taxpayer-
funded climate change research. These restrictions have 
affected the media's ability to report on the science, 
decision-maker's capacity to respond with appropriate policies, 
and the public's grasp of an environmental issue with profound 
consequences for our future.
    As lead investigator I conducted more than 40 interviews 
with climate scientists and government officials representing 
inside perspectives from numerous agencies. I reviewed 
thousands of pages of documentation obtained from Freedom of 
Information Act disclosures, as well as public and internal 
agency sources. I also examined more than 100 published news 
articles and Congressional documents.
    The investigation identified policies and practices 
requiring tight control of media communications, which resulted 
in the delay and denial of media requests and press releases. 
This considerably reduced scientists' opportunities to 
communicate the results of their research to the public. In one 
instance a national oceananic and atmospheric administration 
scientist complained that the prior rate of one media request 
every two to three weeks had slowed to one every two to three 
months as a result of new pre-approval requirements. In another 
instance a NASA scientist witnessed his press release on 
climate change edited to minimize its media impact before it 
was approved. In yet another instance a scientist described how 
on three separate occasions what he referred to as a minder, 
flew from Washington, D.C., to Hawaii and Boulder to monitor 
his interviews. With such editing, denials, delays, and 
monitoring, some scientists have given up trying to issue press 
releases or even pursue media contacts.
    The restrictions referred to in our report have increased 
steadily, albeit unevenly over time, often in response to 
upcoming elections, the publication of controversial studies, 
hurricane seasons, and most notably, the landfall of Hurricane 
Katrina. Furthermore, restrictive policies and practices are 
characterized by internal inconsistencies and a lack of 
transparency about where decisions to restrict communications 
are being made, according to what criteria, and why.
    It appears that signals from executive offices such as the 
Council on Environmental Quality are channeled to political 
appointees and politically-aligned civil servants at lower-
level press and policy offices. These directives largely take 
place off the record, frequently deviating from the written 
guidelines, and involving individuals with few scientific 
qualifications. Whether these restrictive communication 
policies and practices have caused overt and well-publicized 
incidents or have acted by more subtle processes, their effect 
has been to misrepresent and under-represent the scientific 
knowledge generated by federal climate science agencies.
    In some case the policies and practices represent 
institutionalized constitutional and statutory infringements of 
federal employees' free speech and whistleblower rights. In 
most cases they undermine the government's inherent obligation 
to freely disseminate the results of publicly-funded research.
    To address the problems the Government Accountability 
Project recommends that Congress enact legislation to insure 
federal free speech rights and extend whistleblower 
protections. GAP lauds H.R. 985 recently passed by the House 
and urges it to be expanded to cover all employees conducting 
federally-funded scientific, technical, or other professional 
research.
    The report also presents an extensive set of 
recommendations for agencies to insure the integrity of media, 
Congressional, professional, and public communications. 
Congress should consider what legislative action is needed to 
help agencies in this regard.
    Finally, GAP asked Congress to strengthen its essential 
oversight functions with regard to the integrity of 
communications about scientific research and to insure that 
objective and independent science is the basis for policy-
making.
    Thank you.
    [The prepared statement of Mr. Maassarani follows:]
               Prepared Statement of Tarek F. Maassarani

Introduction

    Mr. Chairman, Ranking Member, Members of the Subcommittee. I thank 
you for the opportunity to share the findings of my investigative 
report. Until recently, I served as full-time staff attorney and 
investigator for the Government Accountability Project, the Nation's 
leading whistleblower defense and advocacy organization. In February 
2006, prompted by the well-publicized concerns of Dr. James Hansen and 
Rick Piltz, GAP initiated an in-depth investigation to determine the 
extent of political interference with federal climate research and the 
dissemination of scientific information.
    The investigation found no incidents of direct interference with 
climate change research. Instead, unduly restrictive policies and 
practices were found to occur largely in the communication of 
``sensitive'' scientific information to the media, the public, and 
Congress. The effect of these restrictive communications policies and 
practices has been to misrepresent and under-represent the taxpayer-
funded scientific knowledge generated by federal climate science 
agencies and programs. The bottom line is, we need the government to be 
stimulating, not undermining, an informed public debate on important 
scientific subjects, including climate change. We have included for 
your consideration a number of recommendations for the Administration 
and the Congress that would help achieve this goal.

The GAP Investigation

    The GAP investigation focused primarily on the effects of 
restrictive Federal Government policies and practices, especially those 
applied to control communications from particular employees on 
``sensitive'' aspects of climate science. The investigation also 
addressed government efforts to control the communication of scientific 
climate-related information to Congress, the scientific community, and 
the public. The complete findings have been incorporated into my 
investigative and synthesis report, Redacting the Science of Climate 
Change.
    As lead investigator, I conducted more than 40 interviews with 
climate scientists, communications officers, agency and program 
officials, and journalists. These sources--both named and 
confidential--represented inside perspectives from the National Oceanic 
and Atmospheric Administration (NOAA), National Aeronautics and Space 
Administration (NASA), Climate Change Science Program (CCSP), 
Environmental Protection Agency (EPA), United States Geological Survey, 
and National Center for Atmospheric Research, as well as local, 
national, and international media.
    In addition to interviews, I have reviewed thousands of pages of 
documentation obtained from Freedom of Information Act disclosures, as 
well as public and internal agency sources. I also reviewed more than 
100 published news articles and more than three dozen congressional 
documents including reports, testimonies, and questions for the record.

Overview

    A perception of inappropriate political interference is widespread 
among employees of the federal climate science agencies and programs, 
as well as among journalists from national, mainstream outlets who 
cover their research. This perception is substantiated by evidence from 
inside sources, scientists' personal testimonies, journalists, and 
document disclosures.
    My report demonstrates how policies and practices have increasingly 
restricted the flow of scientific information emerging from publicly-
funded climate change research. This has affected the media's ability 
to report on the science, public officials' capacity to respond with 
appropriate policies, and the public's grasp of an environmental issue 
with profound consequences for our future.
    The investigation found no incidents of direct interference with 
conducting climate change research. Instead, unduly restrictive 
policies and practices were found that affected the communication of 
``sensitive'' scientific information to the media, the public, and 
Congress. In this context, the term ``sensitive scientific 
information'' is meant to signify science that is seen as leading to 
conclusions that call into question existing policy positions or 
objectives and includes, for example, some of the research dealing with 
the effects of climate change or greenhouse gases on hurricanes, sea 
levels, ice sheets, glaciers, marine life, polar bears, the water 
supply, and human society.

Media Communications

    A review of the media policies and agency practices controlling the 
communication of scientific information at NASA, NOAA, and other 
agencies, demonstrated the following:

        <bullet>  Agency media policies and practices required 
        scientists to obtain pre-approval from public affairs 
        headquarters following an initial media request before 
        proceeding with an interview. Likewise, press releases and 
        press conferences also required high-level clearance.

        <bullet>  At times, media policies and practices mandated that 
        scientists forward all relevant requests to a press officer who 
        would then route the interview to other scientists or restrict 
        the topics that could be discussed.

        <bullet>  Agency directives asked scientists to provide 
        anticipated media questions and their expected answers prior to 
        the interview.

        <bullet>  Finally, press officers frequently monitored 
        interviews over conference call or in person. In one instance, 
        a press officer flew out on two separate occasions from 
        Washington, DC, to Hawaii, then Boulder, to monitor two 
        interviews with one scientist.

    As a result, scientists lost a considerable number of opportunities 
to communicate the results of their research to the public due to delay 
or denial of interviews and/or press releases held up during a 
clearance process. In one instance, a NOAA scientist complained that 
the prior rate of one media request every two to three weeks had slowed 
to one every two to three months as a result of new pre-approval 
requirements. In another instance, a NASA scientist witnessed his press 
release on climate change edited to minimize its media impact before it 
was approved. With such denials, or delays of more than two-weeks, some 
scientists have given up trying to release them. Others feel 
discouraged from pursuing media contacts.
    The investigation has demonstrated that these restrictive policies 
and practices have increased steadily, albeit unevenly, over time. In 
2001, there were only a few isolated instances of mandatory pre-
approval at NOAA, while most labs enjoyed a simple ``notice and recap'' 
policy in which only prior notification of public affairs and a 
subsequent follow-up are required. Similarly, NASA's policy did not 
require pre-approval. At NOAA, public affairs offices then implemented 
clearance requirements following the release of a hurricane season 
outlook in 2002 and a report by Ocean Commission in 2004. In June 2004, 
NOAA issued a written media policy that codified a number of these 
prior practices. Although some NOAA laboratories continued to operate 
largely by ``notice and recap,'' pre-approval was required for certain 
``hot button'' issues and scientists, such as one researcher who had 
recently published his findings from a modeling study of the 
relationship between hurricanes and climate change. Public affairs 
required his interviews to be monitored.
    In the weeks leading up to the 2004 presidential election, a 
regional EPA office issued a pre-approval directive and NASA scientists 
experienced numerous ``disappearances'' of press releases. In 2005, a 
year of record-setting global temperatures, politically-appointed 
senior management at NASA public affairs headquarters implemented an 
unwritten practice of requiring their special pre-approval for media 
requests and press releases concerning ``warming,'' ``melting,'' or 
``glaciers.'' A mid-level press officer recalls these officials 
conferring with the White House Office of Science and Technology Policy 
and pressuring him to suppress the media communications under the 
pretext of some ``excuse.''
    At NOAA, a reminder of the media policy was again disseminated to 
certain agency laboratories at the start of the 2005 hurricane season 
and then again after the publication of a controversial study linking 
increased hurricanes activity and climate change. NOAA first widely 
publicized its media policy throughout its research branches following 
Hurricane Katrina. At around this time, documents began to reveal that 
media inquiries were required to obtain clearance from the Department 
of Commerce and the White House Council on Environmental Quality. Media 
contacts with a NOAA researcher that disputed a connection between 
hurricanes and climate change were given preference over those with 
another researcher whose models suggested a link. NOAA also posted an 
article on its website claiming an agency-wide consensus against the 
link.
    In early January of 2006, NOAA issued implementation protocols for 
the 2004 media policy, as well as a press release review process flow 
sheet. The implementation protocols explicitly require pre-approval for 
press releases and the drafting of prospective answers to anticipated 
questions, as well as routing for media requests. The press release 
flow sheet included the Department of Commerce in its 13-stage review 
process. In June 2006, an EPA scientist studying sea level rise and 
coastal erosion was required to route all media requests to his public 
affairs office.

Public and Congressional Communications

    Interference with scientific communications to the public and 
Congress included inappropriate editing, delay, and suppression of 
reports and other printed and online material. For example, following 
its 2001 publication, senior officials prohibited all references to the 
CCSP's congressionally-mandated National Assessment of the Potential 
Consequences of Climate Variability and Change from websites, 
discussions, and subsequent assessment reports. The Administration 
similarly disowned the 2002 U.S. Climate Action Report, prepared by the 
EPA as a requirement of the United Nations Framework Convention on 
Climate Change.
    In September 2002, the Administration removed a section on climate 
change from the EPA's annual air pollution report, even though the 
topic had been discussed in the report in each of the preceding five 
years. Then in June 2003, the EPA removed an entire chapter on climate 
change after the White House had tried to so substantially alter its 
contents that leaving it in would compromise the credibility of the 
agency.
    Similarly for websites, the EPA's Global Warming website, actively 
updated prior to 2002, saw little if any activity for nearly four 
years. At about the same time that the EPA website was revived, the 
State Department website was altered to hide much of its climate-
related materials. Although the Communications Interagency Working 
Group CCSP is mandated to prepare numerous informational products for 
the public on climate change research, its website has uploaded only a 
handful of materials since 2004.

Conclusions

    Political interference is top-down. Directives and signals from 
executive offices such as the Council on Environmental Quality, the 
Office of Management and Budget, and the Office of Science and 
Technology Policy are channeled through political appointees and 
younger politically-aligned career civil servants at lower-level press 
and policy offices. These channels of communications largely take place 
off the record, frequently deviating from written policy guidelines and 
involving individuals with few scientific qualifications. Whereas low-
level agency and program support staff are typically sympathetic to the 
scientists and their science, as one scientist noted, ``the closer you 
get to Washington, the more hostile [they are to the science].'' Senior 
managers have been aware of the perception and incidents of 
interference longer than they have attempted to address them. Often, 
they may be conforming to pressures from above to downplay politically-
inconvenient science.
    The restrictive communications policies and practices discussed 
here are largely characterized by internal inconsistencies, ambiguity, 
and a lack of transparency. They send a chilling signal to federal 
employees, including scientists and public affairs officers, that 
further freeze the flow of information.

    Whether these restrictive communications policies and practices 
have precipitated overt and, often, well-publicized incidents or have 
acted by more subtle processes, their effect has been to misrepresent 
and under-represent the taxpayer-funded scientific knowledge generated 
by federal climate science agencies and programs. In some cases, the 
policies and practices constitute systematic, institutionalized 
constitutional and statutory infringements of the federal climate 
science employees' free speech and whistleblower rights. In most cases, 
the policies and practices undermine the government's inherent 
obligation to disseminate the results of publicly-funded research.

    Increased congressional and media attention on political 
suppression and interference with climate science communication has led 
to statements of commitment to scientific openness by Administration 
officials and a loosening of communication policies and their 
application. This pressure has led to actual or anticipated reforms, as 
well as improved morale, at NASA and NOAA, though institutional 
problems and policy weaknesses remain (See, e.g., GAP's memorandum to 
NASA scientists, enclosed as Attachment 1). Even in rhetoric, the 
reform movement has largely missed ongoing problems at EPA and CCSP.

Recommendations

    GAP recommends that the executive branch and all federal agencies 
supporting climate change research:

        <bullet>  Implement a clear and transparent ``notice and 
        recap'' media policy in which only a prior notification to 
        public affairs and a subsequent follow-up are required. 
        Correspondingly, eliminate mandatory pre-approval for media 
        contacts, selective routing of media requests, drafting of 
        anticipated questions and answers by scientists prior to 
        interviews, and monitoring of media communications.

        <bullet>  Develop a transparent communications policy at the 
        Climate Change Science Program (CCSP) and streamline the 
        approval process for CCSP products and communications.

        <bullet>  Reaffirm and educate federal employees about their 
        right to speak on any subject so long as they make clear that 
        they are expressing their personal views and do not use 
        government time and resources--with the important proviso that 
        no restrictions apply when federal employees are exercising 
        their whistleblower rights to disclose unclassified information 
        that is reasonably believed to evidence illegality, gross 
        waste, gross mismanagement, abuse of power, or substantial and 
        specific danger to public health or safety.

        <bullet>  Bring media policies into compliance with the Anti-
        Gag Statute, the Whistleblower Protection Act, the Lloyd-
        Lafollette Act for communications with Congress, and related 
        provisions.

        <bullet>  Ensure the timely and pro-active coordination of 
        press releases and media contacts so as to promote rather than 
        limit the flow of information.

        <bullet>  Ensure that content editing and scientific quality 
        control remain with qualified scientists and the peer-review 
        process.

        <bullet>  Reaffirm and educate federal employees on their right 
        to review any final draft that is to be published under their 
        name or that substantially references their research.

        <bullet>  Establish accountability procedures that increase 
        transparency and provide for internal reporting of undue 
        interference with science.

        <bullet>  Investigate and correct inappropriate policies, 
        practices, and incidents such as those described in this 
        report.

    GAP recommends that Congress:

        <bullet>  Enact legislation that extends federal free speech 
        and whistleblower rights to all employees conducting federally-
        funded scientific, technical, or other professional research, 
        whether the employee is part of the civil service, a 
        contractor, grant recipient, or receives taxpayer support in 
        any other manner.

        <bullet>  Ensure that objective and independent science is the 
        basis for policy-making.

        <bullet>  Strengthen its essential oversight functions with 
        regard to the integrity of communications about scientific 
        research.

MEMORANDUM

To: Climate Scientists
From: Government Accountability Project
Re: Analysis of NASA's Recently Released Media Policy

    The Government Accountability Project (GAP) is issuing advisory 
comments on NASA's new media policy that it released yesterday, March 
30. The new policy came in response to public outcry over NASA's 
suppression of climate science research inconsistent with the Bush 
Administration's political agenda. NASA is touting the development as a 
free-speech breakthrough for agency scientists.
    GAP identified the areas in which the new policy is an improvement:

        <bullet>  NASA Administrator Michael Griffin's reassuring 
        rhetoric is of symbolic value, demonstrating official respect 
        for scientific freedom.

        <bullet>  The new media policy does not cover scientific 
        reports, web postings, or professional dialogue such as at 
        conferences, allowing scientists to share information with 
        their colleagues without going through public affairs political 
        appointees.

        <bullet>  The policy officially recognizes the free speech 
        right for scientists to express their ``personal views'' when 
        they make clear that their statements are not being made on 
        behalf of NASA.

    However, in six critical areas the new policy falls short of 
genuine scientific freedom and accountability, and potentially 
undermines the positive guarantees:

        <bullet>  While recognizing the existence of a ``personal 
        views'' exception, the policy doesn't announce the 
        circumstances when that right cancels out conflicting 
        restrictions, which are phrased in absolute terms applying to 
        contexts such as ``any activities'' with significant media 
        potential. This leaves a cloud of uncertainty that translates 
        into a chilling effect for scientists.

        <bullet>  The policy fails to comply with the legally-mandated 
        requirements of the Anti-Gag Statute to explicitly include 
        notice that the Whistleblower Protection Act and Lloyd-
        Lafollette Act (for congressional communications) limit and 
        supersede its restrictions.

        <bullet>  The policy institutionalizes prior restraint 
        censorship through ``review and clearance by appropriate 
        officials'' for ``all NASA employees'' involved in ``preparing 
        and issuing'' public information. This means that scientists 
        can be censored and will need advance permission from the 
        ``appropriate'' official before anything can be released.

        <bullet>  The policy defies the WPA by requiring prior approval 
        for all whistleblower disclosures that are ``Sensitive But 
        Unclassified'' (SBU). The legal definition of SBU is broad and 
        vague, to the point that it can be interpreted to sweep in 
        virtually anything. The WPA only permits that restriction for 
        classified documents or those whose public release is 
        specifically banned by statute.

        <bullet>  The policy bans employees' free speech and WPA rights 
        to make anonymous disclosures, requiring them to work with NASA 
        public affairs ``prior to releasing information'' or ``engaging 
        in any activities or events. . .that have the potential to 
        generate significant media or public interest or inquiry.''

        <bullet>  The policy gives NASA the power to control the timing 
        of all disclosures, which means scientists can be gagged until 
        the information is dated and the need for the public to know 
        about critical scientific findings has passed.

    In December of last year, NASA climatologist Dr. James Hansen was 
threatened with ``dire consequences'' by a political appointee for 
statements he made about the consequences of climate change. According 
to GAP's legal director, Tom Devine, ``Under this so-called reform, Dr. 
Hansen would still be in danger of `dire consequences' for sharing his 
research, although that threat is what sparked the new policy in the 
first place. The new policy violates the Whistleblower Protection Act, 
the Anti-Gag Statute, and the law protecting communications with 
Congress, the Lloyd-Lafollette Act. The loopholes are not innocent 
mistakes or oversights. GAP extensively briefed the agency lawyer on 
these requirements, who insisted he understood them fully. NASA is 
intentionally defying the good government anti-secrecy laws.''

    Chairman Miller. Thank you, Mr. Maassarani. Mr. Kueter.

  STATEMENT OF MR. JEFF KUETER, PRESIDENT, GEORGE C. MARSHALL 
                           INSTITUTE

    Mr. Kueter. Mr. Chairman, Members of the Subcommittee, I 
appreciate the opportunity to appear before you today. I am 
Jeff Kueter, President of the George Marshall Institute, a non-
profit organization focused on improving the comprehension of 
important scientific and technical issues by the public, the 
media, and policy-makers. We study environmental and national 
security topics, with a particular emphasis on climate change, 
ballistic missile defense, and space security.
    I am here today because of our concern about the character 
of the climate change debate and efforts to discredit the 
reputation of people who do not share the view that we face an 
impending climate crisis. These efforts are inconsistent with 
the principles of science, sound policy-making, and the 
advancement of knowledge, as well as our principles of free 
speech and association. Healthy debate is an engine for 
progress and change.
    Our climate is a complex, chaotic system. We have learned a 
great deal about how it operates but our knowledge is far from 
complete. Global temperatures have increased over the past 50 
or 100 years, human activities contribute to that warming, and 
actions to adjust that legitimate risk are appropriate. 
Nevertheless, the inter-governmental panel on climate change in 
the National Academy of Sciences document many important gaps 
in our understanding of critical climate processes and 
identifies significant gaps in the observational data. The 
current debate is not over what is scientific fact. It is over 
interpretations of analyses, the quality of data, professional 
judgments, and the confidence that can be placed in climate 
models. That the IPCC for example, reached one conclusion does 
not make that a fact. Reasonable people can reach different 
conclusions about the extent of human influence on climate and 
the range of potential future impacts as the National Academy 
has done, as well as the range of public policy choices. 
Discussing these different interpretations is not misleading 
the public, nor is it providing inaccurate impressions as has 
been alleged. To charge otherwise is tantamount to saying that 
the prevailing views should never be challenged. The history of 
science is replete with examples where the prevailing view was 
overtaken by new information. Significant uncertainty is not an 
obstacle to action, it is a signal for caution and flexibility.
    In considering the current debate, several other factors 
deserve recognition. First, all the participants in policy-
making have preferences, interests, and objectives that color 
the interpretation of often-tentative scientific results. 
Conclusions drawn from incomplete science are more a reflection 
of individual preferences than the weight of scientific 
evidence. All participants in the climate debate use the media 
to frame issues in ways that are favorable to their preferred 
positions, but the media is criticized for including the views 
of so-called skeptics and their reporting. The media's role is 
to inform, not to judge by censoring. Reporters should not be 
criticized for including diverse views. Instead, critical 
analyses of all sides should be encouraged. Claims that this 
confuses rather than informs presumes a certainty of foresight 
that simply does not exist.
    Secondly, alleged political interference is claimed to be 
unique. Our book, Politicizing Science, documents numerous 
examples of the damaging intersection of science and politics. 
Further, those who claim the current situation is somehow 
different should become familiar with the story of Dr. Will 
Happer, the Marshall Institute's Chairman. Early in the 
Clinton-Gore Administration Dr. Happer, then head of the 
Department of Energy's Office of Science, questioned the Vice 
President's views on climate change and ozone depletion. 
Despite his scientific credentials, he was summarily dismissed 
at Gore's request.
    Third, in today's debate evidence of a financial tie is 
often sufficient to condemn without proof that views, opinions, 
or conclusions were altered in any way. Arguments about funding 
bias rest on the assumption that funders demand results that 
are solely consistent with their views and interests. It also 
assumes that integrity and objectivity are always for sale. 
Unfortunately, this claim is frequently repeated without 
rigorous evaluation or evidence to support it.
    Let me be clear. No grant to the Institute is contingent on 
support for a specific point of view or conclusion. Our views 
on climate change long predate any support by any corporate 
entity. Nevertheless, the Institute is cited as an example of 
an institution propagating misinformation and confusion at the 
behest of corporate support. The Union of Concerned Scientists' 
January, 2007, report and its accompanying press release single 
us out for close scrutiny. In its references to the Institute, 
the UCS makes basic factual errors and fails to deal with, and 
fails to challenge the substance of our work, and my written 
testimony documents those areas in detail.
    Often overlooked in this discussion is the critical 
dependence of the American scientific enterprise on federal 
funding. The pursuit of that funding can generate unwelcome 
pressures to conform to prevailing beliefs. Studies of 
organizations and bureaucracy revealed the existence of 
distinct agendas and preferences that guide actions, and in the 
case of grant-making organizations, the relationships that they 
enter into.
    If funding alone invariably affects findings and opinions, 
then what should we make of the significantly-greater amount 
spent by foundations and the Federal Government? For the period 
2000, 2002, private foundations conservatively spent 35 to $50 
million each year on climate-related projects. Such projects 
accounted for over 25 percent of the three-year total reported 
grants and contributions received by 10 of the top 20 
institutions. At the same time the Federal Government provides 
two to $4 million each year for climate change research and 
related environmental sciences. In the field of atmospheric 
sciences, for example, federally-funded R&D accounts for more 
than 80 percent of the total expenditures for nearly one-half 
of the top 30 institutions in the five-year period we surveyed.
    Who funds an organization or individual scientist or who 
they associate with is less relevant than the quality of their 
work. This point was made crystal clear more than a decade ago 
when Ted Koppel rejected Vice President Gore's efforts to 
discredit climate scientists on his program, Night Line. Koppel 
observed, ``There is some irony in the fact that Vice President 
Gore is resorting to political means to achieve what should 
ultimately be resolved on a purely scientific basis. The issues 
of global warming and ozone depletion are undeniably important, 
but the issues have to be debated and settled on scientific 
grounds, not politics.'' There is nothing new about major 
institutions seeking to influence science to their own ends. 
The measure of good science is neither the politics of the 
scientist nor the people with whom the scientist associates. It 
is the immersion of hypotheses into the acid of truth. That is 
the hard way to do it, but it is the only way that works. That 
philosophy should guide this debate today.
    Thank you for the opportunity to be here.
    [The prepared statement of Mr. Kueter follows:]
                   Prepared Statement of Jeff Kueter
    Mr. Chairman, Mr. Ranking Member, and Members of the Subcommittee, 
I appreciate the opportunity to appear before you today. I am Jeff 
Kueter, President of the George C. Marshall Institute. The George 
Marshall Institute (GMI) is a 501(c)(3) non-profit organization founded 
in 1984, focused on how science is used in making public policy. The 
Institute's analyses are designed to improve the comprehension of the 
public, the media, and policy-makers of important scientific and 
technical issues and help them distinguish between opinion and 
scientific fact so that decisions on public policy issues can be based 
on solid, factual information, rather than opinion or unproven 
hypotheses. We publish reports and host roundtables and workshops. Our 
activities focus on environmental and national security topics, with a 
particular emphasis on ballistic missile defense and space security.
    With respect to climate change and its public policy ramifications, 
the Institute's position, held for nearly 20 years, is that 
distinguishing human influence from natural variability is not 
sufficiently understood and that many uncertainties about critical 
climate processes require resolution before an adequate understanding 
is established for projecting future climate changes. Statements that 
greenhouse gases are accumulating in the atmosphere as a result of 
human activity, that they contribute to warming, that the temperature 
has increased in the past 50 and 100 years and that humans influence 
climate only tell us the obvious.\1\ The plain facts are that we do not 
know how much human activity is influencing the climate and cannot know 
what temperature or climate will be 50 or 100 years from now. The 
Marshall Institute has long held the position that climate policy 
should be related to our state of knowledge. We have documented policy 
actions that satisfy that standard.\2\ However, many proposed actions 
based on the belief of an impending climate catastrophe are not 
consistent with our state of knowledge.
---------------------------------------------------------------------------
    \1\ National Research Council, Climate Change Science: An Analysis 
of Some Key Questions. (Washington, D.C.: National Academy Press, 
2001); Committee on Global Change Research, National Research Council, 
Global Environmental Change: Research Pathways for the Next Decade 
(National Academy Press: Washington, D.C., 1999), 127-129; J.T. 
Houghton et al., Climate Change 2001: The Scientific Basis; 
Contribution of Working Group I to the Third Assessment Report of the 
Intergovernmental Panel on Climate Change (Cambridge, U.K.: Cambridge 
University Press, 2001), 698; James Schlesinger et al., Climate Science 
and Policy: Making the Connection (Washington, D.C.: George Marshall 
Institute, 2001); and William O'Keefe and Jeff Kueter, Climate Models: 
A Primer (Washington, D.C.: George Marshall Institute, 2005).
    \2\ James Schlesinger and Robert Sproull, Climate Science and 
Policy: Making the Connection (Washington, D.C.: George Marshall 
Institute, 2002).
---------------------------------------------------------------------------

Censorship, the Pursuit of Consensus, and Misperceptions About Climate 
                    Science

    It is, indeed, unfortunate that we are here today discussing calls 
to effectively silence debate on climate science. The censorship of 
voices that challenge and provoke is antithetical to liberty and 
contrary to the traditions and values of free societies. That such 
calls are now coming from venerable scientific societies, such as 
Britain's Royal Society,\3\ and U.S. public policy institutes is 
disturbing and should raise concerns worldwide about the intentions of 
those seeking to silence honest debate and discussion of our most 
challenging environmental issue--climate change.
---------------------------------------------------------------------------
    \3\ Bob Ward, ``Royal Society Letter to Nick Thomas, Esso UK 
Limited,'' September 4, 2006.
---------------------------------------------------------------------------
    The foundation of science, as well as its contributions to the 
betterment of mankind, is based on skepticism and debate. Schools teach 
that science is the clash of ideas, sharpened by data and observation, 
and subject to revision and reversal. Political discourse rests on the 
principle that all voices have the right to be heard and that any 
person is free to associate with whomever they so choose. Science 
demands those freedoms and scientists ought to embrace them.
    The effort to promote and assert a `consensus' on climate change 
science subverts the basic principles of science and is reaching the 
point where the very freedoms on which science depends are now in 
jeopardy--not through action of government but by scientists 
themselves.
    Yet, a careful and thoughtful examination of this issue plainly 
reveals that the debate is not about science. It is about different 
interpretations of studies and data when different assumptions and 
models are used. There is a major distinction between interpretation of 
data and established, verifiable facts. Much of what is put forward as 
fact are interpretations of data and the projections of climate models 
which have not been scientifically validated and which are driven more 
by assumptions than extensive observational data and measurements. In a 
free society, policy-makers and the public are free to judge such 
interpretations and the weight of evidence that supports them.
    It is suggested that the guarded language of serious scientific 
dialogue is being mischaracterized as vagueness and uncertainty as part 
of an intentional campaign to misguide the public. In fact, the drive 
to end discussion on climate change is a mischaracterization of what 
the Intergovernmental Panel on Climate Change (IPCC) said in its Third 
Assessment Report about uncertainties, as well as statements from the 
National Academy of Sciences (NAS). As the IPCC, the NAS, and the U.S. 
Climate Science Strategic Plan, which has been endorsed by the NAS, 
clearly demonstrate, there are many critical uncertainties in our 
understanding of the climate system. Until these uncertainties are 
reduced and our understanding of the climate system is greater, 
reasonable people and organizations can reach different conclusions 
about the extent of human influence on climate and potential future 
impacts. It is puzzling, therefore, that the American public should be 
told that there is nothing more to know about the human relationship 
with climate.
    For example, in addressing the effect of human activities, a 
National Research Council (NRC) review reveals numerous qualifications 
and assumptions:

         ``Because of the large and still uncertain level of natural 
        variability inherent in the climate record and the 
        uncertainties in the time histories of the various forcing 
        agents (and particularly aerosols), a causal linkage between 
        the buildup of greenhouse gases in the atmosphere and the 
        observed climate changes during the 20th century cannot be 
        unequivocally established. The fact that the magnitude of the 
        observed warming is large in comparison to natural variability 
        as simulated in climate models is suggestive of such a linkage, 
        but it does not constitute proof of one because the model 
        simulations could be deficient in natural variability on the 
        decadal to century time scale.'' \4\
---------------------------------------------------------------------------
    \4\ Committee on the Science of Climate Change, National Research 
Council, Climate Change Science: An Analysis of Some Key Questions 
(Washington, D.C.: National Research Council, 2001), 17.

    There is little question that human activities, activities which 
raise people from poverty, allow rising living standards and improve 
human society, have had an influence on the climate. The question is to 
what extent and how strongly. As the quote above shows, this is not a 
settled matter.
    Further, the Executive Summary of Working Group I, Chapter 12 of 
the IPCC's Third Assessment Report contains the following lengthy 
statement about uncertainties:

         ``A number of important uncertainties remain. These include:

                <bullet>  Discrepancies between the vertical profile of 
                temperature change in the troposphere seen in 
                observations and models. These have been reduced as 
                more realistic forcing histories have been used in 
                models, although not fully resolved. Also, differences 
                between observed surface and lower-tropospheric trends 
                over the last two decades cannot be fully reproduced by 
                model simulations.

                <bullet>  Large uncertainties in estimates of internal 
                climate variability from models and observations, 
                though as noted above, these are unlikely (bordering on 
                very unlikely) to be large enough to nullify the claim 
                that a detectable climate change has taken place.

                <bullet>  Considerable uncertainty in the 
                reconstruction of solar and volcanic forcing which are 
                based on proxy or limited observational data for all 
                but the last two decades. Detection of the influence of 
                greenhouse gases on climate appears to be robust to 
                possible amplification of the solar forcing by ozone/
                solar or solar/cloud interactions, provided these do 
                not alter the pattern or time dependence of the 
                response to solar forcing. Amplification of the solar 
                signal by these processes, which are not yet included 
                in models, remains speculative.

                <bullet>  Large uncertainties in anthropogenic forcing 
                are associated with the effects of aerosols. The 
                effects of some anthropogenic factors, including 
                organic carbon, black carbon, biomass aerosols, and 
                changes in land use, have not been included in 
                detection and attribution studies. Estimates of the 
                size and geographic pattern of the effects of these 
                forcing vary considerably, although individually their 
                global effects are estimated to be relatively small.

                <bullet>  Large differences in the response of 
                different models to the same forcing. These 
                differences, which are often greater that the 
                difference in response in the same model with and 
                without aerosol effects, highlight the large 
                uncertainties in climate change prediction and the need 
                to quantify uncertainty and reduce it through better 
                observational data sets and model improvement.'' \5\
---------------------------------------------------------------------------
    \5\ Houghton et al., Climate Change 2001, http://www.grida.no/
climate/ipcc<INF>-</INF>tar/wg1/442.htm.

    There is nothing in our ongoing review of the new IPCC assessment 
to suggest major changes in these uncertainties.
    The referenced uncertainties are important in considering both the 
detection and attribution of climate change. Detection of climate 
change is the ability to say, with some degree of confidence, that the 
climate has changed. Attribution of climate change is the ability to 
say, with some degree of confidence, why the climate has changed. There 
is little question that in many parts of the world there has been a 
detectable change in climate in the last century. The IPCC authors are 
correct in saying that this change can be identified despite the large 
uncertainties in estimates of internal variability. However, 
attribution is a more difficult problem, and the high level of 
uncertainty gives us reason to question the certainty of the IPCC's 
conclusion.
    In summarizing their review of the state of science, the National 
Research Council used highly qualified and nuanced language which 
further supports our position that the question of human attribution is 
far from settled. The NRC stated:

         ``The changes observed over the last several decades are 
        likely mostly due to human activities, but we cannot rule out 
        that some significant part of these changes is also a 
        reflection of natural variability. . .. Because there is 
        considerable uncertainty in current understanding of how the 
        climate system varies naturally and reacts to emissions of 
        greenhouse gases and aerosols, current estimates of the 
        magnitude of future warming should be regarded as tentative and 
        subject to future adjustments (either upward or downward).\6\
---------------------------------------------------------------------------
    \6\ National Research Council, Climate Change Science, 1.

    If anything, the prevailing view is that we are not able to answer 
many significant questions about climate change and, at this point, the 
evidence available is ``suggestive'' but does not ``constitute proof.''
    It is important to recognize that these statements are solely the 
product of the scientists who participated in the process and those 
representatives of government assigned to produce the summary reports. 
Scientists have declined to participate in the process, citing its 
overt biases or unwillingness to commit the time and effort demanded. 
The failure to give adequate recognition to uncertainty and to 
reasonable interpretations of its impact on climate models and public 
policy contributes greatly to the contentiousness in the current 
debate. Further, expert analytical judgments are subjective and 
tentative. As the recent debate over the paleoclimate temperature 
history has plainly revealed, analytical studies are subject to 
numerous and sometimes substantial questions that alter their 
conclusions significantly. Expert judgment is not science and neither 
is the output of models that have been calibrated but not validated. 
The fact that a range of possible climate futures result from running a 
single scenario through the models relied on by the IPCC make it clear 
that the science is not settled and that there is room for differences 
of opinion and debate.
    Nevertheless, as is shown, the statements themselves detail 
numerous significant uncertainties. That the participants in the IPCC, 
for example, reached one conclusion does not make that a fact. Fair 
minded people can reach other conclusions, as the National Research 
Council did when it concluded that ``current estimates of the magnitude 
of future warming should be regarded as tentative and subject to future 
adjustments (either upward or downward).''
    Providing a different interpretation about available data and 
understanding is not misleading the public nor is it providing 
inaccurate or misleading impressions. To charge otherwise is tantamount 
to saying that a prevailing view should never be challenged. The 
history of science is replete with examples of where the prevailing 
view was overtaken by new information. We once believed that Pluto was 
a planet and generations learned of it in that context. Yet, with the 
expansion of knowledge and sophistication of techniques, we learned 
that we were wrong and now Pluto is no longer a planet. Eugenics was 
once supported by the best minds in the Nation before persistence 
discredited it. Lysenkoism severely damaged Russian agriculture and did 
great damage to the fields of biology and genetics before it was 
rejected.
    Expressions of doubt--skepticism--about aspects of climate science 
and projections of future impacts are claimed by some to hinder sound 
policy. Significant uncertainty is not an obstacle to action. It is a 
signal for caution and flexibility.

Politics and Science: A Permanently Politicized Relationship?

    Politics and science are intrinsically related. As scientific and 
technical matters have become more influential on matters of public 
policy and the financing of the scientific enterprise become dependent 
on the Federal Government, there are strong pressures exerted on 
science and scientists. All the participants in policy-making--
politicians, bureaucracies, public policy institutes, industry, the 
media, and scientists--have their own preferences, interests, and 
objectives. These decidedly different views and preferences color the 
interpretation of often tentative scientific results and the 
conclusions drawn about the science may be more a reflection of the 
preferences of the viewer than the science.
    Some politicians are inclined to focus on scientific results that 
support their policy preferences. Similarly, some scientists tailor 
their research and slant interpretations as a way to curry favor, gain 
funding, and enhance recognition of their work. Most do not engage in 
such behaviors and instead act honestly and with integrity.
    Scientists, politicians, and public policy institutes regularly use 
the media to frame public policy issues in ways that are favorable to 
their preferred positions. While some see this as informing the public, 
it can be nothing more than clear manipulation. This tactic is 
effective because of what the late historian Daniel Boorstin saw as a 
growing gap between what an informed citizen can know and should 
know.\7\ Information overload and the trend toward ``sound bites'' have 
produced circumstances where citizens have lost their capacity for 
skepticism. Reality often is now measured against created images 
instead of the reverse.
---------------------------------------------------------------------------
    \7\ Daniel Boorstin, The Image: A Guide to Pseudo-Events in America 
(New York: Harper & Row, 1964).
---------------------------------------------------------------------------
    The media is also criticized for including the views of the so-
called skeptics in their reporting. The media's role, of course, is to 
provide information to the public. Reporters should not be criticized 
for including diverse views in their work.
    In today's highly charged environment of climate change policy, it 
is claimed that the political interference with climate scientists is 
unique. It is alleged that federal scientists are not free to speak 
their minds and are subject to oversight by political appointees. The 
situation is neither unique nor exclusive to one political party. Our 
book, Politicizing Science: The Alchemy of Policy-Making, documents 
numerous past examples of where science and politics intersected with 
damaging impacts on science and negative public policy outcomes.\8\ 
Further, those who believe the current situation is unique should make 
themselves familiar with the story of Dr. Will Happer. As told by 
Happer in Politicizing Science and widely reported at the time of its 
occurrence, in the early months of the Clinton-Gore Administration, Dr. 
Happer, then head of the Department of Energy's Office of Science, 
questioned the Vice President's views on climate change and ozone 
depletion. Despite his scientific credentials, he was summarily 
dismissed at Gore's direction.\9\
---------------------------------------------------------------------------
    \8\ Michael Gough, ed., Politicizing Science: The Alchemy of 
Policy-Making (Palo Alto, CA: Hoover Institute Press, 2003).
    \9\ William Happer, ``Harmful Politicization of Science'' in Gough, 
Politicizing Science, 45-56; Holman Jenkins, ``Al Gore Leads a Purge,'' 
Wall Street Journal, May 25, 1993.
---------------------------------------------------------------------------
    Further, efforts are often made to impugn the credibility of those 
engaged in the debate through assertions that their views are a product 
of financial relationships rather than sincerely held beliefs or 
objective research. All too frequently evidence of a financial tie is 
sufficient to condemn, without proof that the tie altered the views, 
opinions, or conclusions in any way. The public discourse suffers as 
arguments are not explored in sufficient detail.
    Often overlooked or ignored in such discussions is the fact that 
the American scientific enterprise is critically dependent on funding 
from the Federal Government. Without public funds, the burgeoning 
enterprise of universities and researchers would contract dramatically. 
While few would dispute the value of the contributions made by the 
government-supported scientific enterprise, some facets of government 
financing of science are troublesome.\10\ Public funding can generate 
unwelcome pressures on scientists to conform to prevailing beliefs. 
Public funding is also said to breed alarmism and facilitate distortion 
in public discourse.\11\ Studies of organizations and bureaucracies 
demonstrate that, over time, institutions devise strategies to 
perpetuate their continued existence and encourage their expansion. 
Organizations have agendas and preferences and these guide the actions 
they take and, in the case of a grant making organization, the 
relationships they enter into. Bureaucratic organizations charged with 
distributing public resources exert power and influence over their 
environment as they have considerable autonomy within the policy-making 
process, are supported by strong clientele groups, and are very 
internally cohesive.\12\ As bureaucratic institutions mature, they 
develop structures, processes, and procedures designed to preserve the 
integrity of the organization, socialize its workforce to support the 
mores of the institution, and build alliances and relationships with 
external interests and political overseers to assist its growth and 
expansion.\13\
---------------------------------------------------------------------------
    \10\ For example, see Linda Cohen and Roger Noll, The Technology 
Pork Barrel (Washington, D.C.: Brookings Institute, 1991); Daniel 
Greenberg, Science, Money, and Politics (Chicago: University of Chicago 
Press, 2001); and James Savage, Funding Science in America (Cambridge, 
U.K.: Cambridge University Press, 1999).
    \11\ Gough, Politicizing Science, 2-5; Steven Milloy and Michael 
Gough, Silencing Science (Washington, D.C.: CATO Institute Press, 
1998); Marc Morano, ``Meteorologist Likens Fear of Global Warming to 
`Religious Belief.' '' CNSNews.com, December 2, 2004.
    \12\ See, for example, Kenneth Meier, Politics and Bureaucracy: 
Policy-making in the Fourth Branch of Government (Wadsworth: Belmont, 
CA: Wadsworth, 1987), 101-110.
    \13\ Meier, Politics, 57-77.
---------------------------------------------------------------------------
    The U.S. Government is the main source of funding for academic 
research and development at colleges and universities. With the growing 
number of federal research supporting departments and agencies and the 
emergence of new federal missions such as the environmental sciences, 
the academic research enterprise has grown substantially. While the 
growth in federal support for R&D brings new opportunities, it also has 
resulted in near complete dependence of individual researchers and 
university programs on publicly-financed R&D.\14\
---------------------------------------------------------------------------
    \14\ Ibid., 102-103.
---------------------------------------------------------------------------
    Yet, the focus remains on the alleged distorting influence of 
corporate funding on scientific results. One of the most prominent and 
frequently voiced fears is that private interests can undermine 
objectivity, inject bias and error, lead to the suppression of results, 
and perhaps even precipitate outright fraud. That claim rests on the 
assumption that private interests demand results that are solely 
consistent with their views and interests. It also rests on the 
assumption that integrity and objectivity are always for sale. 
Unfortunately, the claim is frequently repeated without the benefit of 
rigorous evaluation or evidence to support it.
    When the research process is transparent and results are open for 
review, it is difficult for bias, fraud, and suppression to long 
prevail. And, there can be serious legal and financial consequences 
from such behavior. Those potential consequences provide strong 
incentives to avoid it.
    The George C. Marshall Institute takes its mission seriously and, 
consistent with its principles, works diligently to publish reports 
that highlight honest assessments of the science. We support a 
scientific community that can do its work, generate data, test 
hypotheses, and educate free of politicization. This campaign to shut 
off funding of organizations that do not accept the global warming 
orthodoxy demonstrates that others do not.
    We also want to be perfectly clear--no grant to the Institute is 
contingent on support for a specific point of view or conclusion. Our 
views on climate change long pre-date any support from any corporate 
entity. Grants to support the Institute's programs are made without 
conditions. Like many public policy institutes, the Marshall Institute 
receives support from foundations, individuals, and corporations.
    Nevertheless, the Marshall Institute is cited as an example of an 
institution propagating misinformation and confusion at the behest of 
corporate support. For example, the Union of Concerned Scientists (UCS) 
report, Smoke, Mirrors, and Hot Air, released in January 2007, and its 
accompanying press release singles out the Marshall Institute for close 
scrutiny.\15\ Specific to its references to the Marshall Institute, the 
UCS makes basic factual errors and fails to deny the substance of our 
work:
---------------------------------------------------------------------------
    \15\ Union of Concerned Scientists, Smoke, Mirrors, and Hot Air: 
How ExxonMobil Uses Big Tobacco's Tactics to Manufacture Uncertainty on 
Climate Science, (January 3, 2007), http://www.ucsusa.org/news/
press<INF>-</INF>release/ExxonMobil-GlobalWarming-tobacco.html.

        <bullet>  Sallie Baliunas is not a Marshall Institute board 
        member or the Institute's Senior Scientist, as is stated on 
        page 15. She stepped down from both those positions more than a 
        year ago. Nor is she Chair of the Science Advisory Board as is 
        claimed in Table 2 on page 34. The Science Advisory Board has 
        not existed since 2001. The report references a six-year old 
        archived website to obtain basic information about the 
---------------------------------------------------------------------------
        Institute's organizational structure (see footnote 204).

        <bullet>  Willie Soon is not a Marshall Institute Senior 
        Scientist as is claimed in Table 2 on page 35. Again by relying 
        on a version of the Institute's website archived by a third 
        party, the UCS reports out-dated and inaccurate information 
        (see footnote 261). Dr. Soon stepped down from his position as 
        Senior Scientist several years ago.

        <bullet>  The Marshall Institute did not provide a grant to the 
        Tech Central Science Foundation in 2004 as is asserted on page 
        32. We received a grant for $12,602 from them and that grant 
        supported a project focused on risk assessment in the 
        regulation of chemicals, not climate change.

        <bullet>  Neither of the pieces by Baliunas cited in footnote 
        78 merit the weak criticism delivered by the UCS. Most 
        significantly, both pieces were written before the Institute 
        received any corporate support. The Marshall Institute did not 
        begin accepting corporate contributions until 1999, while both 
        pieces were published in 1995 & 1996.\16\ Second, both pieces 
        are intended to review aspects of the scientific debates of the 
        time for the general public. They examine a series of claims 
        about climate, including solar influences, the Arctic, severe 
        weather, and much more.
---------------------------------------------------------------------------
    \16\ See a statement by a past Institute Executive Director 
discussing the topic at http://www.marshall.org/article.php?id=17, 
which is a reprint of an op-ed appearing in the Wall Street Journal on 
July 2, 1997.

        <bullet>  A National Academy of Sciences panel endorsed the 
        core premise of the Baliunas-Soon analysis in its examination 
        of the past temperature record (critiqued on page 15). The NAS 
        panel concluded that Earth's temperatures were relatively 
        warmer during the Medieval Warm Period (approx. 1000 A.D.), 
        then cooler during the Little Ice Age (approx. 1700 A.D.), and 
        have increased since then. Sparse data coverage for the period 
        before 1600 A.D. prevented the NAS from reaching definitive 
        conclusions about temperature trends before that date; however 
        some reconstructions before 1000 A.D. show surface temperatures 
---------------------------------------------------------------------------
        comparable in warmth to the early 20th century.

           The NAS also expressed ``less confidence'' in the original 
        conclusions of the Mann et al. ``hockey stick'' used by the 
        IPCC because ``the uncertainties inherent in temperature 
        reconstructions for individual years and decades are larger 
        than those for longer time periods, and because not all of the 
        available proxies record temperature information on such short 
        timescales.'' \17\
---------------------------------------------------------------------------
    \17\ Committee on Surface Temperature Reconstructions for the Last 
2,000 Years, National Research Council, Surface Temperature 
Reconstructions for the Last 2,000 Years (Washington, D.C.: National 
Research Council, 2006), 3 http://www.nap.edu/catalog/11676.html.

           An independent review of the statistical methods used in 
        constructing the ``hockey stick'' revealed additional 
        shortcomings. The review led by Professor Edward Wegman of 
        George Mason University concluded that the ``assessment that 
        the decade of the 1990s was likely the hottest decade of the 
        millennium and that 1998 was likely the hottest year of the 
        millennium cannot be supported by their analysis.'' \18\
---------------------------------------------------------------------------
    \18\ Edward Wegman et al., Ad Hoc Committee Report on the `Hockey 
Stick' Global Climate Reconstruction (Washington, D.C. 2006), 4-5 
http://republicans.energycommerce.house.gov/108/home/
07142006<INF>-</INF>Wegman<INF>-</INF>Report.pdf

        <bullet>  John Christy and Steven McIntyre are not 
        ``affiliated'' with the Marshall Institute as is suggested on 
        pages 23-24. They have participated in our public events as 
        invited guests and Dr. Christy wrote a chapter for our book, 
        Shattered Consensus, but neither is formally affiliated with 
---------------------------------------------------------------------------
        the Institute.

        <bullet>  The Institute's book, Shattered Consensus, is cited 
        as an example of ``information laundering'' (pg. 12) yet the 
        UCS provides no refutation of the contents of the 10 chapters 
        in this well-reviewed book. Should the rights of these authors 
        to publish a book be left to the UCS to decide? The authors of 
        Shattered Consensus are experienced scholars with recognition 
        and credits meriting attention to their views. They each have 
        significant qualifications in their fields. For example, the 
        book's editor, Patrick Michaels, was a co-author of the climate 
        science paper of the year for 2004 recognized by the 
        Association of American Geographers.

        <bullet>  There is no evidence to suggest that the work 
        undertaken by Dr. Seitz, one of America's most noted scientists 
        and the Institute's emeritus chair, adhered to anything but the 
        highest standards (see page 16); a fact which even the UCS 
        acknowledges. Dr. Frederick Seitz is a distinguished and 
        acclaimed scientist. He is president emeritus of Rockefeller 
        University, a premier biomedical research institution. He is a 
        recipient of the National Medal of Science, the Nation's 
        highest award in science, for his contributions ``to the 
        foundation of the modern quantum theory of the solid state of 
        matter.'' He is also a recipient of the fourth Vannevar Bush 
        Award presented by the National Science Board. His work, The 
        Modern Theory of Solids, was the base from which generations of 
        students learned about solid state physics and served to define 
        the field. Elected to the National Academy of Sciences, he also 
        served as its President. His contributions to science and this 
        country are beyond question.

           Dr. Seitz is free to express his views and opinions on 
        climate change as he sees fit. The UCS singles out his 
        involvement with a research program funded by R.J. Reynolds in 
        an attempt to prove that he was a pawn in tobacco's scientific 
        disinformation campaign. Yet, the research overseen by Dr. 
        Seitz is not criticized in any way. In fact, the research was 
        of the highest quality, with one of the scientists supported 
        later earning a Nobel Prize.

    Nevertheless, if we accept that the source of funding invariably 
affects findings and opinions, then what should we make of the 
significantly greater amount of money spent by environmental advocacy 
groups that promote the notion of an impending climate catastrophe? 
Governments, private foundations, and non-profit institutions worldwide 
spend orders of magnitude more to support the view that apocalyptic 
climate change is near. According to data for the period 2000-2002, 
private foundations conservatively spend $35-50 million each year on 
climate-related projects. This support was significant for many of the 
receiving institutions, which are principally public policy institutes 
and advocacy organizations. Climate change-related projects accounted 
for over 25 percent of the three-year total reported grants and 
contributions received by 10 of the top 20 institutions.\19\ At the 
same, the Federal Government provides $2-4 billion per year for climate 
change research and related environmental sciences. Those funds are 
significant to the researchers and the research institutions that 
receive it. In 28 of the top 30 performing universities, federal 
financing accounted for more than 50 percent of the institution's 
expenditures on atmospheric R&D.\20\ Nearly one-half of the top-30 
institutions depended on federal support for more than 80 percent of 
their resources in this five-year period (1998-2002). By comparison, 
the Federal Government provided 59 percent of total R&D funding at 
academic institutions in 2001.\21\
---------------------------------------------------------------------------
    \19\ Jeff Kueter, Funding Flows for Climate Change Research and 
Related Activities (Washington, D.C.: George Marshall Institute, 2005), 
4.
    \20\ Ibid., 10.
    \21\ National Science Board, Science and Engineering Indicators-
2004 (Washington, D.C.: National Science Foundation, 2004), Chap.5, p. 
5.
---------------------------------------------------------------------------
    We would never call for organizations to stop their funding, even 
though they make statements that clearly are exaggerations and have no 
scientific basis. Public policy institutes and think tanks play an 
important role in American policy-making. They are free to disagree 
with us just as we are free to make our views known.
    Instead of addressing the substance of the debate over the science 
and its meaning for public policy, public discussion has regressed to 
inferring motives and attacking sources of support in an effort to 
silence voices of dissent. Unfounded allegations and unjustified 
attacks are a poor substitute for open and candid debate.
    It is more than ironic, that most of the so called skeptics focus 
their criticisms on the substance of research and analyses while many 
who claim that climate science is settled and that we face a climate 
catastrophe are resorting to character assassination. Our nation 
rejected McCarthyism 50 years ago and we should not allow its rebirth 
in another form.
    More important than the source of funding is the substance of what 
an organization produces. What counts is whether the findings stand up 
to critical examination. Are they reproducible? Can they be verified or 
falsified?
    Ted Koppel best summarized the situation in 1994 when he criticized 
a similar effort by then Vice President Gore. His admonition applies as 
well today as it did then:

         ``There is some irony in the fact that Vice President Gore, 
        one of the most scientifically literate men to sit in the White 
        House in this century, that he is resorting to political means 
        to achieve what should ultimately be resolved on a purely 
        scientific basis. . . The issues of global warming and ozone 
        depletion are undeniably important. The future of mankind may 
        depend on how this generation deals with them. But the issues 
        have to be debated and settled on scientific grounds, not 
        politics. There is nothing new about major institutions seeking 
        to influence science to their own ends. The church did it, 
        ruling families have done it, the communists did it, and so 
        have others, in the name of anti-communism. But it has always 
        been a corrupting influence, and it always will be. The measure 
        of good science is neither the politics of the scientist nor 
        the people with whom the scientist associates. It is the 
        immersion of hypotheses into the acid of truth. That's the hard 
        way to do it, but it's the only way that works.'' \22\
---------------------------------------------------------------------------
    \22\ Ted Koppel, ``Is Environmental Science for Sale?'' ABC News 
Nightline Transcript, February 24, 1994.
---------------------------------------------------------------------------

Improving the Value of Science

    Preserving the integrity of science in the public policy process is 
an important goal. But it would be unrealistic to think that 
politicization is avoidable. The science on public policy issues is 
rarely, if ever, definitive. There will always be uncertainties that 
need to be addressed and matters that require judgment in translating 
science into policy options and analyzing them and their implications. 
Given the inherent uncertainties in policy planning and the value 
judgments that are inherent in the policy process, there is no way to 
avoid ``politicizing'' science. Policy-making by its nature is 
political and always will be. What can be done are improvements in 
policy planning and analysis that improve the quality and value of 
science used by policy-makers?

        <bullet>  Promote transparency. Models, data and assumptions 
        used in formulating policies should be available for interested 
        parties to review and critique. This would improve the 
        understanding of the validity of the models and how various 
        assumptions affect outcomes.

        <bullet>  Peer review is an important step if done properly. A 
        third party should choose reviewers and their comments should 
        be published but not necessarily their names. Beyond standard 
        peer review, someone or some organization should be able to 
        replicate the analysis, especially analyses that can have 
        significant economic and regulatory impacts.

        <bullet>  Discontinue consensus documents. The push for 
        consensus on important science policy issues can mask important 
        differences among scientists. Policy-makers are better served 
        knowing where there is widespread agreement and where there are 
        important disagreements. The ability to publish dissenting 
        views in policy documents and NAS reports should be encouraged.

        <bullet>  Establish a ``devil's advocate'' process. For major 
        issues like climate change and reports like the IPCC Summary 
        for Policy-Makers, some small group should be charged with 
        challenging conventional wisdom that when repeated often enough 
        is treated as fact. If this were being done routinely on 
        climate change matters, it would not be possible to assert that 
        the science is settled, that humans are primarily responsible 
        for the warming in recent decades or that models are reliable 
        for projecting or predicting climate 100 years from now.

        <bullet>  Distinguish between science and analysis. Much of the 
        recent criticism is about the inferences drawn from science and 
        analysis of options drawn from science. Policy and risk 
        assessments are not science and it is inappropriate to use 
        disagreement about policy to claim that the integrity of 
        science is being violated.

    Thank you for the opportunity to appear here today and to present 
these views for your consideration.

                       Biography for Jeff Kueter
President, George C. Marshall Institute

    Mr. Jeff Kueter works with scientists to help improve the 
understanding and awareness of complex scientific topics to the public, 
the media, and policy-makers. Focused on national security and the 
environmental topics, Mr. Kueter manages the day-to-day operations of 
the George C. Marshall Institute, authoring its policy papers and 
analyses and engaging the public and the policy-making community. He 
received his B.A. in Political Science and Economics at the University 
of Iowa, where he graduated with honors, and an M.A. in Political 
Science and another M.A. in Security Policy Studies and Science & 
Technology Studies, both from George Washington University. He 
previously served as Research Director at the National Coalition for 
Advanced Manufacturing (NACFAM).

                               Discussion

                   Climate Change: Industry Reaction

    Chairman Miller. Thank you, Mr. Kueter. There should be 
ample time for all the Members of the Committee to ask more 
than one round of questions, and I will begin by recognizing 
myself for five minutes.
    Mr. Rampton, you described in your testimony of the 
prototypical corporate campaign to create doubt, and then you 
heard Dr. McCarthy, I think, talk specifically about the 
campaign with respect to climate change, global warming. How 
well does what Dr. McCarthy described fit the model that you 
described?
    Mr. Rampton. I think it is a very clear example of exactly 
what I have been describing. And it is only one of a number of 
campaigns that have been carried out over the past two decades 
by the various industries. I mean, there was specific talk of 
ExxonMobil, but that is only one company. The oil and gas 
industries in general, the coal industry have funded numerous 
campaigns. One of the first campaigns of this type began in the 
early 1990s funded by groups like the National Coal 
Association, the Western Fuels Association, and it was called 
the Information Council for the Environment, and its goal was 
to, in their words, reposition global warming as a theory, not 
fact.
    A number of the scientists that were recruited for that 
campaign, the so-called ICE Campaign, have later gone on to do 
exactly the same work and make the exact same statements over 
the subsequent two decades. So you see the same figures 
recurring, making the same statements, expressing the same 
skepticism about global warming.
    And the effect is to amplify the views of a relatively 
small number of scientists and make it seem like that is, like 
there is a huge scientific debate going on when, in fact, there 
is not.

                  Climate Change: Scientific Reaction

    Chairman Miller. And Dr. McCarthy, Mr. Rampton in his 
testimony talked about, described the difference between how 
scientists view truth and how public relations view truth. 
Scientists think truth simply exists, and it is for scientists 
to discover and understand, and public relation folks are more 
inclined to think that truth is a little more malleable than 
that and may be created or at least shaped.
    I think we all agree that there is some harm in viewing 
truth that way, but could you describe for us what that harm 
is?
    Dr. McCarthy. Well, first, I think the truth that 
scientists would revert to is also evolving. It is not a 
certainty. In fact, if anyone alleges that we know any of the 
sort of the details that have been referred to here regarding 
climate change with absolute certainty, one has to be very 
suspect of that view.
    I think what we have seen, though, is that the 
representation of a contrary view and particularly that that 
has been supported by industry as we have seen individuals as 
is documented in our report, move from the campaign of the 
tobacco industry directly into the oil and climate change 
industry, have represented as facts information that is not 
supported in the scientific literature. These are often based 
on reports that have not been published, are not in the 
previewed literature, and in some cases have been published but 
discredited by numerous additional publications and yet are 
still put forward as supporting arguments for a position that 
is no longer tenable.
    Chairman Miller. Thank you, Dr. McCarthy. A joke, and I 
guess this is fairly an acquired taste sort of humor, on 
universities is that administrators hate having scientists on 
faculty panels because you never know where they stand. When 
you change the information, they change their positions. Is 
that how you see scientists proceeding and should be 
proceeding?
    Dr. McCarthy. If one were to go back to maybe 15, 20 years 
ago in the climate change discussion, it was very difficult to 
find clear consensus as to whether the Earth was warming in an 
unusual way or not in the 1980s. And then when that was 
established in the early 1990s, it was, in fact, difficult to 
find a clear statement that would come out of any of these 
analyses that this was likely due to human effects.
    As we move beyond the mid '90s, we find that that evidence 
is stronger and stronger. So it is an evolving understanding of 
science, and if anyone could prove this major premise wrong, A, 
that the Earth is warming, B, that is largely warming as a 
result of greenhouse gasses being added to the atmosphere, C, 
that human activities are largely responsible for that, you 
know, you would have Nobel prizes all over the place. This is a 
really well-established body of information now.

                  Climate Change: Government Reaction

    Chairman Miller. So that Mr. Rampton may feel better about 
exceeding his time, I will indulge myself by going a little 
over the five minutes.
    Mr. Maassarani, your report is an assessment of efforts to 
filter the message of federal climate scientists, and you have 
heard Mr. Rampton describe the model of how to view the public 
relations media campaign technique with respect to scientific 
questions. How well does the model he described fit what you 
found in your report?
    Mr. Maassarani. I would simply say that where Mr. Sheldon 
Rampton describes the construction of one end of the scientific 
debate, the one aspect of the truth that happens to fit the 
incentives of industry or whoever is involved, what we have on 
the government side here is the deconstruction of the 
scientific debate coming from mainstream science. So what you 
are doing is you are offering forth scientific views from the 
minority, and then you are suppressing those of the majority.
    Chairman Miller. Mr. Rohrabacher.

                  Funding for Climate Change Skeptics

    Mr. Rohrabacher. Thank you, Mr. Chairman. I want to warn 
you a little bit about telling a joke at a hearing. I attempted 
to make light of an argument at the last hearing dealing with 
global climate change, mentioning in jest that perhaps dinosaur 
farts caused global warming back in the old times, and guess 
what? I was actually making light of the argument that anyone 
could claim that flatulence would change our climate, and it 
was reported widely across the country on numerous, in numerous 
periodicals that that was a very serious statement. That was my 
position. That shows you how dishonest this debate has gotten 
over global warming. Anyone who was at that hearing understood 
very well I was making light of that whole argument on the 
other side, yet I was being presented, it was being presented 
as that was my opinion.
    I think that that is what we are presented time and time 
again when we hear about the consensus that we have human-
caused global warming. Let me note when William Happer, who is 
now at Princeton University and a member of the National 
Academy of Sciences, was fired from his job as chief scientist 
from the Department of Energy as Mr. Kueter just mentioned. I 
didn't see any of these scientists stepping forward and saying, 
``My God, Al Gore is trying to skew the scientific research 
that is going on in global warming.'' We didn't hear anything. 
This was a blatant example. Not like the examples that you gave 
where someone's press release was edited so that his views 
would be presented as his own views instead of the views of the 
department in which he worked. No. This was firing a man who 
now is with the National Academy of Sciences and a Professor at 
Princeton University or is it Princeton University did he come 
from? Yes.
    Let me note here again I have a few statements here from 
the Director of Research, Royal Dutch Meteorological Institute, 
Professor of Aeronautical Engineering, Penn State, ``I protest 
against the overwhelming pressure to adhere to the climate 
change dogma.'' Here is Richard Lindzen, Atmospheric Physicist, 
Professor of Meteorology at MIT, and if I can find my reading 
glasses I will be able to do this a lot better, but I will 
attempt to read it here.
    Thank you very much. I was talking about the gentleman who, 
from the Royal Dutch Meteorological Association say that he was 
dismissed as Research Director from that meteorological 
association after questioning the scientific under pane of 
global warming, as well as respected Italian professors and 
they name them here, Alfonso Sutera and Antonio Speranza. They 
all disappeared from the debate in 1991, apparently losing 
climate research funding for raising questions. Now, why did 
they lose their funding? They lost their funding because at the 
Department of Energy, William Happer, had been eliminated by Al 
Gore because he was skeptical of the global warming theory.
    Here is a few more for you just to let everybody know about 
the consensus that we are talking about. Timothy Ball, Chairman 
of the Natural Resources Stewardship Project and former 
Professor of Climatology at the University of Winnipeg, 
``Believe it or not, global warming is not due to human 
contributions of carbon dioxide. In fact, it is one of the 
greatest deceptions in the history of scientists, of science, 
and we are wasting time, energy, and trillions of dollars.''
    Then, of course, you have got this gentlemen who, Dr. 
William Gray, one of the most distinguished meteorologists in 
the history of this country, Professor of atmospheric science, 
the University of Colorado, who stated I had, and this is, he 
had said he had been cut off of all of his research grants once 
the Clinton Administration came in because of skepticism of 
global warming. ``I had NOAA money for some 30 years, and then 
when Clinton, the Clinton Administration came in and Gore 
started directing some of the environmental stuff, I was cut 
off. I couldn't get any NOAA money. They turned me down 13, for 
13 straight proposals.''
    Now, these are ample evidence of the type of suppression of 
the other argument that is going on in order for you gentlemen 
and other people to claim there is a consensus. There are 
hundreds of such scientists who are very respected, who have 
been cut off, and why aren't they getting Nobel prizes? Because 
they have been cut off for their research by anybody who even 
suggests the skepticism of global warming. Yet we hear a 
complaint now about people's press releases being edited.
    Let me note here that, just about global warming itself. 
Yeah. Nobody suggests that there isn't some warming going on in 
the planet. Nobody suggests that. There is some kind of warming 
going on in the climate. They used to call it climate change. I 
mean, they used to call it global warming. Now they call it 
climate change in order to cover themselves, but there has been 
a change, and that is because, and over--I saw the charts for 
the people that came back here and talked to us, over 150 years 
there has been a one degree change in the temperature, one 
degree. And I noted at that hearing, this is the one where they 
tried to claim the only quote they used from me was a dinosaur 
flatulent quote, I noted that they had started that one degree 
change in temperature at the very bottom of a 500-year decrease 
in the temperature of the world. It is called the mini-ice age. 
So we have had since the end, the bottom level of the mini-ice 
age we have had a one degree change in temperature. We have had 
many, many changes and cycles in the temperature of the Earth. 
Many of them. And those cycles were caused probably by the same 
reason that there is now another cycle going on. It is called 
solar activity.
    Now, no doubt there is, there has been these cycles, and we 
are in one right now, and solar activity, I believe there are 
many scientists who believe that that could be just as 
important, if not more important, than anything human beings 
are doing.
    And I will leave it with this, and that is if it wasn't 
solar activity, if it was really humankind doing this, why is 
the temperature going up on Mars? NASA just released a study 
suggesting that the polar ice caps are melting on Mars. Is that 
because of all the humanlike activity going on on Mars? I don't 
think so.
    So I think this debate, Mr. Chairman, it is an important 
debate, and but we do not need to dismiss someone's arguments, 
just saying we have a consensus, so instead, what we are going 
to do is not even listen to a scientist who is suggesting that 
there is an argument against the positions and the ``facts'' 
that are being presented to us that justify an analysis that 
comes up that global warming is caused by human beings. And 
again, listen, I consider myself open minded in this. I have an 
opinion, a strong opinion, but I am never going to tell 
someone, I am not going to listen to your argument because I 
have a consensus of people I have talked to, and I am not even 
going to actually confront your arguments.
    That is what we have here today, Mr. Chairman. We have a 
dismissal of other people's arguments. We have blaming Exxon 
for it, and I am very happy to see our young people here 
wearing their Exxon shirts, and they are participating in the 
system, and I applaud you for that. And there are certainly big 
corporations that do manipulate people and try to for their own 
purposes. There are other interest groups that manipulate 
people as well. A lot of interest groups in this country that 
manipulate people as well
    With that said, I thank you for the hearing because I think 
this is good for the debate.
    Chairman Miller. Well, Mr. Rohrabacher, you have a second 
round of questions and perhaps something you say in the second 
round might end in a question mark. And Mr. Rohrabacher, I will 
not promise you that I will avoid any and all jokes in the 
conduct of these hearings, but I will avoid jokes about 
flatulence.
    Mr. Baird.

                     Scientists as Policy Advisors

    Mr. Baird. I thank the Chair. I want to begin by thanking 
the panelists, and I think this is really not just about 
climate change. I believe the evidence on climate change is 
quite compelling. I think the international report suggests 
that it is. What this hearing is really about is the distortion 
of science, and my belief, and I think the evidence is 
compelling, that this Administration has put unprecedented and 
undue stress, or really censorship, on researchers throughout 
federal agencies. And I applaud the individuals for raising 
this. I think that is repugnant and contraindicated in terms of 
our trying to understand issues.
    So I share the broad concern about the distortion of 
scientific policy, one manifestation of which may be the global 
warming debate, but there are many, many others, including 
reproductive health, how federal advisory committees are 
structured, how is on them, how is off, et cetera, and this 
committee should look into that.
    Having said that, I also want to say that I think, Mr. 
Rampton, your points about the power given to scientists cut 
both ways. I am familiar with cases where a number of 
scientists have signed onto letters saying they hold a 
position, you know, so the PR campaign is X number of 
``distinguished scientists'' have signed a letter about, fill 
in the blank. And at least some of those cases I am quite 
confident that the ``distinguished scientists'' have not ever 
read the particular study they are signing onto, but they are 
lending their weight to it. And this happens on both the left 
and the right, and again, as I stated at the outset, I think it 
is wrong if it happens on either side, because I think 
scientists on all sides needs to hold themselves to a higher 
standard.
    So one of my questions would be are there standards within 
the scientific community about what one must do before one 
signs onto some such letter? In other words, read the studies 
yourself, look at the data from the particular studies, et 
cetera, or can one just sign on and say I hold a doctorate or a 
Master's degree in some form of science. Therefore, I am 
qualified to comment on a particular issue. And I will just put 
this out to the panelists.
    Mr. Rampton. I think the short answer to the question of 
whether there those standards would be no. I mean, in fact, 
there are people who claim, speak on matters of science who 
have, you know, law degrees or there is a fellow named Stephen 
Malloy, who has a Master's degree in biostatistics and is very 
prominent and outspoken about the problem of what he calls junk 
science, formerly funded by the tobacco industry. In fact, 
very, until recently, and he doesn't disclose his current 
funding information. So in terms of credentials, as a scientist 
he has really none, and yet he is often cited as an authority 
on matters of what is and is not good science.
    Mr. Baird. Mr. Rampton, would you say, would you suggest, 
are you equally concerned if people signing onto letters on 
either side of an issue or not, versed in the issue that they 
are signing onto?
    Mr. Rampton. Well, I think a scientist is a citizen like 
anyone else and has the right to express his or her opinion. I 
think that when scientists lend the credibility of their 
expertise to something, they ought to be speaking on the matter 
where, in fact, they are experts, where they actually have 
degrees in that particular field. And you do have a common 
problem that I think scientists tend to assume that because 
they have rigorous training in some field, that their intellect 
is sufficient to enable them to weigh in on all sorts of other 
areas where they are not qualified. And you have any number of 
cases where scientists have made outright fools of themselves 
by weighing in on areas where they are not, in fact, expert.
    So I think that when a scientist speaks outside his or her 
field of expertise, their voice should be treated as simply the 
voice of another citizen. Does that answer your question?
    Mr. Baird. Yes. To some degree. I will follow up, and Dr. 
McCarthy, first of all, as a person who first became a member 
myself of AAAS some 30 years or so ago now, I suppose, I 
congratulate you on your election. I have great respect for the 
institution.
    I also have some concerns about cases I am intimately 
familiar with where Science Magazine rushed publications into 
press in order to influence public policy, and I think without 
due peer review. Now, I am not saying you did it because you 
were pressured by some outside group, et cetera, but I do think 
in this particular case it was an unfortunate act and did not 
reflect the highest standards of either the Association or the 
journal of Science itself.
    And I guess I would just ask your comments about that. If 
there is a matter of public policy of some significant import, 
should that lead a journal to rush something into press without 
adequate peer review, or would one not want to say precisely 
because a matter of policy is being influenced we should 
exercise particular attention to make sure that the peer review 
is thorough and we get the data right?
    Dr. McCarthy. Well, there is only one obvious answer to 
that, of course. An organization like the AAAS should always be 
concerned about its reputation. I am not familiar with the 
incident that you have alluded to, but it sounds as if that is 
one in which you thought their reputation was not well served, 
and based on your representation I have to agree.
    But let me give another example. Three years ago now the 
Union of Concerned Scientists, first becoming aware of some of 
the abuses of our federal agencies with regard to science, 
issued a report on restoring the integrity of scientific 
integrity. And that is, again, something that the Union worked 
a great deal to make sure was a very crisp document, and the 
initial 60 people to sign that were not just random people. To 
see whether this really was a strong statement, to see whether 
it resonated, individuals who were winners of the national 
medal of science, former advisors of Presidents of the United 
States of America, all the way back to President Eisenhower, 
were asked to look at this statement. Heads of major research 
institutions and to the best of my knowledge no one who looked 
at it said, I won't sign it because it is wrong or because I 
think you have misrepresented this. Some people said I can't 
sign it because it would put my institution at stake. I am that 
concerned. But here is an example of where there was a very 
careful effort made to insure that this was set at the highest 
level, of people who could say, you know what? This happens all 
the time. Let me tell you about what happened in 1979, let me 
tell you about 1963. And we didn't get that. So then when you 
go through that process, you can be confident that the 
integrity of the institution, the reputation of the institution 
is not going to be harmed by this.
    But the case you mentioned I would certainly agree. Any 
effort to rush something without the process that is the 
tradition of that scientific body would be reckless and 
irresponsible.
    Mr. Baird. I will chat with you separately about that, but 
I also commend you for that report. We actually held rump 
hearings, and I say rump hearings because the then Chair of the 
Committee would not allow us to have official hearings on that 
very issue that your report concerned.
    Thank you, Mr. Chairman.
    Chairman Miller. Thank you, Mr. Baird. Mr. Rothman.

                            Recommendations

    Mr. Rothman. Thank you, Mr. Chairman. Thank you, gentlemen, 
for your work and for your appearance today.
    I think I have detected a consensus, which is that everyone 
agrees there have been abuses of scientists in the employ of 
the Federal Government by members of the Federal Government. Is 
that a fair statement of one of the things you can agree on? 
And if so, what do you each recommend as ways to prevent that 
from happening again?
    Let us start from my right. Mr. Kueter.
    Mr. Kueter. Thank you for the opportunity to comment on 
that subject, sir. In my prepared remarks I have a set of 
recommendations that the Institute has vetted to get at these 
issues that you have described.
    The first that we put forward is the promotion of 
transparency, and it goes to an issue that Mr. Baird just 
mentioned. The need to have data that is used in making federal 
decisions brought forward for critical analyses and audits is 
essential in order to understand the veracity of the claims 
that are being made. To date that is a difficult process to get 
through.
    Mr. Rothman. So what is the fix?
    Mr. Kueter. Require that the peer-reviewed studies that are 
being used to guide your decisions have their data archived and 
be open for scrutiny and analysis by independent researchers. 
It would be our recommendation that you establish a devil's 
advocate's process, similar to what the DOD uses with its red 
team process or its team B processes, where you bring in a set 
of folks that don't necessarily agree with the consensus on a 
particular issue and ask them to scrub that issue thoroughly 
and report back to the Congress or a particular committee with 
their findings. At that point then you would have probably two 
very different sets of arguments that would be put forward and 
perspectives on a particular issue. Then you would understand 
the parameters----
    Mr. Rothman. Okay.
    Mr. Kueter.--and distribution of----
    Mr. Rothman. I appreciate those recommendations, and my 
time is limited, and I will read those and recommend the staff 
read them as well.
    I am more concerned about the, that just brings more 
information in different points of view, which is great and 
very helpful, but I heard the concern being over the twisting 
of scientific opinion or the censoring of scientific opinion or 
the elimination of a point of view from the Administration. So 
how would, could we have some comments on how to avoid that, 
the censorship and the elimination of these differing points of 
view? This brings in other points of view as well. Mr. Kueter. 
Mr. Maassarani.
    Mr. Maassarani. If I may. Thank you. We have an extensive 
list in the report itself. I will go over a couple that I think 
are particularly important.
    One is to implement clear and transparent media policies at 
the agencies where, these can require prior notification and a 
summary of any media interactions that have occurred but that 
eliminate the need for required, mandatory, pre-approval, 
monitoring, routing of media requests from one scientist to 
another, as well as drafting of anticipated questions and 
answers by the scientists prior to the interviews. That would 
be one step.
    I will mention one more real quick, and that is to reaffirm 
and to put into the policies at these agencies the personal 
views exception. Basically, we feel that insofar as agencies 
have the right to control the kind of message that is going to 
be projected on their behalf, especially on policy matters, 
that doesn't mean that it forecloses a scientist's 
constitutional right to speak. In those instances scientists 
need to know that they can speak out----
    Mr. Rothman. Right.
    Mr. Maassarani.--on policy matters.
    Mr. Rothman. The question is from a federal office building 
with federal resources, et cetera. Those I would think are 
other issues, but for allowing that right of a citizen.
    Mr. Maassarani. Well, as long as they qualify the statement 
that they are saying this on their own, as their own private 
view.
    Mr. Rothman. And I apologize for the brevity of the time.
    Mr. Maassarani. No problem.
    Mr. Rothman. Dr. McCarthy.
    Dr. McCarthy. I am not sure you were here, Congressman 
Rothman, when I mentioned I congratulate the House on its 
passage of the whistleblower protection measure and hope that 
the Senate follows your lead. That would be one very important 
measure.
    Another, following up on the earlier remarks, would be to 
insure that when there is an interaction between a public 
relations staff and a scientist, the scientist has the 
opportunity for final say in that document. And if changes have 
been suggested which actually change the apparent meaning of 
the findings of the scientist, then the scientist should be 
able to reject them.
    Mr. Rothman. Do you think this should be as a matter of 
federal law, or do you think there should be, these procedures 
of an Administration to best practices, if you will?
    Dr. McCarthy. I leave that to you, you wise people.
    Mr. Rothman. Yeah.
    Dr. McCarthy. I would just like to make certain that in 
whatever way this can be guaranteed to federal scientists.
    Mr. Rothman. May I ask Mr. Rampton to comment, Mr. 
Chairman?
    Mr. Rampton. Well, I just mention that medical journals 
have dealt with a fairly similar problem, which is that, you 
know, a number of privately-funded medical researchers in the 
past have run into the situation where as a condition for, you 
know, funding of their research by some, for example, 
pharmaceutical company, there is a stipulation that the company 
owns the right to prior approval of publication. And some of 
the top medical journals have adopted a policy which is that 
they will not publish research in their journals unless the 
scientist who has gotten funding has been guaranteed the right 
to publish regardless of what he finds.
    And I think similar provisions by the Government with 
regard to Government funds to scientists makes sense that 
whatever scientists finds ought to be, you know, there should 
not be someone, there ought to be a firewall of protection so 
that the scientists at the moment of having something to 
publish or findings to announce is guaranteed that regardless 
of what is found that there will be freedom to publish it.
    Mr. Rothman. Mr. Chairman.

               Administration Position on Climate Change

    Chairman Miller. Thank you, Mr. Rothman. Like Mr. Rothman, 
I think I will try to make sure there is some consensus among 
the panel on some topics at least.
    It has been at least a generation since there has been any 
serious scientific question about the adverse health 
consequences of smoking. The documents that we have discovered 
from the tobacco industry in litigation show that the tobacco 
industry, in fact, knew before federal researchers did of the 
adverse health consequences because of their own research. 
Their own research showed the damaging health affects of 
smoking, but they simply paid scientists to put their name on 
documents that the industry itself had drafted.
    Do any of you disagree that that is morally blameworthy 
conduct? Does anyone wish to defend that kind of conduct? Now, 
I know there is some question about whether that is happening 
now and who is doing it, but as a general matter does anyone 
wish to defend that kind of conduct?
    There has been a puzzling disagreement going back to where 
there is not consensus within the Bush Administration. We have 
heard from Mr. Maassarani and from Dr. McCarthy that there has 
been an effort by the Bush Administration to control what 
federal scientists say about global warming. We have heard that 
Phil Cooney, who is not a scientist but worked at the Council 
for Environmental Quality, excuse me, worked at the American 
Petroleum Institute and has gone from there to work for 
ExxonMobil, edited climate change reports behind the scenes to 
make the reports much more equivocal than what the scientists 
who had written them initially, what the scientist draft 
expressed. But just a month ago Dr. William Brennan, not the 
Supreme Court Justice, but a NOAA official and acting director 
of the Climate Change Science Program testified before the 
Senate that the Bush Administration accepted and had always 
accepted the 2001, National Academy of Science report on 
climate change science, that greenhouse gasses are accumulating 
in the Earth's atmosphere, and are the result of human 
activities. He said that the Bush Administration accepted the 
latest report of the IPCC and had never held a different 
position.
    Mr. Maassarani, what are we to believe?
    Mr. Maassarani. Sorry I can't answer that. I think to some 
extent with the IPCC report having come out it is going to be 
more and more difficult to support the proposition that the 
Bush Administration held earlier, that there is no connections 
or that global warming isn't happening. So no matter how much 
you would want to resist it anyway, but I think perhaps that is 
what we are seeing here. I am not sure if what you are trying 
to get at, I am not sure it means that the Bush Administration 
is listening to its scientists more than it was before. I would 
hope so.
    Chairman Miller. Dr. McCarthy.
    Dr. McCarthy. It is a puzzle. In the spring of 2001, when 
President Bush announced that he would no longer honor his 
campaign position to regulate carbon dioxide emissions released 
to the atmosphere, it came just a couple of months after the 
third assessment report of the IPCC. At that time Mr. Bush 
asked the National Academy of Sciences to take a look at the 
IPCC report, and you have just given us the bottom line of the 
National Academy conclusion. And many of us were very hopeful 
at that time that now we would begin to see action taken. 
Again, for those who aren't aware, the U.S. delegation to the 
IPCC proceedings is formed by the State Department. It includes 
high ranking scientists from our science agencies, but it 
really is, it really does represent the views of our Department 
of State in all those deliberations.
    So the fact that beneath the radar the sort of actions that 
this report and others have managed to reveal suggest that even 
though things were being said which sounded as if the 
Administration was not challenging the science, at the level in 
which the work was being done, that, in fact, was a very 
different matter.
    Mr. Maassarani. Can I just add something to that? I just 
want to----
    Chairman Miller. Mr. Maassarani.
    Mr. Maassarani.--make clear that as far as we know the U.S. 
National Assessment still is not referenced on the websites. It 
is still, any reference or mention to it still seems to be 
suppressed as it was when it first came out. So certainly that 
hasn't happened.
    Chairman Miller. Mr. Rohrabacher, do you wish to complete 
the question you began earlier?

                        Climate Change Skeptics

    Mr. Rohrabacher. Thank you very much. Well, let me just 
note that the Government Accountability Project's report, while 
having the same sort of tone that we have heard here today and 
also included I would say the innuendos that we have heard 
today, also lacked the specific charges that we haven't heard 
here today as well. I mean, it is one thing to imply that there 
are this sort of stifling going on and when the report is said, 
and I quote, ``It found no incidence of direct interference in 
climate change research, as well as the investigation by the 
Government Accountability Project has uncovered no concrete 
evidence that political actors are directly and willfully 
interfering with this fundamental aspect of scientific work.''
    And now, we can make innuendos all we want, and we can 
ignore everything that the other side does that is very blatant 
in suppressing this argument, like the firing of the lead 
scientist at the Department of Energy. It is very easy for 
someone who is a political activist or politically oriented who 
has got some scientific credentials or sometimes doesn't have 
scientific credentials but is speaking as if he or she does, to 
sort of imply that there is some sort of suppression going on 
when obviously, as I say, examples and I gave four earlier on, 
of blatant examples of where people were losing contracts for 
their position as being skeptical of global warming, but for 
example, we have NASA, James Hanson and you are aware of this. 
Maybe perhaps one of the people you are talking about in your 
report was Mr. Hanson who complained that his press releases 
were being manipulated or his association with the press was in 
some way being controlled. Last week at a hearing on the Senate 
side acknowledged that he had been interviewed 14,000 times, 
14,000 interviews on global warming. Now, someone who is 
capable of having that many interviews, let us just, let us say 
there was only a thousand. Okay. Maybe it wasn't, this is only 
what I saw in the press. This is what I saw as a question 
during the interviews over there, but let us say it was just 
1,000. That doesn't indicate that there is some suppression 
going on. It may indicate there is a guy over at NASA who 
thinks his opinions are worth more than anybody else's opinion 
on this, and maybe he was presenting it in a way that was 
perceived as speaking for NASA.
    Now, there is every right for the people that work at NASA 
to make sure that someone who disagrees with them is not 
presenting himself or herself as spokesman for NASA instead of 
this is my opinion on what I have found and what I believe to 
be true on this issue.
    So that is number one. And I would like to remind everybody 
about when people talk about, you know, coming in and not 
having the right kind of science to back up charges and things 
like that. You know, I have been here longer than I think 
anybody in this room, and I will tell you the first incident 
that I ever had like this, I was, I have been a Member of the 
Science Committee for 19 years now, and my very first year Al 
Gore came right there and sat right there.
    Now, I was behind him a few days ago and listening to him, 
and it may surprise some of you, but I agreed with about half 
of what Al Gore had to say, and that is a pretty good consensus 
considering that, you know, I don't agree with the global 
warming aspect, but trying to clean up the pollution, make us 
energy self-sufficient. Man, I think that some of his ideas 
were right on, and I am planning to try to work with my fellow 
Republicans to work on that.
    But my first year Al Gore came there and sat right where 
you are, and he had, again, he had all the camera crews out so 
that all the young people in the world could see him pounding 
on the desk, and he was demanding that the former President 
Bush, who was President then, declare an ozone emergency. Do 
any of you remember that incident? Do you remember that at all? 
Okay. That was very clear to me, because that was my first year 
as a Congressman. Do you know what happened? He was demanding 
that the President declare an ozone emergency for the northeast 
of the United States, which would have cost thousands of jobs 
to add billions of dollars of disruption to our economy, and 
guess what? A week later they found out that it was a 
misreading of some instruments on one piper cub airplane by 
some researcher from one university that misread the 
instruments.
    Now, what I see here is when we are making charges like, 
which are monumental to our economy, billions of dollars worth 
of outcome, these kids lives are not going to be better if we 
end up trying to save the climate rather than clean the air or 
rather than making us energy self-sufficient, because we get, 
you know, because we get focused on a wrong goal because people 
are trying to claim there is an ozone emergency when there 
isn't one.
    So I will end it with a question so anybody can--is there 
or are there or are there not, you have stated over and over 
again, this consensus in order to dismiss any real discussion 
of global warming I keep hearing the consensus, you know, 
rather than confronting the arguments, I get in two arguments 
today, global warming is happening on Mars. We also mentioned 
how they began their research and the one degree temperature 
rise started at the bottom level. Two big, you know, issues 
there with global warming. Instead of them confronting 
arguments, you are saying that a consensus isn't there. Do you 
agree that there are a significant number of scientists with 
very good credentials who are not part of this so-called 
consensus, who have ample reason and are legitimately offering 
some skepticism of global warming? Or is this something, again, 
dismiss it?
    Chairman Miller. Actually, the time limit applies to the 
question and the answer, and we are now gloriously past the 
time, but does any of you have a very brief answer, and or can 
you provide a more complete answer in writing? A very brief 
answer. Dr. McCarthy.
    Dr. McCarthy. I can try. Certainly there is a range of 
opinions on all these issues, and this is what the IPCC is all 
about. It is in distilling where the best science is, and I 
must tell you that that is a very agonizing process, and it has 
the transparency that Mr. Kueter was referring to earlier. 
Everything is documented. You can go back and find all those 
reviews. Everything is there to be examined, and it is a very 
conservative process. Could it be the sun? Well, you can ask 
that question. It is in energetics. You can ask that question. 
How much is the solar variability changing over time? How much 
is the insulation of the atmosphere changing? How do they 
compare?
    This can all be done and is being done, and it turns out 
that the solar variability as best estimated, we only measure 
precisely back to 1980, but with sun records going back for the 
last 100 years, is about one-tenth, it is about plus or minus 
two-tenths of a watt per square meter, about one-tenth the two 
watts per square meter that we have now accumulated as 
insulation in the atmosphere.
    So there is no scientific paper that would allow you to say 
that you can test that theory and find anything like the signal 
for solar variability that you find for the insulation effect, 
and that is the way this science proceeds. If anyone could 
write that paper and showed how the solar variability could 
affect this change, then it would be in these reports.
    Chairman Miller. Mr. Kueter, can you answer in a sentence 
that Hemmingway might have written instead of James Joyce?
    Mr. Kueter. I would refer the Members to the Executive 
Summary of Working Group I, Chapter 12 of the Third Assessment 
Report of the IPCC, which documents a number of ongoing and 
outstanding uncertainties in the state of science. That similar 
list was reproduced in the Fourth Assessment released just two 
months ago. The importance of those uncertainties is documented 
in the National Research Council's 2001 report that was 
previously referenced. I would say that is the subject of the 
debate and ought to be the focus of our future discussions 
about climate change.
    Chairman Miller. Mr. Maassarani, a Hemmingway sentence.
    Mr. Maassarani. If I may just briefly confront two 
statements made by Mr. Rohrabacher. The first was in an earlier 
statement about press releases being edited to reflect the sole 
opinion. There is nothing in our report or investigations that 
says that. It says press releases were edited to downplay or 
minimize their scientific significance.
    The other thing, 14,000 interviews I believe is a 
misstatement as well. Fourteen thousand Google hits I think was 
at issue there, and I can say three things on that subject. 
First, our studies have found that media interactions are 
virtually uninhibited when it comes to local, foreign, or 
technical news journals. The restrictions are for major 
outlets.
    Second, the comment doesn't specify what time period we are 
talking about for Hanson to talk. We have seen these problems 
as problems emerging in the recent past.
    And lastly, it is our belief that one incident of 
interference based on political motivations is unacceptable. 
Thank you.

                  Freedom of Information Act Requests

    Chairman Miller. I need to excuse myself, I have votes in 
another committee beginning now, but, and I will turn the gavel 
over to Mr. Rothman in just a moment. But Mr. Maassarani, 
before I leave, Mr. Rohrabacher pointed out gaps in your 
report, instances in your report where he said you had no 
evidence. I admired how far your report was able to go based on 
FOIA requests. My own experience in FOIA requests as a Member 
of Congress, not as a Chairman of the Investigations and 
Oversight Committee, was how limited a FOIA request was. The 
limitation or the exception for pre-decisional documents really 
meant all the good stuff was not really subject to a FOIA 
request, you know, why the decision was really made.
    What kinds of obstacles did you find in your research using 
FOIA requests, and would you work with our staff if you assumed 
that we may, we have more tools in our toolbox than FOIA 
requests?
    Mr. Maassarani. Certainly. The obstacles include the 
following. We FOIA'd three agencies: NASA, NOAA, and the EPA. 
It was a fairly involved request, asking for a number of things 
that covered anything related to media policies or guidelines 
as one of the points. NASA got back to us with their media 
policy, and that is it. It was a nine-page NASA response. EPA 
was unresponsive to our request. They had nothing regarding, 
relating to media, and you can see some of the language of our 
FOIA in the report. There is, it is beyond me to imagine how 
they would not have a single record on what we requested.
    Other irregularities, at NOAA, for example, though they got 
us a good load of FOIA documents. We had scientists directly 
send us some of the FOIA material they were giving over to the 
FOIA office, and that never made it through the official FOIA 
process, upwards of hundreds of pages of documents.
    So and lastly, on a legal point, the FOIA, the redactions 
that were made and the withheld documents, they weren't 
actually justified under any of the FOIA, under the law of the 
FOIA, so we didn't know whether they were pre-decisional or 
what the basis was.
    Thank you.
    Chairman Miller. The Chair now recognizes Mr. Baird for 
questions, and if Mr. Rothman will now assume the gavel.

                      Science Publishing Concerns

    Mr. Baird. I thank the Chair, and I want to pose two 
ethical questions, and I will preface this by not only do I 
have a doctorate in a scientific field, clinical psychology, 
specialized in neuropsych, but I used to teach the statistics 
and research methods course and used to teach the history of 
science and scientific ethics, and so I know a little about 
Popper and Kuhn and Feynman and some of the other folks.
    And let me just pose a question to my dear friend from 
California, Mr. Rohrabacher, and then the converse question to 
the panel. And I will ask my friend from California the 
following question, and then I am going to propose the converse 
to the panel, because I think there are some problems on both 
sides.
    For the gentleman from California, what do you think the 
ethical position should be if you are a scientist who in your 
best judgment has objectively analyzed the data and they lead 
you to one conclusion. As best you understand it from the data, 
and a supervisor tells you for political reasons because your 
data don't lend credence to an official position, that you 
can't publish that. So you think you have something to offer to 
the debate, and a political person, and I am going to hold that 
question. I will ask the gentleman to respond.
    Let me do the converse, however. Mr. McCarthy commented and 
others the passage of the Whistleblower Protection Act, and one 
of the amendments of that, which I voted for but with some 
reservation, said basically that it is not allowable for a 
supervisor to prevent something from being published after it 
has been accepted in a peer review journal.
    Let us suppose you are a supervisor with ultimate 
responsibility for the scientific credibility of what comes 
from your shop. Someone within your shop sends, unbeknownst to 
you, a publication to a peer review journal, which accepts it. 
You learn about the acceptance post-talk and then say, wait a 
second, I haven't had a chance to review this document, and 
upon reviewing it, I find significant flaws in the data, but 
the Congress of the United States has now passed a law that 
says you can't withhold the publication of a study that you 
believe to be flawed on its scientific merits. And I know of a 
case where that happened, by the way.
    So the gentleman from California and then the panel if we 
may.
    Mr. Rohrabacher. First of all, maybe you could give me 
three examples of where that has happened. I have given you 
four or five examples of how it happened blatantly in the last 
Administration and how there are numbers of scientists who 
claimed to have been frozen out of grants because they were----
    Mr. Baird. Well, hypothetically. I know of examples where 
it has happened.
    Mr. Rohrabacher. Okay. Well, I need three examples, and I 
would like for the panel to come up with three examples for me 
because----
    Mr. Baird. Let us suppose it happened.
    Mr. Rohrabacher. What a scientist's responsibility is, the 
same as a journalist, you know, I am a professional journalist. 
That is what I did for a living. I was a writer. I was not a 
lawyer, which lawyers can justify just about anything, but----
    Mr. Baird. But journalists are not biased. We know that.
    Mr. Rohrabacher. No. Journalists--correct. Okay. Here is 
the answer. If a scientist has done his, has done research, has 
come to a conclusion, he should express that in any way that he 
can as what he believes with his credentials, understanding 
there are other scientists who disagree with him. This is not 
where one claims I have discovered truth, and all of a sudden 
everybody else has to shut up. And what we have got here is you 
have some people who are very strong political positions as 
well as being scientists.
    Mr. Baird. But let me reclaim just to ask this question.
    Mr. Rohrabacher. Sure.
    Mr. Baird. What if your supervisor says you cannot publish 
your data so that it can enter the marketplace of ideas and 
debate? What is your----
    Mr. Rohrabacher. Well, obviously, I believe that anything 
that has, as you say, gone through the peer review process, no 
one should prevent things from being discussed. In fact, I have 
just, I am the strong advocate of having everything discussed, 
and I think there has been much more censorship on the other 
side of this issue than the one you are getting at. If you can 
give me some examples of that, I will be happy to sign on with 
you and say I am very concerned about this scientist, this 
scientist, and this scientist who are permitted to publish. 
Now----
    Mr. Baird. Well, let me return if I may to the panel to 
hear the converse.
    Mr. Rohrabacher. What element of it, to answer your 
question, the thing is----
    Mr. Rothman. Mr. Rohrabacher.
    Mr. Rohrabacher. Yes.
    Mr. Rothman. It is Mr. Baird's, Dr. Baird's time.
    Mr. Rohrabacher. Let me----
    Mr. Rothman. It is Dr. Baird's time.
    Mr. Baird. You and I--Dana, we will have time. We will get 
together.
    Mr. Rothman. It is Dr. Baird's time.
    Mr. Baird. I will give you 30 seconds.
    Mr. Rohrabacher. Okay. No. Even five seconds. It is just 
so, we are not talking about whether or not----
    Mr. Baird. You have 26 seconds.
    Mr. Rohrabacher. Hold on now. So we are basically saying 
that he wasn't allowed to publish in the name of--you can't as 
a scientist publish in the name of NASA, but you can publish. 
NASA doesn't have to say we are publishing this as our opinion.
    Mr. Baird. I am aware of case--I will reclaim my time and 
tell you I am aware of cases where people were told they could 
not put their name on a study, period, because they were within 
the employ of a federal agency, even if the study was published 
not under the official aegis of the agency but merely the fact 
that you were employed by that agency extracted your name from 
publication. I am personally aware of that case.
    About the reverse where the moral conundrum, ethical 
conundrum applies to the supervisor who recognizes flawed data 
but now the Congress has put that person in a position, if we 
pass this law into law, that they can't retract the study 
before it becomes published without running into some 
significant problems.
    Dr. McCarthy. There are many laboratories in which it is 
the procedure for all staff to have their reports, their 
professional papers reviewed within the laboratory. That 
happens in research in universities, happens in research 
centers all over. So it is not unusual.
    If even, if without that, or if one attempted to go around 
that or even if that process were followed and the report were 
published, peer reviewed and published, and were found to have 
errors, then, of course, it is incumbent upon anyone who 
discovers those errors to call attention to them with letters 
to the editor or perhaps retractions of the paper. I think one 
distinction to be made here, though, is that you are talking 
about a case in which the results are clearly derived from 
research. They are, you mentioned data, and I think it is 
somewhat different from what we have seen in many of the cases 
that have been discussed here, in which scientists are making 
statements which are judged by people within the Administration 
to have policy implications. And for that reason they have run 
into difficulty.
    Mr. Baird. Yeah. My problem is if somebody's putting 
forward data that will lead to policy implications, it relates 
to the aforementioned issue, which we will talk about 
separately, but and we have put, in Congress, the supervisor in 
an untenable position where they can't say, this shouldn't go 
to press because it is flawed because one it has been accepted 
for publication, under the amendment we passed last week in 
this Congress----
    Dr. McCarthy. Uh-huh.
    Mr. Baird.--we put those supervisor, I think, in an 
unethical position, and I intend to address this before it goes 
to conference.
    Dr. McCarthy. Well, if it is accepted for publication, let 
us say in a peer review journal, because of oversight in the 
review process, and that happens, as you know, all the time, 
then there are corrective measures. There are letters to the 
editor, there are subsequent papers.
    Mr. Baird. Sure, but you know that is like a retraction in 
journalism. You know once the study is published, it gets 
quoted 100,000 times. The retractions are minimal, and I will 
tell you that some journals substantially restrict and put much 
greater scrutiny on the retractions, I know this personally, 
than they do on the initial publication.
    Dr. McCarthy. Certainly retractions but I think letters are 
often a very powerful way of dealing with that.
    Mr. Rothman. I thank the gentleman. I am going to take five 
minutes for questions.

                    Political Pressure on Scientists

    Can the panel give me at least three examples of the kind 
of censorship or problems in this Administration that our 
colleague from California suggests has taken or took place 
under the previous Administration?
    Mr. Maassarani. If I understand correctly, Mr. Rohrabacher 
was referring to grant decisions allowing funding of certain 
research proposals, as well as more recently he talked about, 
or the question that was under debate now, was whether there 
was a publication that had been----
    Mr. Rothman. No, no, no. Just censorship----
    Mr. Maassarani. Okay.
    Mr. Rothman.--or undue influence, the kind of things you 
were talking about in general terms in each of your respective 
testimonies. At least three of you.
    Mr. Maassarani. Sure. I will give you an anecdote that 
comes from a confidential source of one of the agencies. Just 
find my notes real quick.
    This was a person that was positioned in the public affairs 
office of the agency. The predecessor for this person had been 
begged to resign from this, to be reassigned from this position 
to another one because of the pressure that was associated with 
the position. Basically they found themselves between the 
political appointees within the public affairs office and the 
scientists themselves and the information they were trying to 
get out. This person was told regarding one of the scientists, 
you make him be quiet. Get that guy to stop speaking to the 
public. It is your job. I cannot believe you cannot control 
that person. This person has, and I quote, was summoned to 
their political appointee's supervisor's office at times where 
their discussion would take place behind closed doors and 
involved White House offices such as the Office of Science and 
Technology Policy.
    This person was to inform the superiors of any interview 
requests from major news outlets that concerned climate change, 
and those would be rerouted through----
    Mr. Rothman. That is one individual. Do we have any other 
examples that either, anyone wishes to speak about?
    Dr. McCarthy. I can refer to examples which are in the 
testimony from our report, Atmospheric Pressure, in which 21 
percent of the respondents, they personally experienced 
pressure to eliminate the words, climate change or global 
warming or other similar terms from a variety of 
communications. Fifteen percent of the respondents said they 
personally experienced changes or edits during review that 
changed the meaning of scientific findings, and then in all 58 
percent of the scientists said they had personally experienced 
at least one incident of some form of interference within the 
last five years, a total of 435 incidents of political 
interference. And these are documented in our report.
    Mr. Rothman. Mr. Rampton, do you have any comment on this 
or----
    Mr. Rampton. I think I will pass if that is okay.
    Mr. Rothman. Okay. And Mr. Kueter, since I see this hearing 
is among other things but most importantly what role the 
Congress should take in trying to prevent intimidation, 
censorship of scientists within the Federal Government by 
members of the Federal Government, do you have any examples 
about any conduct during this Administration that you found 
were examples of censorship on one, cutting one way or the 
other?
    Mr. Kueter. We haven't analyzed the behavior of this 
particular Administration, but the book that I referenced in my 
testimony, Politicizing Science, documents at least four 
different cases of where there has been evidence of selective 
use of results over misinterpretation of those findings or 
blatant interference in the conduct of experiments and in the 
behavior of past Administrations.
    Mr. Rothman. Okay. So for the last seven years, you haven't 
studied the actions of what has gone on in our Federal 
Government for the last six years and change?
    Mr. Kueter. Not in terms of trying to conduct the kinds of 
surveys that these gentlemen are talking about.
    Mr. Rothman. Okay. So you are more of a historian then. You 
can tell us what happened in the last Administration but not 
the last six years?
    Mr. Kueter. I am a public policy analyst. That is, our role 
is to be----
    Mr. Rothman. Okay.
    Mr. Kueter.--involved in the contemporary debate. We have 
published this book, though that did take a more historical 
view of the questions that you raised.
    Mr. Rothman. Fair enough. I am going to save my 14 seconds 
unless there is another comment, Mr. Maassarani.
    Mr. Maassarani. I just wanted to say that our report is 
replete with the kind of examples that you are asking for.
    Mr. Rohrabacher. Mr. Chairman.
    Mr. Rothman. I am now going to recognize our colleague and 
friend from California, Mr. Rohrabacher, for five minutes.
    Mr. Rohrabacher. Well, thank you very much. I am dismayed 
that when we ask you for specific examples that you couldn't 
come up with any. I mean, you are coming up with an unnamed 
source and coming up--give me a couple names out of there and 
say Dr. so and so said that on this occasion I had a scientific 
study that I was not permitted to publish or was not permitted 
to submit for people to look at. And give me the examples, and 
I am ready to take a look. Give me three examples. If you 
couldn't do it just a minute ago, send them to my office. I 
will be happy to examine it. The answers you gave were, 
obviously were not satisfactory.
    Mr. Rothman. Will the gentleman yield for a question?
    Mr. Rohrabacher. Sure. Sure.
    Mr. Rothman. When the panelists said that 21 percent and 
three out of five responded that they experienced some 
censorship or pressure to change their findings or their 
findings were changed without prior notice, does the gentleman 
say that, deny that those findings or reports are correct?
    Mr. Rohrabacher. Yeah, I do, because I will suggest to you 
that when you take polls among people, how you ask a question 
and then how you analyze the answer makes all the difference in 
the world. And whether or not that person, for example, if 
someone says, do you think that there should be more research 
money on global warming, and the scientist says, why, yes, I 
do, and I think it is really discriminatory against our group 
of people who are responsible for researching global warming, 
the fact that they don't have a higher budget. Well, everybody 
wants a higher budget, and that analysis, giving him as an 
example, as see, here is a guy who is repressed. Well, this may 
be what we are having here, but I will be very happy, by the 
way, please submit to me, and I will give you a chance to get 
me the exact, if you have a specific example, give me three 
specific examples. I will be open-minded about it. And, again, 
I agree with my friend, this should be an open debate. My major 
argument today is not that we in some way should overlook if 
there has been some suppression of the argument on, by this 
Administration, we should overlook that. I would never suggest 
that. I am suggesting that we have suppression of this debate 
on the other side.
    And, again, if you have evidence that they are doing 
something wrong, specifically, rather than giving me some 
polling or some unnamed source who can say anything because he 
is anonymous, okay. Go right ahead. If you got some examples, I 
will, write them down.
    Mr. Maassarani. Sure. Let me just say that they are unnamed 
for a reason, and a number of our sources are unnamed, and 
unfortunately, I can't disclose their----
    Mr. Rohrabacher. Well, the point is that we have been, like 
the Administration has been here seven years or six years now 
total, and if there were people who were in there facing this, 
there would be enough people on the outside to find someone who 
has been willing to speak up without fear of losing their job. 
There is always, you know, people always say things anonymously 
and say, well, I just can't say it publicly because I will lose 
my job. That is not a source to base judgments on. I can tell 
you that right now. There is a lot of other people on the 
outside who, if there was that repression going on, could come 
out publicly and say, when I was there, this is what happened.
    Mr. Maassarani. Well, if it is very important to you, I can 
perhaps arrange for you to contact that source if you can 
ensure their----
    Mr. Rohrabacher. No, no.
    Mr. Maassarani.--confidentiality as well.
    Mr. Rohrabacher. Give me the names of several people. Give 
me the names----
    Mr. Maassarani. Yes. I am ready to do so, sir, right now.
    Mr. Rohrabacher.--of three people. Do it on the record for 
Pete's sake.
    Mr. Maassarani. Tom Knutson is a scientist who has had a 
media request denial.
    Mr. Rohrabacher. A media request denial.
    Mr. Maassarani. Denied.
    Mr. Rohrabacher. Okay.
    Mr. Maassarani. On three occasions.
    Mr. Rohrabacher. Has he had other requests that were 
granted?
    Mr. Maassarani. Yes.
    Mr. Rohrabacher. Oh, there you go. Okay.
    Mr. Maassarani. So some requests are okay and others are 
not.
    Mr. Rohrabacher. Okay.
    Mr. Maassarani. Weatherald has had four press releases 
squashed.
    Mr. Rohrabacher. Okay.
    Mr. Maassarani. And Christopher Millie, Weatherald is also 
from NOAA, and Christopher Millie from USGS----
    Mr. Rohrabacher. Okay.
    Mr. Maassarani.--has had two press releases squashed.
    Mr. Rohrabacher. Okay. So we have----
    Mr. Maassarani. Three examples.
    Mr. Rohrabacher.--so you are suggesting that because 
someone is not permitted to send out a press release, now you 
are saying a press release. With the name of the governmental 
agency on top of the press release? They were denied that? And 
that is an example of suppression?
    Mr. Maassarani. When it is research that this scientist----
    Mr. Rohrabacher. No, that is not suppression at all. If 
someone is, wants to send his research out to make sure that 
other scientists know about it, becomes part of the public 
debate, that is a lot different than sending out press 
releases.
    Mr. Maassarani. These press releases are for the media to 
pick up on important research conducted by federal scientists.
    Mr. Rohrabacher. Important research as, according to that 
researcher. There may be other scientists who disagree totally 
with that position. Now, you want to, you think that the 
Government should be sending out dueling press releases? Is 
that what it is?
    Mr. Maassarani. No. These are press releases that mark the 
release of studies in peer-reviewed journals.
    Mr. Rohrabacher. Well, that is what I am----
    Mr. Maassarani. Each one of these press releases----
    Mr. Rohrabacher. Okay.
    Mr. Maassarani.--I am referring to.
    Mr. Rohrabacher. And they were released in the peer, in the 
journals?
    Mr. Maassarani. Yes. They were----
    Mr. Rohrabacher. Oh. Okay.
    Mr. Maassarani.--published in the journals.
    Mr. Rohrabacher. So here we have----
    Mr. Maassarani. So other scientists found out about it but 
not the media.
    Mr. Rohrabacher. So you are ignoring----
    Mr. Maassarani. Or the public.
    Mr. Rohrabacher.--the fact that the lead scientist from the 
Department of Energy was sacked when he came in by Al Gore and 
the fact that they, that a guy who can actually publish his 
findings in a peer-review journal is being repressed because he 
can't send out a press release with the name of the 
organization on the top.
    Mr. Rothman. The distinguished gentleman's time is, for 
this round, concluded.
    Mr. Rohrabacher. You may have an example for us that you 
might want to put on the record. I mean, Dr. McCarthy.
    Mr. Rothman. While I think that any active injustice is 
something to be criticized, condemned, and fixed, those that 
are farther back in history may be ones we cannot correct, but 
those acts of injustice or bad policy or bad behavior by people 
who are still in office I think are more relevant to this 
committee since we have it within our power as a coequal branch 
to check and balance any abuses by any other branch.
    Would any of you gentlemen like to talk about in more 
detail the meaning of my colleague and friend from California 
talks about or implies some insignificance to the squashing of 
a press release? First of all, is that all we are talking 
about, squashing of press releases, and what is the 
significance of these, of this, of these restrictions? Dr. 
McCarthy.
    Mr. McCarthy. No. We are talking about much more than the 
squashing of press releases. I gave you some examples where 
people were told they could not use the words, ``climate 
change,'' ``global warming,'' and the like. I will report 
documents with names, 70 such sources. You can check those, and 
I think to somehow make reference to someone who was fired some 
years ago and circumstances that we can't possibly reconstruct 
at this point or to suggest that a Dutch and Italian scientist 
were not getting their grants, I mean, my last four grant 
proposals were turned down. I am batting about one out of five. 
I have never suspected that there is some political motivation. 
I am not writing proposals that deal specifically with this 
subject. No one has ever told me, any of the federal agencies 
that if I did or didn't funding would be different.
    I think you need to also look at how research funding 
works, and it is a review process that involves experts in the 
community. The decisions are made by program managers and study 
panels. I have worked extensively in such review analyses of 
panels of the National Science Foundation. I cannot think of 
any time in which there was ever any policy by the directorate 
of the foundation or the foundation in general or something 
that was thought maybe coming on high that said this is the 
kind of research we should be supporting or the kind of 
research we should not be supporting.
    And perhaps I could explain that the way scientists get 
their work supported is not to write a proposal saying I want 
to go out and prove that something that people think is right 
is right. You get it funded because you say I think there is 
something wrong with our conventional position, and I am going 
to prove it. And that is what gets funded.
    Mr. Rothman. Doctor, is there any evidence, or any member 
of the panel, that there was a concerted effort or a conspiracy 
or a matter of agreed-upon policy by, at the highest levels of 
the Administration to confine comments by scientists in federal 
employ or to censor their work? I mean, how high up does it go, 
or was it, were these the acts of renegade members of the Bush 
Administration?
    Mr. Maassarani.
    Mr. Maassarani. This depends a little bit on how you would 
define a conspiracy. I think we do have high-level signals as 
is documented in the report that comes down. We can only infer 
how systematic these signals are and how much their affect has 
been. It definitely seems that White House offices are sending 
these signals through political appointees at the agencies and 
public affairs offices to--and in some very clear instances to 
suppress certain communications by scientists. I am not 
prepared to call this a conspiracy with everyone involved at 
the high levels and the low levels against the scientists, but 
certainly there is something of concern going on.
    Mr. Rothman. Mr. Kueter, can you comment, although you 
haven't made a study of the last six years, do you have an 
opinion on this?
    Mr. Kueter. Well, your colleagues in another committee in 
this Congress posted the deposition of Phil Cooney to their 
website as a product of a hearing that they had where he 
participated a few weeks ago. I would suggest you take time to 
read that lengthy document, because I think it reveals quite 
plainly that the proposition that has been offered doesn't 
exist in the sense of there being high-level efforts in a 
coordinated attempt to suppress scientific discussion of 
climate issues.
    Mr. Rothman. But do you have any view as to, I hear you on 
the high level, the lack of high-level coordinated policy on 
this matter, but do you have any information, evidence, or 
opinion as to whether these examples cited by these three other 
gentlemen did not take place in the Bush Administration in the 
last six years?
    Mr. Kueter. I have no basis to judge the credibility of 
those claims, having not reviewed their studies in any great 
detail for that purpose.
    Mr. Rothman. I thank you. I think we have done it, and let 
me say this. I am going to be looking forward to reading the 
recommendations in each and every one of you gentlemen on how 
to prevent the intimidation, censorship, or mischaracterization 
of scientific findings by federally-employed scientists by 
members of the Federal Government.
    I want to thank the witnesses again and under the rules of 
the Committee the record will be held open for two weeks for 
Members to submit any additional questions they might have to 
the witnesses. And if there is no objection, the witnesses are 
dismissed with our gratitude, and the hearing is adjourned.
    [Whereupon, at 3:55 p.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Sheldon Rampton, Research Director, Center for Media and 
        Democracy, Madison, Wisconsin; Co-author, Trust Us We're 
        Experts: How Industry Manipulates Science and Gambles With Your 
        Future

Questions submitted by Chairman Brad Miller

Q1.  Why should the Congress care that an industry or major 
multinational corporation funds a campaign of public relations to spin 
science? Is this more than just an exercise of 1st Amendment rights?

A1. In the case of the tobacco industry, courts have found that the 
industry's efforts to spin science reached the level of actual fraud 
which violated the law. It is one thing to publicly espouse a 
particular interpretation of scientific evidence when the scientific 
community itself is still divided over differing interpretations. It is 
another thing entirely to manufacture the APPEARANCE of doubt when the 
scientific evidence has become overwhelming. This was the case with the 
link between smoking and lung cancer, and has now become the case with 
respect to the link between human-produced greenhouse gas emissions and 
global warming. The tobacco industry's own internal documents show that 
industry executives did understand the true state of the scientific 
evidence, making its public statements to the contrary deliberate 
deceptions. The same thing appears to be true with respect to the 
current state of knowledge regarding global warming, and there are 
numerous examples of companies (such as the pharmaceutical industry) 
deliberately suppressing the publication of data that conflicts with 
their marketing claims about the safety and efficacy of their products. 
These actions cannot reasonably be interpreted as merely the free 
expression of opinion. They constitute deliberate deception of the 
public and should not be tolerated.
    Corporations are not allowed to deliberately deceive their 
investors by withholding or falsifying information about business 
losses, pending lawsuits or other facts which have a bearing on 
assessing the risks of investing in them. I see no reason why they 
should be allowed to deliberately deceive the general public by 
withholding or falsifying information about the risks which their 
activities pose to the environment or public health.
    Beyond the question of whether deliberate deception is involved, I 
think the public also has a right to know who is funding the science 
which is used as the basis for decisions that affect the public.
    Companies certainly have the right (and indeed, a responsibility) 
to fund research into the safety and efficacy of their products. This 
funding does not always create bias, but it is a strong indicator of 
potential bias. Numerous studies have found that research funded by a 
company which makes a particular product tends to exaggerate the 
benefits and downplay the hazards associated with that product. This 
doesn't necessarily reflect fraud on the part of the company or the 
researcher. It may simply mean that they are genuinely excited about 
the positive potential of the product and have an unconscious bias that 
influences their conclusions. I think it is problematic, however, when 
industry-funded research is presented to the public without full and 
prominent disclosure as to its source of funding.
    When the public is told that eating oat bran lowers cholesterol, it 
should also be informed that the research reaching that conclusion was 
sponsored by Quaker Oats. It is entitled to know that the ``Princeton 
Dental Resource Center,'' which claimed that eating chocolate actually 
reduced cavities, was financed by the M&M/Mars candy company and was 
not a part of Princeton University.

Q2.  Can you shed light on how we should think about the differences 
among non-profit public interest organizations that hire scientists and 
engage in public information campaigns? Some argue that since there are 
groups on all side of all issues, with funding behind them, it makes no 
difference whether the donors are public-minded citizens or 
corporations with a material interest in a particular policy path? Is 
there any difference in your mind between those two kinds of cases?

A2. I don't think it is true to suggest that comparable funding is 
available to groups ``on all side of all issues.'' Aggregate data about 
the funding sources of science is hard to come by, but we can get a 
good idea of the resources available to various groups by looking at 
data on political giving. According to the Center for Public 
Integrity's database of political giving, for example, the oil and gas 
industry gave $19,090,042 to national political candidates during the 
2006 election cycle and spend $72,492,544 on lobbying. By comparison, 
environmental groups gave only $514,759 to electoral candidates and 
spent $7,687,264. That's a 37-to-1 ratio in political campaign giving, 
and more than a 9-to-1 ratio in spending on lobbying. The National Beer 
Wholesalers Association alone gave $2,946,500, and that's only part of 
the alcoholic beverages industry. I haven't been able to find 
statistics on the political giving by groups concerned about the 
problems related to alcohol consumption such as Mothers Against Drunk 
Driving, but I'm sure it is minuscule by comparison. The sum total 
spent on lobbying by all single-issue ideological groups combined--pro-
choice advocates, anti-abortionists, senior citizens, and a variety of 
other groups--was $113 million. By contrast, the health care industry 
alone spent $338,441,211, and corporate-sector lobbying for all 
industries combined was more than $2.3 billion.
    As these figures suggest, industry groups have much more money to 
spend on shaping public opinion and public policy than non-profit 
public interest organizations, and this applies as well with respect to 
hiring of scientists for public information campaigns.
    Environmental groups and other issue-advocacy organizations 
certainly do hire scientists and make scientific arguments to promote 
their policy goals, and it is certainly fair to expect that their 
scientists are as susceptible to bias as industry scientists.
    However, these groups have a lot less money with which to promote 
biased science than the corporate sector. As a practical matter, the 
biases that we need to worry about the most are the biases held by 
people who have the money and power to influence policies.

Question submitted by Representative F. James Sensenbrenner Jr.

Q1.  In your testimony you illustrate how industry influences the media 
through surrogate organizations. Have you looked into whether or not 
advocacy organizations use the same techniques?

A1. As I stated in my answer to the second question by Chairman Miller, 
the scientific claims made by advocacy organizations should be greeted 
with the same expectations of tendentious bias that should be applied 
to claims made by industry-funded scientists. However, the specific use 
of ``surrogates''--by which I mean the use of scientists as third-party 
spokespersons without disclosure of their industry sponsorship--is 
something that advocacy organizations rarely if ever do. I cannot think 
of a single instance where a group such as Greenpeace or the Center for 
Science in the Public Interest or the National Right to Life Committee 
or the National Rifle Association has sponsored a scientist to act as 
their spokesperson while concealing that sponsorship. To the contrary, 
most advocacy organizations actively publicize their relationship with 
the scientists in their employ.
    The reason for this is simple: Advocacy organizations have no 
motive to conceal their sponsorship of scientists. A typical advocacy 
organization seeks funding from the public, and it wants potential 
donors to believe that it is doing a great deal and accomplishing a lot 
with their contributions. If a group like Greenpeace hires a scientist 
to produce a report on global warming, therefore, it has a strong 
incentive to inform people that it has done so. Moreover, there is no 
advantage to concealment. A scientist's affiliation with a group like 
Greenpeace does not diminish the credibility of that scientist's claims 
in the eyes of the general public (and especially not in the eyes of 
potential Greenpeace donors) in the same way that a scientist's 
credibility may be diminished if he is known to be working for 
ExxonMobil.
    There is, however, a related problem of third-party surrogacy 
related to advocacy organizations. Many think tanks and advocacy groups 
are themselves used as surrogates for undisclosed interests, in the 
same way that individual scientists are used for this purpose. For 
example, the Philip Morris tobacco company created a group called The 
Advancement of Sound Science Coalition (TASSC) to publicly dispute the 
science linking secondhand cigarette smoke to lung cancer. The company 
went to great lengths to conceal the fact that TASSC was created by one 
of its public relations firms and funded almost entire with corporate 
grants. There are many groups of this type--the ``American Council on 
Science and Health,'' ``Citizens for the Integrity of Science,'' or 
``Consumer Alert''--which receive most of their funding from corporate 
sponsors rather than individual donors while declining to disclose the 
identity of their actual funders.
    My organization, the Center for Media and Democracy, has long 
advocated that nonprofit organizations which receive tax-exempt status 
should be required, as a condition for tax exemption, to disclose a 
list of all of their significant institutional funders.
    Just as the public has a right to know who is funding the 
scientific research that is used to influence public opinion and public 
policy, the public also ought to know who is funding the work of other 
groups that seek to influence them.
                   Answers to Post-Hearing Questions
Responses by James J. McCarthy, Alexander Agassiz Professor of 
        Biological Oceanography, Harvard University; Board Member, 
        Union of Concerned Scientists

Questions submitted by Chairman Brad Miller

Q1.  Dr. McCarthy, in January 2007, a spokesman for ExxonMobil said the 
company had stopped funding climate skeptic organizations such as the 
Competitiveness Enterprise Institute. Do you know if ExxonMobil is 
still funding a campaign of climate science doubt? How could we verify 
what role they are playing?

A1. UCS's January 2007 Report, Smoke, Mirrors and Hot Air, found that 
between 1998 and 2005, ExxonMobil funneled close to $16 million to 43 
groups working to manufacture uncertainty around global warming 
science. Faced with public outrage over its cynical campaign to delay 
action on global warming, ExxonMobil has launched a PR campaign aimed 
at softening its image as a climate skeptic. The company finally 
acknowledges the global warming threat and has cut funding for some of 
the most egregious climate contrarians groups, including the 
Competitive Enterprise Institute.
    However, Exxon's 2006 World Giving Report reveals that twenty four 
of the groups identified in the UCS report received an additional $1.6 
million in funding in 2006. Four groups that received continued funding 
in 2006 have consistently been at the center of ExxonMobil's fight 
against action on global warming: The Heartland Institute, George C. 
Marshall Institute, American Legislative Exchange Council and Frontiers 
of Freedom. A leaked 1998 American Petroleum Institute memo linked 
these groups to the Global Climate Science Communications Plan, a 
multi-year, multi-million dollar strategy to manufacture uncertainty 
around the science of global warming. Total 2006 funding to these 
groups alone was $421,000 with a sum of over $3.6 million since 1998.

Q2.  In his written testimony, Mr. Kueter charges that groups like UCS 
and the British Royal Society are ``seeking to silence honest debate 
and discussion of our most challenging environmental issue--climate 
change.'' He also writes that ``the censorship of voices that challenge 
and provoke is antithetical to liberty and contrary to the traditions 
and values of free societies.'' Is there an effort to silence honest 
debate? Dr. McCarthy, do you want to comment on these claims?

A2. UCS supports ``honest debate and discussion of our most challenging 
environmental issue-climate change.'' The key word is ``honest'' as 
some individuals have a long history of invoking outdated publications 
that have been subsequently overturned by many additional peer-reviewed 
papers that have pointed out the flaws in the original evidence, 
methods, etc. This is ``cherry picking'' at its most dishonest. UCS 
supports open dialogue and full discussion of all evidence-based 
science that represents the current state of knowledge. In other words, 
the UCS is totally committed to the antithesis of censorship and the 
exact opposite of silencing honest scientific debate.

Q3.  Dr. McCarthy, in your view does the Marshall Institute do 
scientific work? How does it compare to the kind of work done by 
research scientists in universities or even the work done by a body 
such as the IPCC?

A3. University research findings typically result in a publication with 
several research authors that is peer-reviewed by a few external 
experts. Any errors in these publications typically become apparent 
through formal ``comment'' and ``reply'' publications in the original 
journal. The evaluation process occurs further when subsequent articles 
are published in other respected journals that point out the errors or 
confirm the original hypothesis. The IPCC effectively re-reviews the 
published climate science on a more comprehensive scale. For example, 
the Working Group I contribution to the IPCC in 2007 received and fully 
considered around 30,000 review comments.
    The IPCC's technical reports derive their credibility principally 
from a, transparent, and iterative peer review process that is far more 
extensive than that associated with scientific journals. This is due to 
the number of reviewers, the breadth of their disciplinary backgrounds 
and scientific perspectives, and the inclusion of independent ``review 
editors'' who certify that all comments have been fairly considered and 
appropriately resolved by the authors. Furthermore, according to IPCC 
principles, lead authors are ``required to record views in the text 
which are scientifically or technically valid, even if they cannot be 
reconciled with a consensus view.'' Finally, it is important to note 
that the authors of IPCC reports are nominated by national governments, 
and the final IPCC reports are approved by delegations from more than 
one hundred nations (including the U.S.A. and all other industrialized 
nations).
    Several organizations, some non-profit and others with links to 
commercial interests, endeavor to translate climate science into forms 
that are more accessible to the general public and the policy 
community. When a report from any such group, including the George C. 
Marshall Institute, appears to provide a new interpretation or 
synthesis of findings (since most of these organizations do not conduct 
original scientific research) it is important to ask who authored the 
report, by whom was it reviewed and what are these individuals' 
credentials. If authors and reviewers are not named, if the process by 
which the report was written and reviewed seems opaque or if the 
authors of a climate report do not have the stature of IPCC authors, 
then one needs to be cautious, especially if the intent of the report 
is to challenge conventional science.

Q4.  Dr. McCarthy, some people seem to have the impression that the 
IPCC and various National Academy statements reflect ``consensus'' 
views that ignore the work of scientists who hold other views. Are they 
correct?

A4. The word ``consensus'' is often invoked, and sometimes questioned, 
when speaking of IPCC reports. In fact, there are two arenas in which a 
consensus needs to be reached in the production of IPCC assessments; 
one is the meeting of the entire IPCC, in which unanimity is sought 
among government representatives. Even though such consensus is not 
required (countries are free to register their formal dissent), 
agreement has been reached on all documents and ``Summary for Policy-
makers'' (SPMs) to date-a particularly impressive fact.
    Consensus is also sought among the scientists writing each chapter 
of the technical reports. Because it would be clearly unrealistic to 
aim for unanimous agreement on every aspect of the report, the goal is 
to have all of the working group's authors agree that each side of the 
scientific debate has been represented fairly.
    IPCC ensures that the scientific credibility and political 
legitimacy of its reports represents fairly the range of scientific 
understanding of climate change. To this end, the IPCC provides several 
channels for input from experts along the entire spectrum of scientific 
views, including those of statured scientists who do not expect large 
future anthropogenic effects on climate.
    First, accredited NGOs from all sides of the issue are welcome as 
observers at the opening plenary session and some other sessions over 
the course of the report production cycle. In addition, well-known 
contrarians can and do become contributing authors by submitting 
material to lead authors, and play advisory roles for their governments 
by working with government representatives to revise and approve the 
final SPMs.\1\
---------------------------------------------------------------------------
    \1\ Edwards, P., and S. Schneider. 1997. Climate change: Broad 
consensus or ``scientific cleansing''? Ecofables/Ecoscience 1:3-9.
---------------------------------------------------------------------------
    The presence of climate change experts from industry and 
environmental organizations in the assessment process also illustrates 
the IPCC's desire to seek input from outside traditional research 
institutions. Industry examples have included representatives from the 
Electric Power Research Institute and ExxonMobil. Environmental 
examples have included representatives from Environmental Defense, the 
Natural Resources Defense Council, and others all over the world.
    Climate contrarians frequently claim that the IPCC produces 
politically motivated reports that show only one side of the issues.\2\ 
Given the many stages at which experts from across the political and 
scientific spectrum are included in the process, however, this is a 
difficult position to defend.
---------------------------------------------------------------------------
    \2\ Masood, E. 1996. Head of climate group rejects claims of 
political influence. Nature 381:455.

---------------------------------------------------------------------------
Questions submitted by Representative F. James Sensenbrenner Jr.

Q1.  Your organization receives a substantial amount of money from 
private foundations.

        a.  Does that money come with the strings attached?

        b.  Do you think ExxonMobil's contributions to Stanford, Yale, 
        Harvard, Princeton, MIT, Columbia, the University of Texas, and 
        Carnegie Mellon came with strings attached?

        c.  Do you think those contributions influence those 
        institution's work?

        d.  Why do you think similar contributions will impact the 
        organizations in your report?

A1. The majority of grants to the Union of Concerned Scientists from 
private foundations are designated for specific projects as described 
in the grant proposal. Most importantly, the genesis for the project 
lies with UCS, not the foundation. UCS writes proposals for various 
projects which are funded only if the foundation decides the proposal 
is in line with its priorities.
    In the UCS report Smoke, Mirrors and Hot Air there is a comparison 
between the large donations by ExxonMobil to university research 
compared to the relatively smaller proportion given to organizations 
that have historically misrepresented scientific understanding about 
climate change. For example the report notes:

         ``In its most significant effort of this kind, ExxonMobil has 
        pledged $100 million over ten years to help underwrite Stanford 
        University's Global Climate and Energy Project. According to 
        the program's literature, the effort seeks to develop new 
        energy technologies that will permit the development of global 
        energy systems with significantly lower global warming 
        emissions.''

    The UCS report does not express any concerns about the value or 
independence of the work done by these academic institutions. 
Similarly, the report does not directly claim that ExxonMobil's 
contributions to organizations that have a record of misrepresenting 
the current knowledge about the science of climate change were an 
attempt to influence the views or writings of those groups. Rather, our 
claim is that ExxonMobil's funding of these groups serves to amplify 
the misleading messages of these groups and confuses the public on the 
climate issue.

Q2.  It is important to separate scientific interference from policy 
guidance. You included the following question in your survey: 
``Question 6, The U.S. Government has done a good job funding climate 
change research.'' How does a budget question equate to scientific 
interference?

A2. Our survey was designed to obtain information about the general 
work environment for U.S. Government climate scientists, and as such, 
not every question addressed the problem of direct political 
interference in the work of scientists. Reducing funding for a 
particular line of research does not necessarily equate to direct 
political interference in science, and this question was not asked with 
that inference in mind.
    However, the results of this question (more than half of the 
respondents disagreed that the U.S. Government has done a good job 
funding climate change research) and the large number of essay 
responses on the topic of funding may be taken as supporting evidence 
for a funding crisis in federal climate science. When adjusted for 
inflation, federal funding for climate science has fallen since the 
mid-1990s.\3\ A 2005 report by the National Research Council (NRC)'s 
Committee on Earth Science and Applications from Space concluded that 
our system of Earth-observation satellites is at ``risk of collapse'' 
and is jeopardized by delays and cancellations of several planned NASA 
satellite missions.\4\
---------------------------------------------------------------------------
    \3\ American Association for the Advancement of Science. 2007. 
Climate Change Science Program Budget, by Agency. Online at http://
www.aaas.org/spp/rd/ccsp07cht.pdf
    \4\ National Research Council, Committee on Earth Science and 
Applications from Space. 2005. Earth Science and Applications from 
Space: Urgent Needs and Opportunities to Serve the Nation. Washington, 
DC: The National Academies Press.
---------------------------------------------------------------------------
    In a statement earlier this year, the Board of Directors of the 
American Association for the Advancement of Science (AAAS) echoed the 
concerns of the NRC committee and called upon Congress and the 
administration to implement the NRC recommendations ``for restoring 
U.S. capabilities in Earth observations from space to acceptable 
levels.'' \5\
---------------------------------------------------------------------------
    \5\ AAAS Board Statement on The Crisis in Earth Observation from 
Space. April 28, 2007. Online at http://www.aaas.org/eos
---------------------------------------------------------------------------
    High-quality data about our climate is the crucial first ingredient 
to understanding the science of climate change and crafting effective 
policies for dealing with the threat.
                   Answers to Post-Hearing Questions
Responses by Tarek F. Maassarani, Staff Attorney, Government 
        Accountability Project

Questions submitted by Chairman Brad Miller

Q1.  Mr. Maassarani, could you elaborate on your observation that media 
policies were often driven from offices in the White House complex?

A1. Most prominently, our report detailed numerous instances in which 
White House executive offices are involved in the editing and clearance 
of scientific reports. To what extent the White House has interfered 
with media communications, and in particular shaped media policies, is 
less concretely established. Our report documents several examples 
where the White House was connected to practices that restricted media 
communications. Consider, for example, an e-mail dated June 13, 2005, 
in which National Oceanic and Atmospheric Administration (NOAA) public 
affairs officer Kent Laborde tells a NOAA senior scientist 
Venkatachalam Ramaswamy:

         CEQ [Counsel on Environmental Quality] and OSTP [Office of 
        Science and Technology Policy] have given the green light for 
        the interview with Ram. They had me call Juliet [Eilperin, the 
        reporter who requested the interview] to find out more 
        specifics. She will be asking the following:

                <bullet>  what research are you doing with climate 
                change

                <bullet>  what research has been encouraged or 
                discouraged by the administration

                <bullet>  what interaction has he had with the 
                administration

                <bullet>  does he have free reign to conduct the 
                research her [sic] wants to do

         I told Juliette [sic] that he feels comfortable to comment 
        only on science and does not want to loose [sic] his scientific 
        objectivity by addressing policy/potitical [sic] questions. She 
        said since he is not a policy-maker, she wouldn't ask policy 
        questions.

         Michele [St. Martin of CEQ] wants me to monitor the call and 
        report back to her when it's done. . .

    Similarly, an anonymous public affairs officer at NASA told us how 
he sat in on phone calls made between public affairs headquarters and 
OSTP discussing control of certain scientists' media exposure.
    Such incidents compounded by the lack of transparent decision-
making above the heads of scientists and mid-and high-level public 
affairs staff suggest that the chain of command reaches up to the White 
House for media communications dealing with sensitive science. 
Nonetheless, with the exception of the Climate Change Science Program 
(CCSP), this high-level involvement in routine media communications was 
never stated or put forward as official policy--as distinct from 
practice. In the case of the CCSP, which has significant representation 
from White House offices on its communications working group, it has 
been clearly stated as a matter of policy that CCSP staff is not 
authorized to talk to the press. Rather, media inquiries are referred 
to NOAA or the CEQ chairman.

Q2.  In your review of e-mails and interviews with scientists, do you 
always see the hand of the White House--either the President's Council 
on Environmental Quality or the Office of Science and Technology 
Policy--behind climate change suppression efforts?

A2. As discussed above, there is limited direct evidence of White House 
involvement with climate change suppression efforts in our FOIA and 
interview record. What we have found however suggests that this is not 
because these efforts do not exist, but because they are opaque and 
evasive. White House involvement seems to occur by telephone or in 
person, to which only a select few individuals within the agency are 
privy. Although outgoing e-mail traffic from the agencies suggested 
White House involvement, our FOIA obtained few if any e-mails from the 
executive offices. As you are well aware, Waxman's staff has had 
similar difficulties obtaining information about White House 
communications with its agencies.
                   Answers to Post-Hearing Questions
Responses by Jeff Kueter, President, George C. Marshall Institute

Questions submitted by Chairman Brad Miller

Q1.  Mr. Kueter, when did the Marshall Institute receive its last 
funding from ExxonMobil or its foundation?

A1. We received support from ExxonMobil in 2006.

Q2.  Do you currently have a financial relationship with Exxon Mobil, 
its foundation or any of its public relations firms to fund work on 
climate science or any other issue.

A2. We have submitted renewal proposals to ExxonMobil in support of our 
climate change and energy policy programs for 2007.

Q3.  How did the Marshall Institute become aware that ExxonMobil was 
funding policy organizations to support a climate science work? funding 
from ExxonMobil or its foundation?

A3. The Marshall Institute's climate program began in 1989. The 
Institute did not begin accepting corporate contributions until 1999 
even though the Institute was accused of being ``corporate financed.'' 
A statement by a past Institute Executive Director explaining this 
change in policy is available at http://www.marshall.org/
article.php?id=17, which is a reprint of an op-ed appearing in the Wall 
Street Journal on July 2, 1997. I was not employed with the Marshall 
Institute during this period and am not aware of the circumstances 
surrounding the receipt of the first grant from ExxonMobil. A review of 
the available records shows that the Institute prepared a grant request 
to the Exxon Education Foundation for general operations support in 
August 1999.

Q4.  Have you or any other figures associated with the Marshall 
Institute ever participated in a meeting or conference involving Exxon 
Mobil representatives or representatives of its foundation to discuss 
how to carry out your climate science work or to coordinate that work 
among other organizations funded by ExxonMobil?

A4. I review the substance of our past activities and our plans for the 
future at an annual meeting with a designated representative of 
ExxonMobil. This meeting is held in conjunction with the submission of 
our annual report on activities and request for renewal. Such meetings 
are common practice. Our programs and activities are designed and 
implemented independently of any supporter or interest Subsequently, 
the Institute's climate program is independently reviewed and approved 
by our board of directors. The Institute's Chief Executive Officer, 
William O'Keefe, has an acknowledged private business relationship with 
ExxonMobil. We participate in numerous meetings and conferences 
discussing climate change, some of which involve sponsors or potential 
sponsors.

Questions Submitted by Representative F. James Sensenbrenner Jr.

Q1.  In 2005 the Marshall Institute reported on the funding for climate 
change research, in particular you contrasted the difference between 
contributions from industry with those of private foundations and the 
Federal Government.

A1. Yes, we published a report in 2005, Funding Flows for Climate 
Change Research and Related Activities (http://www.marshall.org/
article.php?id=289), examining financial support by foundations and the 
Federal Government to non-profit groups and universities for climate-
related activities. We were motivated to explore the efforts which are 
often made to impugn the credibility by virtue of their associations 
and financial relationships rather than scrutiny of their beliefs or 
objective research.

Q2.  Please walk us through your findings. In particular, how does 
funding from industry differ with funding from private foundations?

A2. Our study compiled data on grants from private foundations to 
nonprofit institutes for the period 2000-2002 and for Federal 
Government expenditures over a range of years. Our main findings were:

        <bullet>  The study of climate change science and the policy 
        ramifications of climate change is a multi-billion dollar 
        enterprise in the United States.

        <bullet>  Private foundations distribute a minimum of $35-50 
        million annually to nonprofit organizations and universities to 
        comment on or study various elements of the climate change 
        debate. With respect to foundation grants, unlike many other 
        studies of the same topic, we limited our focus solely to those 
        grants specifically designated as supporting a climate change-
        related effort. Given this constraint, our estimates are, if 
        anything, low.

        <bullet>  This support was significant for many of the 
        receiving institutions. Climate change-related projects 
        accounted for over 25 percent of the three-year total reported 
        grants and contributions received by 10 of the top 20 
        institutions. For six organizations, climate change grants 
        accounted for 50 percent of their reported grants and 
        contributions received.

        <bullet>  A cursory glimpse of the list of recipients of those 
        private funds reveals that the vast majority are spent by 
        groups favoring restrictions on carbon dioxide emissions and 
        who believe that climate change requires dramatic government 
        action.

        <bullet>  The U.S. Federal Government spent nearly $2 billion 
        to support climate change science programs in FY 2004.

        <bullet>  More than 2,000 separate climate change-related 
        grants were distributed by federal departments and agencies in 
        FY 2002, the most recent year for which comprehensive data is 
        available.

        <bullet>  Federal support for R&D in the environmental sciences 
        field has tripled in the past 20 years, rising from $1.2 
        billion in 1980 to $3.6 billion in 2002, according to data 
        available from the National Science Foundation.

        <bullet>  In the field of atmospheric science, for example, 
        federally funded R&D accounted for more than 80 percent of 
        total expenditures for nearly one-half of the top 30 
        institutions in the five-year period (1998-2002).

        <bullet>  If funding alone invariably affects findings and 
        opinions, then what should we make of the significantly greater 
        amounts spent by foundations and the Federal Government? The 
        American scientific enterprise is critically dependent on 
        funding from the Federal Government and without that support 
        would contract dramatically. While the growth in federal 
        support for R&D brings new opportunities, it also has resulted 
        in near complete dependence of individual researchers and 
        university programs on publicly-financed R&D. Yet, the focus 
        remains on the alleged distorting influence of corporate 
        funding on scientific results despite the fact that there are 
        powerful incentives to avoid such conflicts of interest. In the 
        end, if the alleged distorting influences of financial ties are 
        true, then they impact all participants in the marketplace of 
        ideas.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
